<html>
<title> - PREPAREDNESS FOR THE 2008 WILDFIRE SEASON</title>
<body><pre>[Senate Hearing 110-540]
[From the U.S. Government Printing Office]


2008

                                                        S. Hrg. 110-540
 
               PREPAREDNESS FOR THE 2008 WILDFIRE SEASON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

 CONSIDER THE PREPAREDNESS OF THE FEDERAL LAND MANAGEMENT AGENCIES FOR 
                        THE 2008 WILDFIRE SEASON

                               __________

                             JUNE 18, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                     U.S. GOVERNMENT PRINTING OFFICE
44-854 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Cason, James, Associate Deputy Secretary, Department of the 
  Interior.......................................................     2
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     4
Judd, Casey, Business Manager, Federal Wildland Fire Service 
  Association, Inkom, ID.........................................    41
Miley, Deborah, Executive Director, National Wildlife Suppression 
  Association, Lyons, OR.........................................    48
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................     5
Thatcher, Ron, President, Forest Service Council, National 
  Federation of Federal Employees, International Association of 
  Machinists and Aerospace Workers, Libby, MT....................    31
Stanley, Christina M.............................................    55

                                APPENDIX

Responses to additional questions................................    57


                       PREPAREDNESS FOR THE 2008 
                            WILDFIRE SEASON

                              ----------                              


                        WEDNESDAY, JUNE 18, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK, why don't we get started here, in the 
interest of time. I understand Senator Domenici is on his way 
and will be here shortly, but we want to just go ahead.
    At a time when much of the country is faced with 
devastating floods, other parts of the country are faced with 
the problems of wildfires, and the hearing today will focus on 
the preparedness of Federal agencies for the current wildfire 
season.
    So far, it's been a very active season, many major 
wildfires from coast to coast, including the Trigo fire in my 
home State of New Mexico, which burned dozens of homes and, I 
believe, in excess of 10,000--I think 13,000 acres was the last 
figure I saw. All indications are that the rest of the season 
will again strain budgets and firefighters and natural 
resources.
    During the last 8 years, we've experienced an average of 
more than four times as many days where agencies were at risk 
of running out of fire suppression resources than we did during 
the previous 10-year period. Last year, the agencies suffered 
the third-highest number of such days since 1990, leaving many 
wildfire managers with their requests for emergency 
firefighting resources unfulfilled. These numbers indicate that 
our preparedness has not kept pace with the dramatic increase 
in fire activity that we've experienced during these last 8 
years. Nevertheless, in each of the last five budget proposals 
from the Administration, we've seen recommendations to cut the 
wildfire preparedness budget. In fact, in the President's 
budget, had we gone at that level, we would be facing this 
summer with nearly a $100-million cut from in that budget, 
something which the Senate Appropriations Committee thankfully 
rejected.
    In recent years, the committee has considered many 
different aspects of wildfire management, including the 
pressing need for cost containment, the impacts of global 
warming on wildfire behavior, fuel reduction policies, and 
firefighter safety. This year, we also are considering some of 
the serious human resource challenges that our firefighters and 
agencies are facing. Accordingly, we'll hear from a number of 
organizations that represent wildfire fighters as part of our 
second panel.
    I'd also like to briefly comment on the continuing need for 
attention to the issue of global warming. Although we were not 
successful in having an extended debate on that issue when it 
was brought up a couple of weeks ago with the proposal for a 
cap-and-trade system, it is a topic which is certain to recur 
on our agenda. The incredible increase in fire activity we have 
seen clearly is associated with changes in our climate. As a 
result, we now spend billions of dollars more on wildfires than 
we did just 15 or 20 years ago, and we are losing more and more 
homes to fire, as well.
    So, it seems to me one of the most important things we need 
to do over the long term is to improve our wildfire 
preparedness, our control of fire suppression costs, and we 
need to reduce the strain on firefighters, communities, and the 
natural resources involved as part of dealing with climate 
issues. I look forward to a much more productive effort in the 
years ahead.
    So, with that, let me go ahead and call on our first panel, 
which is made up of The Honorable Mark Rey, the Under Secretary 
for Natural Resources and Environment in the Department of 
Agriculture, and James Cason, who is the Associate Deputy 
Secretary with the Department of Interior.
    You can proceed in whatever order you think is most 
appropriate, and then I'll have some questions.
    Go right ahead.

     STATEMENT OF JAMES CASON, ASSOCIATE DEPUTY SECRETARY, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cason. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify today on the wildland preparedness for 
the 2008 fire season.
    Since the Department of Interior and the Department of 
Agriculture work closely together in fire management, the two 
departments are providing a joint statement.
    The Administration makes the protection of communities, the 
environment, and firefighters a priority, and included funding 
the full inflation-adjusted 10-year average for the wildland 
fire suppression in fiscal year 2008.
    Wildland firefighting activity has expanded and become more 
complex in recent years, contributing to the increased 
expenditures by the departments. As this committee has pointed 
out, these costs have escalated dramatically. The inflation-
adjusted 10-year average for wildland fire suppression of the 
two departments, or $1.3 billion, is nearly three times the FY-
2001 level of $472 million.
    Fire activity in 2007 was above normal by many standards. 
Across all jurisdictions, wildland fires total more than 85,000 
incidents, burning over 9 million acres, including more than 
16,000 wildfires that burned 5.7 million acres on Federal 
lands.
    Last spring's drought and high temperatures resulted in 
burning over 1.4 million acres in Florida and Georgia. The 
summer saw extreme fires in Utah, Nevada, and Idaho, with six 
of the year's largest fires occurring in these States. Last 
year, the U.S. Forest Service spent nearly $1.4 billion on all 
fire suppression, while Department of the Interior spent 
approximately $470 million on all fire suppression.
    We are pleased that even in the face of a such a long and 
severe fire year, we achieved effective initial attack-and-
suppression success on all fires. Working with our State, 
tribal, and local government partners, fewer homes were 
destroyed, approximately 2,900 homes lost in 2007, compared to 
4,500 homes lost in 2003, the most recent year that California 
endured a prolonged, extreme fire event.
    Most of the eastern, central, and northwestern U.S. is 
predicted to have a normal outlook for significant wildland 
fire potential in 2008. Above-normal significant fire potential 
is expected across portions of southern California, the 
Southwest, Western Great Basin, the Rocky Mountains, Alaska, 
and Florida.
    For June-through-September period, significant fire 
potential is forecast to persist or increase in portions of 
California, the Southwest, Western Great Basin, and the Rocky 
Mountains. Significant fire potential will decrease across 
Florida, eastern New Mexico, western Texas, Alaska, and the 
southeastern portions of the Rocky Mountain area as the year 
progresses.
    The fire season has already produced incidents that are 
evidence of the potential for the 2008 fire season. As of May 
31, 2008, over 29,000 fires have burned in excess of 1.5 
million acres.
    For the 2008 fire season, we will have available 
firefighting forces, firefighters, equipment, and aircraft 
comparable to those available in 2007. More than 18,000 
firefighters will be available, including permanent and 
seasonal Federal and State employees, crews from tribal and 
local governments, contract crews, and emergency or temporary 
hires. This figure includes levels consistent with 2007 of 
highly trained firefighting crews, smoke-jumpers, Type-1 
national interagency incident management teams--those are the 
most experienced and skilled teams available for complex fires 
or incidents--and Type 2 incident management teams available 
for geographic or national incidents.
    The National Interagency Coordination Center, located at 
the National Interagency Fire Center in Boise, Idaho, 
coordinates firefighting needs throughout the Nation. In the 
event of multiple, simultaneous fires, resources are 
prioritized, allocated, and, if necessary, reallocated by the 
National Multi-Agency Coordinating Group composed of 
representatives of major fire organizations headquartered at 
NIFC. If conditions become extreme, assistance from the 
Department of Defense is available under standing agreements, 
as well as firefighting forces from Canada, Mexico, Australia, 
and New Zealand, using established agreements and protocols.
    Recruitment, retention, and training of our firefighters 
are an important focus of the Department, one that is critical 
to our success. We are committed to the brave women and men 
across the country serving as wildland firefighters and 
wildland fire program managers.
    The two departments are working with the Office of 
Personnel Management to advance educational requirements for 
our professional firefighter managers in the series GS 401 
within the timeframes that have been set. The departments 
believe that the 400 series provides an advantage to its 
employees as a professional series that offers a broad range of 
natural resource leadership opportunities, as opposed to 
narrowly defined classification that may limit opportunities.
    Further, the positive educational requirements allow for 
better integration of fire management into the portfolio of 
skills necessary to achieve balanced knowledge of land and 
resource management.
    With that, Mr. Chairman, I'm going to turn the rest of the 
opening comments to Mark Rey, from the Forest Service.
    The Chairman. Let me just see if Senator Domenici wanted to 
make any statement, before you start, Mark, as an opening 
statement.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. I would, Mr. Chairman, and I thank you 
very much for letting me do that. I apologize for being late. I 
thank both of you for being here.
    Under Secretary Rey, I also want to thank you for your 
focus on resolving the 401 firefighters classification issue, 
which I spoke to you about at Interior appropriations in April.
    Mr. Chairman, I was elected to the Senate, as we both know, 
in 1972. In those 36 years, we have seen the total burned each 
year grow from an average of 2 to 3 million acres to an average 
of 8 to 9 million acres per year. Over 154.8 million acres have 
burned since I was first elected to the Senate. But, what is 
stunning is that 58.5 million of those acres have burned in 
just the last 7 years. Think of that. In 7 years, we have 
burned an area almost equal in size to the entire State of 
Oregon or slightly larger than the State of Utah.
    I would also note that the trend of acreage burned versus 
the number of acres managed by the Forest Service through 
timber sales and pre-commercial thinning is troubling. As the 
number of acres that have been treated has gone down, the 
number of burned acres has increased. From 1984 to 1993, the 
average burn rate was 3.7 million acres per year, and the 
Forest Service treated nearly a million acres annually. From 
1994 to 2003, the average burn rate was 4.9--let's make it 5 
million acres per year--while the Forest Service treated an 
average of only 550,000 acres. In the last 7 years, 2000 to 
2007, the average yearly burn has been 7.3 million acres, yet 
the Forest Service fuels-reduction work fell to an average of 
470,000 acres annually. Seems to be falling further each year. 
In my mind, it's one of those inconvenient truths that we have 
to face up to. We are spending more time managing less, burning 
more, and, as a result, we are having to cut funds to other 
important resource programs such as recreation, fisheries, and 
wildlife.
    At the same time, we are increasing the carbon dioxide and 
other pollutants that get pumped into the air by these fires. I 
would hope that Congress someday, hopefully soon, can get 
beyond the timber wars and focus on ways to reduce fire 
severity, increase utilization of forest products, and reduce 
the amount of money we're forced to spend on fighting fires 
every year.
    Mr. Chairman, thank you, again, for holding today's 
hearing. If the hearing goes as planned, I have a closing 
statement that's shorter, 1 and a half pages, that summarizes, 
from another aspect, what I've just said.
    Thank you very much.
    The Chairman. Thank you very much.
    Secretary Rey, why don't you go right ahead.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
             ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you.
    Secretary Cason left off with the educational requirements 
for the 401 series, and I want to submit for the record an 
update of where we're at on that. I think we're moving to an 
acceptable solution and won't dwell on it further.
    [The information referred to follows:]
               USDA/USDOI GS-0401 Update Fire Management
Date: April 25, 2008.
Update June 12, 2008.
                              introduction
    This update addresses employees who currently occupy a GS-0401 Fire 
Management Specialist (FMS) position and employees in GS-0301, 0462 and 
0455 fire technician positions who were scheduled to be converted to 
GS-0401 FMS positions over a five year transition period. These 
employees are required to meet the positive education and specialized 
experience requirements outlined in the Office of Personnel Management 
(OPM) Supplemental Qualification Standard for the Department of 
Agriculture--Forest Service and Department of Interior--Bureau of 
Indian Affairs, Bureau of Land Management, Fish and Wildlife Service 
and National Park Service.
                               background
    Following the deadly South Canyon Fire in 1994, an interagency team 
was formed to investigate the contributing factors to the fatalities. 
The subsequent 1995 Federal Wildland Fire Policy and Program Review, 
signed by both Secretaries of Agriculture and the Interior, directed 
Federal wildland fire agencies to establish fire management 
qualifications standards to improve safety and increase professionalism 
in fire management programs. After extensive effort, the Interagency 
Fire Program Qualifications Standards (IFPM) and Guide were completed.
    Standard positions descriptions were developed, classified and 
approved for coverage at the Departments for all 14 key positions that 
were identified as part of the IFPM Guide. The 5-year implementation 
plan was approved by the Secretaries of USDA and USDOI.
    The ``Minimum Qualification Standards'' (MQS) for IFPM contained 
four separate components: a positive education requirement as 
applicable; specialized experience; National Wildfire Coordinating 
Group (NWCG) position qualifications; and additional required training 
(if applicable). The OPM Supplemental Standards for GS-0401 Fire 
Management Specialist requires a degree in biological sciences, 
agriculture, natural resources management or a related discipline, or 
courses equivalent to a major in biological sciences, agriculture, 
natural resources management, or at least 24 semester hours in 
biological sciences, wildland fire management, forestry or agriculture 
equivalent to a major field of study, plus appropriate experience or 
additional education that is comparable to that normally acquired 
through the successful completion of a full 4-year course of study in 
the biological sciences, agriculture or natural resources. Of the 14 
key positions identified in the IFPM Guide, the positive education 
requirement addresses all positions identified as ``professional'' 
positions. This includes all positions classified at the GS-11 level 
and above and some GS-9 positions based on the complexity of the unit. 
This update addresses the requirements identified in the OPM 
Supplemental Standards for GS-0401 Fire Management Specialists series 
positions.
    The fire management agencies have worked closely with academia for 
many years in an effort to develop curricula specific to fire 
management. Attachment #1 is a list of colleges and universities where 
the Forest Service currently has agreements in place or is developing 
them now.
                             program scope
    The Forest Service and Department of the Interior agencies have an 
estimated 1000 positions affected by OPM educational requirements for 
GS-0401qualification. The number of Fire Management Specialists who 
occupy mid-to upper-level fire positions having a positive education 
requirement is estimated at 800. The Forest Service has identified an 
additional 200 professional positions at the District level that fall 
under a separate agency-specific timetable.
    On February 15, 2005, OPM issued new educational requirements in 
response to congressional direction. This change resulted in previously 
creditable NWCG courses no longer being creditable towards meeting the 
positive education requirements of the 0401 qualification standard. 
Courses are now creditable only if they appear on a transcript from an 
accredited institution.
    This decision affects employees in two different groups. First, 
there are employees who were placed in GS-0401 positions but do not 
meet the positive education requirement. The agencies have identified 
the employees and are working aggressively to ensure they meet the 
education requirement as quickly as feasible. OPM has granted the 
agencies until October 1, 2010 for employees to continue working in the 
wildland fire program while they meet the education requirement. The 
Department of the Interior estimates 37 employees and the Forest 
Service estimates 30 employees are in this category.
    FS Status as of June 2008: (To be updated quarterly)

          1. 30 Forest Service employees have been identified.
          2. HCM will notify these employees by July 11, 2008, of what 
        they are lacking to meet the positive education requirements 
        pending the receipt of documentation. ( HCM responsible staff)
          3. Employees will have signed agreements, IDPs and a plan of 
        action in place by September 5, 2008. (Fire and Aviation 
        Management responsible staff).

    The second groups of employees are those who hold positions slated 
to transition to GS-0401 FMS positions over the implementation period 
which has also been extended to October 1, 2010. At this time, the 
Forest Service and Department of the Interior estimate 236 employees in 
this status. The Forest Service estimates a maximum of 170 employees, 
and the Department of the Interior estimates 66 employees in this 
category. Therefore, we estimate the total number of employees affected 
by this standard change and are in the process of meeting educational 
requirements of the GS-0401 qualifications to be approximately 300 
employees.
    FS Status as of June 2008: (To be updated quarterly)

          1. Forest Service is hiring a Contractor to review the 
        education and coursework for the estimated 170 employees slated 
        to transition to the GS-0401 series by October 2010.
          2. Contractor targeted to be in place by July 14, 2008.
          3. Review estimated to be completed by September 30, 2008.

    Accomplishments and Actions: The following summarizes actions that 
were previously in place and recent additions. They apply to all 
employees currently seeking GS-0401 Fire Management Specialist series 
qualification including those erroneously placed in the series on or 
after February 15, 2005. The process is being communicated to managers 
and the field as indicated:

  <bullet> Agencies have sent out correspondence to make sure that 
        affected employees in the GS-0401 Fire Management Specialists 
        series are aware of the OPM changes.
  <bullet> Fire Managers have been briefed on the GS-0401 Fire 
        Management Specialist changes.
  <bullet> Human Resources specialists have been made aware of the OPM 
        changes.
  <bullet> Human Resources specialists have reevaluated employees who 
        were erroneously placed in GS-0401 Fire Management Specialists 
        positions.
  <bullet> Employees affected by the OPM policy are being notified and 
        told how the change has affected their positive education.

    Short Term Accomplishments and Actions: These actions are planned 
to assist all employees in completing the positive education 
requirements for the GS-0401 Fire Management Specialist series.
    Continue to ensure both management and affected employees clearly 
understand what constitutes creditable coursework.

  <bullet> Ensure supervisors and employees understand their respective 
        roles.
  <bullet> Ensure that all agreements are in place between management 
        and the employee (FS Due 08/01/08).
  <bullet> Continue to support employees attending universities or 
        colleges through Individual Development Plans.
  <bullet> Continue to collaborate with universities and colleges that 
        maintain fire management courses as part of their curriculum 
        (For many of the programs already in place see attachment 1).
  <bullet> Encourage enrollment and completion of Technical Fire 
        Management (TFM), a program that has provided 18 semester hours 
        of qualifying courses since 1982.
  <bullet> Where agreements are in place, agencies will continue to 
        provide tuition support for Technical Fire Management courses 
        and possibly other applicable educational coursework as 
        approved in employee development plans.
  <bullet> Ensure, by meeting with each individual, that all those 
        employees erroneously qualified and placed after Feb 15, 2005, 
        have a written plan of the actions needed to meet the GS-0401 
        requirements (FS Due 06/30/08).
  <bullet> If needed, Agency leads at the Geographic or National level 
        will continue to identify additional institutions and formalize 
        procedures for seeking retroactive approval and transcription 
        of creditable NWCG courses.
  <bullet> For the Forest Service -where agreements are in place, 
        agencies will pay for any past credits when they are creditable 
        toward GS-0401 Fire Management Specialist standards through 
        October 1, 2010.
  <bullet> Agency program leads at the Geographic and National level 
        have and will continue to identify in-state tuition, distance 
        learning and regional opportunities to limit costs when 
        possible.

    Long Term Accomplishments and Actions: These actions are planned 
assist all employees with the migration` beyond the transition period 
from technical (GS-0301, 0462 and 0455) to the professional GS-0401 
Fire Management Specialists series:

  <bullet> National and Geographic program leads will continue to 
        encourage more universities to develop Wildland Fire Science 
        degree programs and integrate applied science to the field in 
        the form of creditable internships with Federal and State 
        agencies (FS Due 10/01/10).
  <bullet> Work with additional universities and colleges to enter into 
        agreements to accept NWCG courses within their existing 
        curriculum or expand their curriculum to accept NWCG courses 
        toward a Wildland Fire Science or other Natural Resource 
        Management degrees (FS Due 10/01/10).
  <bullet> National and Geographic program leads will continue to 
        encourage universities to create more on-line or compressed 
        courses that would be available to employees at isolated duty 
        stations or in situations where they are less capable of 
        attending formal classroom courses.
  <bullet> Data is continually being added at the local level to the 
        Incident Qualifications and Certification System and monthly 
        have been and will continue to be pulled to track 
        accomplishments and identify trends.

    Note: Not all actions will be completed by the Forest Service and 
DOI. Some actions are Forest Service-specific and vice versa.
                             Attachment #1
    The table lists universities and colleges where current agreements 
are in place for Natural Resources/Biological Science and/or some NWCG 
curriculum. However, this is not an exhaustive list. It is important to 
note that any course offered by any college or university is considered 
qualifying if it meets the academic requirements identified in the Fire 
Management Specialist Supplemental Standards. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

    He also talked about our commitment to retaining our 
firefighters where there are challenges, particularly in 
southern California, and I'd like to submit for the record a 
detailed report on that situation.
    [The information referred to follows:]
    Fire and Aviation Management Recruitment and Retention Analysis
                          usda forest service
Introduction
    This report is in response to the following language in the 
Explanatory Statement accompanying the Consolidated Appropriations Act 
of 2008 (P.L. 110-161).

          The Appropriations Committees are aware that the Forest 
        Service is facing challenges to recruit and retain wildland 
        firefighters in Region 5, particularly on Southern California 
        forests, due to the agency's vastly different pay scales and 
        personnel policies and the high cost of living in the region. 
        The Forest Service should examine Federal firefighter pay and 
        personnel policies and provide the House and Senate Committees 
        on Appropriations with a proposal to increase recruitment and 
        retention for Southern California forests no later than 
        February 1, 2008.

    The Forest Service (FS) appreciates the patience of the 
Appropriations Committees in allowing Region 5 and the national 
headquarters to develop a thorough analysis of this complex set of 
issues. The dynamics studied in this proposal are controversial and 
will not be solved quickly or easily. For that reason, our proposal 
includes a series of long term suggestions to address the issues 
identified above.
    It is important to note two things about the national context 
surrounding this report. First, the efficacy of Forest Service initial 
attack response has not diminished. The success continues to stay 
around 98% for all initial attack incidents. The agency is committed to 
maintaining this high level of success. Second, recent increases in 
Fire Suppression expenditures have been well documented, as has the 
resulting impact on other agency programs. In response, Forest Service 
leadership has aggressively implemented cost containment measures, 
resulting in decreased Suppression costs in FY 2007. It is essential 
that the proposals related to Region 5 firefighter recruitment and 
retention support both continued initial attack success and cost 
containment efforts.
    The issues highlighted by this report will continue to be closely 
monitored.
Issues Examined
    The issues examined in the report are widely circulated and are 
frequently polarizing; therefore the methods used to complete the 
analysis relied on data from a variety of sources. Rates of attrition 
were from Region 5 records, Forest Service Human Capital records and 
the Office of Personnel Management. Pay data was from employees' W-2's 
both CAL FIRE and U.S. Forest Service. The reasons for leaving were 
provided from exit interviews in Region 5.
    Forest Service Human Capital Management staff reviewed pay act and 
authorities and determined there are actions available locally, 
regionally and nationally. The Regional Forester and other line 
officers have discretion in the application of these authorities.
    There is a perception, as noted by the Appropriations Committees 
and confirmed through informal employee sensing, the Forest Service 
faces recruitment and retention challenges in Southern California. 
While a detailed analysis shows the region has some retention 
challenges, it also suggests the problems are manageable.
    A 10-year analysis of permanent fire workforce in Region 5 reveals 
several important trends.

          1) The total number of permanent Fire and Aviation Management 
        staff in the region nearly doubled between 1997 and 2007, from 
        1,257 to 2,290. An 82% increase indicates successful 
        recruitment efforts, not the opposite.
          2) In 2007 the Region 5 Fire and Aviation Management staff 
        experienced 370 retirements, resignations and transfers. 
        However, recruitment resulted in a net gain of 68 employees, or 
        3%.
          3) The overall Forest Service attrition rate in Southern 
        California (9.4%) is actually lower than the national Federal 
        attrition rate (13.4%).*
---------------------------------------------------------------------------
    * Figures 1-4 have been retained in committee files.

    These statistics indicate that recruitment is outpacing attrition 
in Region 5. Furthermore, attrition within Southern California is well 
within national averages. Based on these trends, it appears that 
recruitment and retention are within expected norms. However, there are 
areas within the statistics cited above which deserve closer 
examination, and which the proposals of this report will address.
    First, the largest component of separations within the Region 5 
Fire and Aviation Management organization come at the GS-4 level, where 
the attrition rate is 46.6%. Attrition rates above the GS-4 level do 
not differ significantly from regional or national averages.
    Second, a higher percentage of separations are due to resignations 
(as opposed to retirement or transfers) than the regional or national 
average (Figure 2). Exit interviews indicate that 44% of those leaving 
the Forest Service went to CAL FIRE or local fire departments (Figure 
3).
    Thirdly, these trends are most pronounced on the Angeles National 
Forest and the San Bernardino National Forest, which saw the most 
resignations of any Region 5 forests. Of the resignations on these two 
forests in 2007, 45% were at the GS-4 level, and 61% went to State, 
county or local fire departments. The attrition rates for the two 
forests were 12.2% and 9.3% in 2007, according to Region 5 data.
Pay Scales, Cost of Living, and Personnel Policies
    Local perception, as noted by the Appropriations Committees, is 
Forest Service pay scales and personnel policies, coupled with the high 
cost of living in Southern California, make it difficult to attract and 
retain Fire and Aviation Management workforce in the region. Upon 
closer examination, the perception of the effects of pay scale and 
personnel policy discrepancies and high cost of living appears to be 
unsupported by the data.
            Pay Scales
    Comparison of Forest Service and CAL FIRE payment and hours worked 
data for 2007 suggests that actual hourly rates of pay are comparable. 
It was difficult to determine the appropriate metric for comparison as 
the pay, staffing and personnel policies differed greatly. Wages as 
shown on W-2 forms were chosen as a measure. Cal Fire employees on 
average for the three (3) positions examined worked about 62% more 
hours (4,457 v. 2,768) than their Forest Service counterparts. The 
comparison of pay and hours is not straight forward due to personnel 
policy differences, such as portal-to-portal pay and planned overtime 
that guarantee Cal Fire firefighters more total hours annually. 
Nonetheless, when accounting for all hours worked, overtime and hazard 
pay rates (see Figure 4):

    --Average pay of Firefighter II is $2.81/hour higher in FS than CAL 
            FIRE
    --Average pay of Fire Engineer is $5.36/hour higher in FS than CAL 
            FIRE
    --Average pay of Fire Captain is $7.08/hour higher in FS than CAL 
            FIRE

    Although Forest Service hourly pay is equal or higher, staffing 
plans guarantee CAL FIRE employees more hours and consequently more pay 
annually. In addition, Cal Fire employees work a 72 hour, three day 
shift, benefit from 24 hour pay while on fire assignments, and have a 
more generous retirement plan. Federal wildland fire staffing is 
closely tied to the threat of wildland fire activity, which occurs 
within a defined season. To ensure initial attack success and public 
safety during the fire season at the most reasonable cost to taxpayers, 
the Forest Service uses variable staffing, seasonal aviation 
contracting and seasonal employees.
    The data in the table above (figure 4) was developed from actual 
2007 W-2 data randomly selected from a sample of Forest Service 
employees in Southern California. It includes overtime and hazard pay. 
The Cal Fire data is actual 2007 compensation provided by their agency. 
Cal Fire employees do not receive hazard pay. The average hourly rate 
is computed by dividing the total compensation by the total hours 
worked. Unplanned overtime is highly variable for employees of both 
agencies.
    Forest Service employees at the GS-04 and 05 grades are Permanent 
Seasonal employees either 13/13 or 18/08 (guaranteed at least 13 pay 
periods or 18 pay period of employment out of a total of up to 26). Cal 
Fire employees are all full time employees.
    Cal Fire employees work a 72 hour schedule each week which is paid 
as 53 base hours and 19 planned overtime hours. Any time in excess of 
212 in a 28 day period is paid as unplanned overtime.
    It should be noted the two agencies have very different work 
schedule expectations and pay rules therefore actual compensation was 
averaged to determine the unplanned overtime.
Cost of Living
    Analysis performed by the Office of Personnel Management (OPM) 
indicates that Federal employees in Southern California do experience 
pay disparities compared to non-Federal workers. However, Los Angeles 
and San Diego are not the only localities where this is true, nor do 
they experience the most severe disparities. In fact, the pay disparity 
in Los Angeles is below the national average, and San Diego's is 
comparable. Below is a table of 2007 pay disparities for comparison.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Personnel Policies
    Comparing personnel policies of Federal wildland fire agencies with 
local and state fire agencies is complex. While it is natural for 
employees to compare their job descriptions, compensation, and benefits 
with those of similar workers in close proximity, there are also 
important distinctions and valid differences between them. Forest 
Service fire management personnel in Southern California and across the 
nation are Forestry Technicians. This title reflects their land 
management orientation. In the course of their work, they collaborate 
with state and local employees of fire departments. This is a subtle 
but key difference. Even though both Federal wildland firefighters and 
fire department firefighters focus on fire, the mission purposes of the 
agencies differ, and so too do the roles and responsibilities of their 
respective personnel. Fire departments generally have an emergency 
responder role that includes traffic collisions, medical calls and 
other actions that are not wildland fires. That is to say, the Forest 
Service is a land management agency that employs wildland firefighters 
to accomplish land management objectives, while the mission of fire 
departments personnel focus on preserving life and property. Because of 
differing responsibilities, it is both impossible and inappropriate for 
the Forest Service to pay and staff the same way as these fire 
departments. For example the Forest Service does not allow fire 
fighters to enter structures to suppress these fires.
    The tendency of our employees, partners and the public to compare 
Forest Service fire management responsibilities to State and local fire 
departments points to a larger issue the Agency is facing regarding the 
need for a clear mission and definition of responsibilities for our 
firefighters in the wildland urban interface. Fires in recent years 
have become larger and more difficult to control due to a variety of 
factors, including climate change, historic fire suppression efforts 
resulting in increased density of hazard fuels, and expansion of 
residences in the wildland urban interface (WUI). This situation is 
acutely felt in Southern California where over 189,000 new homes have 
been built since 2003 in the Wildland/Urban interface. This growth 
poses a higher level of complexity on Wildland firefighting in fire 
adapted ecosystems. Therefore, the Agency must clearly express its 
emergency response role, and clarify distinctions between State and 
local fire department.
Proposed Actions
    The analysis outlined above suggests that the perceptions around 
recruitment and retention in Southern California are hard to 
substantiate based on data. An analysis of available data confirms that 
while issues regarding perceptions around recruitment and retention in 
southern California may exist, they cannot be objectively 
substantiated. Absent such substantiation, recommendations that the 
Office of Personnel Management depart from standard Federal pay rates 
or the agency seek other special personnel authorities are unwarranted. 
Further, such actions may have the unintended consequence of negatively 
affecting recruitment and retention elsewhere in the nation.
    Accordingly, key actions to be undertaken immediately by the Forest 
Service will be internal and external communication around these 
findings:

  <bullet> Region 5's Fire & Aviation Management recruitment rate is 
        greater than its attrition rate.
  <bullet> The attrition rate in Southern California is below national 
        averages.
  <bullet> On average, Forest Service hourly pay rates are actually 
        greater than those for comparable CAL FIRE positions.
  <bullet> Federal workers in Southern California are paid less than 
        their counterparts in the private sector, but other parts of 
        the country experience similar or worse rates of disparity.

    In the course of this analysis, additional issues outside the scope 
of the requested report have become evident; clearly there are morale 
issues which need leadership's attention and action. We refrained from 
making recommendations addressing these in the report as it is outside 
the scope of the committee's request. Additionally, these morale issues 
will take more time to review, validate and resolve. Leadership will 
focus attention on this important area and will keep the committees 
apprised of the situation and the progress to resolve the issues.
    In addition to increased communication around key issues, the 
Forest Service will consider specific long-term actions. These 
recommendations will consider potential morale and budget impacts 
resulting from providing special benefits solely to firefighters in 
southern California. Changing public and agency perceptions and 
ensuring employee morale will require active management over years. The 
recommendations below may be tools in that process.

  <bullet> Review and strengthen commitment to Wildland fire mission 
        with federal, State and local partners.
  <bullet> Strategically apply individual retention allowances and/or 
        special pay authorities within the discretion of the Agency.
  <bullet> Encourage use of optional work schedules and tours of duty.
  <bullet> Improve employee housing and working facilities.
  <bullet> Improve communications connectivity, training, and access.
  <bullet> Determine cost and feasibility of special pay in identified 
        high cost areas.
  <bullet> Renegotiate cooperative agreements to provide more equity 
        for Forest Service employees.
  <bullet> Monitor issues identified and adjust as necessary.

    Mr. Rey. Then I'll pick up where he left off and talk a 
little bit about our aviation assets as we talk about 
preparedness, and then talk about some of the cost control and 
fuels treatment initiatives we have underway.
    I have given, in the prepared statement, a detailed 
analysis of what our aviation assets will be for 2008. They 
will be comparable to the aviation assets that existed in 2007 
and in previous years, with a heavier emphasis on exclusive-use 
aircraft as a cost-savings measure.
    Now, in terms of what we have done to reduce costs, the 
Wildland Fire Management Program is moving in a positive 
direction. We've committed to continued improvement to increase 
our effectiveness and maximize our efficiencies, and the 
agencies will continue to face challenges outside of our 
control of such outside variables as the expansion of the 
wildland-urban interface and climatic and ecological changes. 
These have made the protection of life, property, and natural 
resources from wildland fire more complex, demanding, and 
expensive. However, we have the ability to make managerial 
decisions before and during fire incidents, and are working 
assertively on risk-informed management, cost management, and 
operational efficiencies, utilizing research and technology and 
targeted program implementation to reduce these impacts.
    We have continued to strengthen and expand the 
implementation of adopted policy of risk-informed management, 
with the appropriate management response as its guide. We've 
continued to focus on hazardous fuels treatment in the 
wildland-urban interface and in fire-adapted ecosystems. We 
have accelerated the development and deployment of decision 
tools, such as the Wildland Fire Decision Support System. We've 
used the Stratified Cost Index to inform resource deployment 
options. We're continuing to work on enhanced response and 
efficiency that comes with national shared resources and 
aviation resource cost management. We spent $100 million less 
in 2007 than we did in 2006 in a more adverse fire year. We 
spent 200 million less than the midrange projection of what we 
thought 2007 would cost, given the climate and weather 
predictive models that we used.
    We're in the process of finalizing a long-term interagency 
aviation strategy and we are now using routine after-action 
reviews to apply lessons learned from the large incidents that 
occur each year.
    Today, we released an independent study of controlled costs 
during the 2007 fire season done for us by the Brookings 
Institute.* The Brookings Institute Panel, which was a peer-
review panel, reviewed the 27 incidents in 2007 that each 
exceeded $10 million during the 2007 fire season. The review 
panel found that there was a much greater awareness of cost 
containment throughout the fire community in 2007, and that 
there was a concerted effort to make cost management more than 
just another competing priority.
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    The panel concluded that appropriate cost-containment 
initiatives were used in all 27 of the large fire incidents 
that they reviewed, and I'll submit the entirety of that 
record, released today, for your hearing.
    [The information referred to follows:]
                              News Release
                   usda forest service, press office
       Independent Study Finds Federal Agencies Controlled Costs 
                        During 2007 Fire Season
    WASHINGTON D.C., June 18, 2008,--An independent panel study, 
conducted by The Brookings Institution, found that the Forest Service 
and Department of the Interior exercised appropriate fiscal diligence 
during the 2007 wildfire season. The panel reviewed the 27 wildfire 
incidents that each exceeded $10 million in the 2007 fire season, 
totaling $547 million in suppression costs and nearly 3 million burned 
acres.
    The review panel also found that there was a much greater awareness 
of cost containment throughout the fire community in 2007. The panel's 
report compared the 27 wildfires in 2007 with the 18 wildfires that 
exceeded $10 million during the 2006 fire season. While both fire 
seasons were somewhat similar, in 2007 there was a ``concerted effort 
to make cost management more than just another competing priority,'' 
according to the panel. This was reflected in the choice of fire 
suppression tactics, the selection of incident teams, and the use of 
resources--especially on longer term fires.
    The panel also offered recommendations on the following key issues:

    --Transforming Fire Management Plans from program reference 
            documents into more strategic assessments of fire 
            management planning and policies.
    --Creating stronger linkages from Fire Management Plans to 
            Community Wildfire Protection Plans.
    --Ensuring that next generation decision support tools address 
            complex fire management and longer term fire scenarios.
    --Pursuing flexible suppression strategies, especially on extended 
            fires.
    --Revising the thresholds and selection criteria for regional and 
            national reviews.

    According to USDA Under Secretary Mark Rey, the Department is 
implementing cost management strategies and will develop an action plan 
to address the panel's recommendations.
    This independent study is chartered by the Secretary of 
Agriculture, per direction from congress, and has been successfully 
conducted since the fiscal year 2004. The complete 2007 report is 
available on the Forest Service Fire & Aviation Management Web site at: 
http://www.fs.fed.us/fire

    The Departments of the Interior and Agriculture have the 
best wildland firefighting organization in the world. I'm 
surprised that statement made through OMB clearance, since it's 
a bit modest--immodest. But, you know, as Dizzy Dean said, ``It 
ain't braggin' if ya done it,'' and we have maintained an 
efficiency of--at initial attack, of extinguishing nearly 98 
percent of the fires that we want to extinguish, and that's the 
measure that we look at, not how many dollars we spend, not 
necessarily how many people or materiel we deploy, but, Are we 
still extinguishing that high level of ignitions when we're in 
the midst of a fire season? That number, even with cost 
containment and cost savings, has remained the same.
    We've also continued to make the restoration of healthy 
forests and grasslands an environmental priority, and we've 
made great strides in accomplishing that goal. From 2001 
through the end of May 2008, the Forest Service and the 
Department of the Interior land management agencies have 
treated over 26 million acres, an area larger than the State of 
Ohio. We are now treating, on an annual basis, four times the 
acres that were treated during the decade of the 1990s.
    Now, that's odds with the numbers that you just presented 
to us, Senator Domenici, and I'll work your staff to reconcile 
them. But, I think the reason those numbers are at odds is that 
what you're providing is acres burned. We agree with the 
increase in acres burned annually. But, I think, in the numbers 
you use, you excluded any fuels treatment done by prescribed 
burning, and limited your analysis to mechanicals fuels 
treatment and commercial timber sale activity. If you limit the 
analysis that way, the net number is declining, but if you look 
at all the fuels treatment activities that we do--prescribed 
burning, thinning, the development of fuel breaks, and, yes, 
the reduction of fuels through commercial timber sales--if you 
look at all four of those categories, the number is going up 
significantly, not down.
    With that, we'd be happy to answer any questions that the 
panel has.
    [The joint prepared statement of Mr. Rey and Mr. Cason 
follows:]
   Joint Prepared Statement of Mark Rey, Under Secretary for Natural 
Resources and Environment, Department of Agriculture, and James Cason, 
         Associate Deputy Secretary, Department of the Interior
                              introduction
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify today on Wildland Fire Preparedness for the 2008 
fire season. Since the Department of the Interior (DOI) and the 
Department of Agriculture (USDA) work closely together in fire 
management, the two Departments are providing a joint statement.
    The Departments take seriously and perform professionally and 
honorably our roles as land stewards and managing wildland fire. The 
Administration makes the protection of communities, the environment, 
and firefighters a priority and included funding the full inflation-
adjusted 10-year average for wildland fire suppression in fiscal year 
2008.
    Wildland firefighting activity has expanded and become more complex 
in recent years, contributing to increased expenditures by the 
Departments. As this Committee has pointed out, these costs have 
escalated dramatically: the inflation-adjusted 10-year average for 
wildland fire suppression of the two Departments, $1.3 billion, is 
nearly three times the FY 2001 level of $472 million.
    The Departments have adopted substantive management reforms to 
mitigate this cost trend. The Departments and our partners have spent 
significant effort and resources over the past several years to 
coordinate capability, improve inter-governmental communication, and 
employ management controls to ensure effective response. At the same 
time we have increased attention to cost containment and these efforts 
are having an effect on suppression costs. For example, USDA saw a 
decrease of over $100 million on suppression expenditures in 2007 
compared with 2006 even though the size of wildfires and acres burned 
were greater. Likewise, Interior has instituted management controls in 
2008 to better manage overall suppression expenditures. Together, the 
Departments are committed to continue progress enhancing fiscal 
accountability, adopting best management practices, and improving 
efficient program delivery.
                          the 2007 fire season
    Fire activity in 2007 was above normal by many standards. Across 
all jurisdictions, wildland fires totaled more than 85,000 incidents 
burning over 9 million acres, including more than 16,000 wildfires that 
burned 5.7 million acres of Federal lands. Last spring's drought and 
high temperatures resulted in the burning of over 1.4 million acres in 
Florida and Georgia. The summer saw extreme fires in Utah, Nevada and 
Idaho with six of the year's largest fires occurring in these States.
    Last year, the U.S. Forest Service spent nearly $1.4 billion on all 
fire suppression while DOI spent approximately $470 million on all fire 
suppression. We are pleased that even in the face of such a long and 
severe fire year we achieved effective initial attack and suppression 
success on all fires. We will strive to maintain that level of 
performance. Although the 2007 fire season had 13 fires over 100,000 
acres, and 33 days in Preparedness Level 5--the highest level of fire 
activity during which several geographic areas are experiencing 
simultaneous major incidents and events in highly populated areas in 
Northern and Southern California, less money was spent by the Forest 
Service on suppression than in 2006. Working with our state, tribal, 
and local government partners, fewer homes were destroyed--
approximately 2,900 homes lost in 2007 compared with over 4,500 homes 
lost in 2003, the most recent year that California endured a prolonged, 
extreme fire event. In the face of increasing fire management 
challenges around the country and southern California wildfires last 
fall, the Departments demonstrated superior performance.
    The dedicated focus on hazardous fuels treatments and other forest 
restoration actions are making a difference in the wildland urban 
interface and a commitment to cost containment strategies are producing 
results.
                   2008 wildland fire season outlook
    Most of the eastern, central and northwestern U.S. is predicted to 
have a normal outlook for significant wildland fire potential in 2008. 
Above normal significant fire potential is expected across portions of 
southern California, the Southwest, Western Great Basin, Rocky 
Mountains, Alaska and Florida in June. For the June through September 
period, significant fire potential is forecast to persist or increase 
in portions of California, the Southwest, Western Great Basin, and 
Rocky Mountains. Significant fire potential will decrease across 
Florida, eastern New Mexico, western Texas, Alaska, and southeastern 
portions of the Rocky Mountain area. The primary factors influencing 
fire potential this outlook period are:

  <bullet> The amount of precipitation many areas receive in the early 
        summer periods is an important factor in the severity of the 
        fire season. Even with a rather wet period during the latter 
        half of May, most of the West has been drier than normal this 
        spring.
  <bullet> Drought conditions continue over portions of the West and 
        Southeast. However, improvement is expected in the Southeast 
        and to a lesser degree over Texas and New Mexico.
  <bullet> Abundant fine fuels across portions of the Southwest, 
        southern California deserts and Front Range of the Rockies may 
        lead to an above normal fire season in these areas.
  <bullet> Fire potential should begin to wane over the Southwest and 
        Florida in July due to the onset of the Southwest monsoon and 
        increasing humidity and showers in the Southeast. Late spring 
        snows could result in reduced fire potential in the Northern 
        Rockies.

    The fire season has already produced incidents that are evidence of 
the potential of the 2008 fire season. As of May 31, 2008, over 29,000 
fires have burned in excess of 1.5 million acres. About half of the 
incidents occurred in the southeast and they burned two-thirds of the 
acres. Large fires in Texas and Florida, which continue to experience 
long-term drought conditions, made up much of the spring acres burned.
                       wildland fire preparedness
    To prepare for conditions anticipated in the 2008 fire season, the 
Departments are working to improve the efficiency and effectiveness of 
our firefighting resources. Fire managers assign local, regional, and 
national firefighting personnel and equipment based on anticipated fire 
starts, actual fire occurrence, fire spread, and severity with the help 
of information from the National Interagency Fire Center Predictive 
Services group.
Firefighting Forces
    For the 2008 fire season, we will have available firefighting 
forces--firefighters, equipment, and aircraft--comparable to those 
available in 2007. More than 18,000 firefighters will be available, 
including permanent and seasonal Federal and State employees, crews 
from Tribal and local governments, contract crews, and emergency/
temporary hires. This figure includes levels consistent with 2007 of 
highly-trained firefighting crews, smokejumpers, Type 1 national 
interagency incident management teams (the most experienced and skilled 
teams) available for complex fires or incidents, and Type 2 incident 
management teams available for geographical or national incidents.
    The Forest Service hosts four interagency National Incident 
Management Organization (NIMO) teams staffed for 2008. They will 
operate with four seven-member full-time Type I Incident Management 
Teams ready to respond to wildland fire incidents. Already this year we 
are utilizing these teams in an interagency fashion in North Carolina 
on the Evans Road fire. These teams will not only assist in wildland 
fire incidents this season but implement the NIMO Implementation Plan, 
which calls for improvements in wildland fire program management in the 
areas of training, fuels management, cost containment, and leadership 
development, among others.
    The National Interagency Coordination Center, located at the 
National Interagency Fire Center in Boise, coordinates firefighting 
needs throughout the nation. In the event of multiple, simultaneous 
fires, resources are prioritized, allocated, and, if necessary, re-
allocated by the National Multi-Agency Coordinating group, composed of 
representatives of major fire organizations headquartered at NIFC. 
Prioritization ensures firefighting forces are positioned where they 
are needed most. Fire managers dispatch and track personnel, equipment, 
aircraft, vehicles, and supplies and are all managed through an 
integrated national system. If conditions become extreme, assistance 
from the Department of Defense is available under standing agreements, 
as well as firefighting forces from Canada, Mexico, Australia, and New 
Zealand, using established agreements and protocols.
    Recruitment, retention and training of our firefighters are an 
important focus of the Departments--one that is critical to our 
success. We are committed to the brave women and men across the country 
serving as wildland firefighters and wildland fire program managers. 
The two Departments are working with the Office of Personnel Management 
to achieve educational requirements for our professional fire managers, 
GS 401, within the time frame they have set. The Departments have a 
plan in place to outreach to employees affected by this policy and will 
make every effort possible to assist all affected employees who wish to 
meet these educational requirements. The Departments believe that the 
400 series provides an advantage to its employees as a professional 
series that offers a broad range of natural resource leadership 
opportunities as opposed to a narrowly defined classification that may 
limit opportunities. Further, the positive education requirement allows 
for better integration fire management into the portfolio of skills 
necessary to achieve balanced knowledge of land and resource 
management.
    The agencies are dedicated to active recruitment and retention of 
fire fighters as well. The Forest Service recently completed an 
analysis for California and found that the recruitment rate is greater 
than its attrition rate. In fact, the total number of permanent Fire 
and Aviation Management staff in the region nearly doubled between 1997 
and 2007, from 1,257 to 2,290. An 82% increase indicates successful 
recruitment efforts, not the opposite. Also, on average, Forest Service 
hourly pay rates are actually greater than those for comparable State 
positions. We acknowledge some National Forests areas in California 
have retention challenges, but we believe these situations are 
manageable. The Forest Service is currently assessing options to 
address this situation carefully in California and will implement 
approaches that are appropriate for the region shortly after June 30, 
2008. The agencies have begun to assess this issue nationally and 
expect progress on a strategy for ensuring a strong firefighting force 
into the future.
Aviation
    The wildland firefighting agencies continue to employ a mix of 
fixed and rotor wing aircraft. Key components of the Forest Service 
2008 aviation assets include approximately 20 civilian large air 
tankers on Federal contracts, along with up to 35 Type 1 heavy 
helicopters and 34 Type 2 medium helicopters on national exclusive-use 
contracts; 53 Type 3 helicopters on local or regional exclusive-use 
contracts, and 8 Modular Airborne Fire Fighting System units that will 
be available for deployment.
    Additionally, there are nearly 300 call-when-needed Type 1, 2 and 3 
helicopters available for fire management support as conditions and 
activity dictate. Likewise, Interior the lead contractor for Single 
Engine Air Tankers, will maintain a mix of aviation resources in 2008 
similar to that used in 2007, including call-when-needed and exclusive-
use SEATS along with two water scooper air tankers, 34 Type 3 
helicopters, and 11 Type 2 helicopters, as well as a mix of other 
classes of aircraft.
                    wildland fire management program
    The wildland fire management program in the two Departments is 
strong and moving in a positive direction. We are committed to 
continued improvement to increase our effectiveness and maximize our 
efficiency. The agencies will continue to face challenges outside of 
our control such as the expansion of the wildland-urban interface, and 
climatic and ecological changes. These have made the protection of 
life, property and natural resources from wildland fire more complex, 
demanding and expensive. However, we have the ability to make 
managerial decisions before and during fire incidents, and are working 
assertively on risk-informed management, cost management and 
operational efficiencies, utilization of research and technology, and 
targeted program implementation in order to reduce these impacts. More 
specifically, these actions include:

  <bullet> Continuing, under the guidance of the Wildland Fire 
        Leadership Council, to strengthen and expand the implementation 
        of adopted policy of risk-informed management with Appropriate 
        Management Response as its guide;
  <bullet> A focus on hazardous fuels treatments in wildland urban 
        interface areas and in fire-adapted ecosystems that present the 
        greatest opportunity for forest restoration and to reduce the 
        risk of severe fires in the future;
  <bullet> Accelerated development and deployment of decision tools 
        such as the Wildland Fire Decision Support System (WFDSS) to 
        support risk-informed incident management;
  <bullet> Use of the Stratified Cost Index to inform resource 
        deployment options;
  <bullet> Continuing to work on enhanced response and efficiency that 
        comes from national shared resources and aviation resource cost 
        management;
  <bullet> Execution of management controls--for the Forest Service, 
        the establishment of the Inter-Deputy Group, the Chief 
        Principle Representative, the Line Officer certification 
        process for incident management, and the enhancement of fiscal 
        monitoring and oversight;
  <bullet> Developing an Interagency Aviation Strategy intended to 
        provide a national strategy for the future procurement and 
        management of aviation resources;
  <bullet> After action reviews to apply lessons learned and best 
        practices to policy and operations.

    The Departments have the best wildland firefighting organization in 
the world and together with our state, local, and tribal government 
partners work to maintain our operational excellence and continually 
improve the fire management program.
    addressing wildland fire risk to communities and the environment
    This Administration made the restoration of healthy forests and 
grassland an environmental priority and has made great strides in 
accomplishing that goal. The Administration has focused its effort and 
dedicated its budget resources to improve hazardous fuels reduction on 
the nation's landscape. The Departments have aggressively treated 
hazardous fuels to help reduce the risk of catastrophic fire to 
forests, and rangelands. In this effort, we put the National Fire Plan 
(NFP), the Healthy Forests Initiative (HFI), and the Healthy Forest 
Restoration Act tools to work, as well as other land management 
activities to keep progress going. However, dangerous fuels conditions 
still exist in many areas in the United States and the Departments will 
continue their emphasis on reducing hazardous fuels on priority lands. 
The FY 2009 President's Budget provides $500 million in funding for 
hazardous fuels reduction, a level that is more than four times greater 
than in 2000, and over $927 million to the implementation of the 
President's Healthy Forest Initiative.
    The Administration has been and remains committed to restoring 
healthy conditions to our forests and rangelands, and protecting 
communities from wildfire. The effectiveness of these treatments in 
reducing wildfire severity and protecting property has been 
demonstrated time and time again. Several fires from last season, the 
Angora Fire in South Lake Tahoe, fires around the San Bernardino 
National Forest, and the complex fires in Florida and in Georgia around 
the Okefenokee National Wildlife Refuge illustrate this well. Specific 
accomplishments in this area are:

  <bullet> From 2001 through the end of May 2008 the Forest Service and 
        Department of the Interior land management agencies have 
        treated over 26 million acres, an area larger than the State of 
        Ohio, for fuels reduction on Federal lands, including about 21 
        million acres treated through hazardous fuels reduction 
        programs and over 5 million acres of landscape restoration 
        accomplished through other land management activities.
  <bullet> In 2007, despite a substantial national wildfire suppression 
        workload, the Forest Service and DOI reduced fuels and improved 
        ecosystem health on more than 4.7 million acres of land 
        nationally, of which over 3 million acres were treated through 
        hazardous fuels reduction programs and 1.7 million acres of 
        land restoration accomplished through other land management 
        activities. Of the total, 2.5 million acres of treatments were 
        performed in the WUI. As of the end of May we have together 
        already accomplished over 1.5 million acres of hazardous fuels 
        reduction and landscape restoration treatments in FY 2008.
  <bullet> U.S. Forest Service and DOI, in cooperation with our non-
        Federal partners, continue to increase the community protection 
        emphasis of the hazardous fuels program. Community Wildfire 
        Protection Plans (CWPPs) assist localities to reduce risk and 
        set priorities. Over 1,500 CWPPs covering more than 4,700 
        communities have been completed nationally.
  <bullet> Collaborative Stewardship Contracting has expanded. These 
        contracts facilitate projects that shift the focus of Federal 
        forests and rangeland management towards a desired future 
        resource condition of healthier forests and a means for 
        agencies to contribute to the development of sustainable rural 
        communities by adding local income and employment. To date, 428 
        Stewardship Contracts and agreements to work across almost 
        224,000 acres have been completed.
  <bullet> In 2007, to more adequately demonstrate the benefits of 
        fuels reduction treatments on fire risk, the Departments 
        continued to measure changes in the Condition Class of Federal 
        lands and we are currently working on metrics for forest health 
        changes that will help demonstrate the outcomes of projects 
        that remove fuels.
  <bullet> Since the advent of the National Fire Plan in 2000, federal 
        and non-governmental entities have collaborated operationally 
        and strategically to improve fire prevention and suppression, 
        reduce hazardous fuels, restore fire-adapted ecosystems, and 
        promote community assistance. The 10-year Implementation Plan, 
        with its performance measures and implementation tasks will 
        guide the agencies to build on this success with our partners.
                               conclusion
    This concludes our statement, we would be happy to answer any 
questions that you may have.

    The Chairman. Thank you very much.
    Let me start with a couple of questions.
    Mr. Cason, you referred to the fact that the inflation-
adjusted 10-year average for wildfire--wildland fire 
suppression for the two departments is three times what it was 
in fiscal year 2001. One issue I just wanted to raise again--
and I've raised it now for several years--is when you look at 
the number of acres burned by wildfires in the country, it's 
been going up, and it's been going up now for well over a 
decade, with very few exceptions. We would get a much better 
read on what resources we're going to need to fight wildfires 
if we had a shorter period that we looked at for averaging and 
estimating costs. Instead of continuing to look at a 10-year 
period, look at an average for the last 5 years, for example. 
Now, that would mean you'd have to ask for more money. That 
would mean Congress would have to appropriate more money. But, 
it would give us a more realistic estimate of the resource we 
need for this important activity. Would you agree with that, or 
not?
    Mr. Cason. Senator, I guess, from my view, I don't know the 
variability over time of the experience that we've had. I know 
it's been growing; and in the last 5 years, it's been more 
severe. So, if we used a 5-year period, and that was actually 
indicative of the future, that's probably true. Whether or not 
we return to a lower experience rate, I don't know whether 
that's going to happen. My crystal ball isn't good enough. So, 
I don't really have a good basis to say, yes, we should do a 5-
year average versus a 10-year average, or that we've just had 
unusual exposures here in the more recent 5 years. Certainly, 
with the prevalence of pervasive drought across the country, 
and with fuel loads the way they are, it's possible we'll 
continue to have pretty significant fire seasons. But, I really 
don't know whether we should go to 5 or 10----
    The Chairman. We don't have any estimates from any of the 
folks who crunch numbers within your Department, or anywhere in 
the Federal Government, that looks ahead 5 years and says, 
``This is what we expect by way of incidence of fires?''
    Mr. Cason. Mr. Chairman, I haven't seen any estimates that 
are like that. In my experience with other types of analysis, I 
think a lot of that gets driven by the assumptions that you 
use, as opposed to empirical data. So, I'm not aware that 
anybody's done that calculation.
    Mr. Rey. We probably have the capability of doing that, but 
I think we're almost a year away from making the issue moot, 
because, once we get past 1999, we're dealing with 10 fairly 
heavy fire years. I think the one----
    The Chairman. But fairly heavy compared to the previous 10, 
but not, perhaps, compared to the next 10.
    Mr. Rey. You know, the rate of increase over the last 
decade has not been that significant. 2000 wasn't that much 
higher than 2007.
    The one problem with a 5-year average is that if you get a 
really rainy year, let's say, then the--it's going to drop 
significantly, and you have fewer years to average that unusual 
drop against. So, it could work against you in some respects if 
you get a cycle where you get a lot of rain. 2005, for 
instance--
    The Chairman. But, if it worked against you, the only 
downside is, you'd have gotten more money than you needed.
    Mr. Rey. Or less, if that really good year, where the costs 
were very low, wasn't----
    The Chairman. Was averaged in.
    Mr. Rey [continuing]. Averaged against a longer number of 
bad years.
    The Chairman. Let me ask one other line of questions here. 
I gather that there are agency figures for 2007 that indicate 
that about 38 percent of the requests that were received from 
fire managers for fire crews went unfulfilled, 33 percent of 
the requests for overhead support went unfulfilled, and 37 
percent of the requests for helicopters went unfulfilled.
    Mr. Rey. Those are fairly typical numbers that occur when 
we're in preparedness level 5, when we have extreme fires 
burning in more--in three or more regions. You don't build a 
fire organization to pay for assets the full season that 
reflect what you need during the worst few days of that season; 
you build it on something that's closer to the average, and 
then you rely on the people at the Boise Interagency Fire 
Center to make priorities against the severity, location, and 
importance of the fires that are igniting. So, it is not 
uncommon to have that level of order unfillment, if that's a 
word, during preparedness level 5.
    Now, conversely, when we had the large southern California 
siege in the fall of 2007, we were at preparedness level 1 and 
2, because southern California was the only region that was 
burning, and we had no significant unfulfilled orders during 
that period of time. But, if you wanted to get down to a less-
than-10-percent unfulfilled orders year-round on every day that 
we're at preparedness level 5, two things would happen. One, 
you'd have to about double the amount of money you're spending 
to hire people, planes, and engines; and, two, for any day of 
the fire season when you're not at preparedness level 5, those 
people would sitting around twiddling their thumbs, because 
they wouldn't have anything to do.
    The Chairman. Let me just point out--my understanding is 
that when it says that 38 percent of fire managers' requests 
went unfulfilled during the year----
    Mr. Rey. That's not a true statement.
    The Chairman. That's not your understanding?
    Mr. Rey. No. It--they went fulfilled during the period of 
time that we were at preparedness level 5.
    The Chairman. So, that's just for that period where you----
    Mr. Rey. That's correct.
    The Chairman. Those are only a few days during the year.
    Mr. Rey. Yes, a relatively few days. You don't build, you 
know, to the most severe situation as you're trying to figure 
out what the right level of preparedness investments are; 
otherwise, you'd have people sitting around a good part of the 
year.
    The Chairman. My time's up.
    Senator Domenici.
    Senator Domenici. Thank you, Mr. Chairman.
    I'm pleased to note the presence of Senator Craig. I don't 
hold myself out to be anywhere near as prepared on this subject 
as he is, having worked on it for a long time.
    But, as I leave the Senate, I want to leave a few of my 
thoughts on the record. Perhaps you might follow up and tell me 
if I should strike them because I'm nuts.
    The Chairman. I'll cheer you. Go on.
    [Laughter.]
    Senator Domenici. But, look, I want to say to both of you, 
what I have to say has nothing to do with your management 
skills or you working hard--and you do--nor does it have 
anything to do with whether you have enough fire equipment, 
whether you have become a better manager of the tools and 
equipment and manpower to extinguish fires and protect 
property. All of those things are easy. You are much better 
prepared. You've just finished talking about it. All you have 
to do is go to a couple of fires, and you see what you've got. 
I mean, it's considerably different, on the plus side, than it 
was 10 years ago. Certainly I don't remember it when I was a 
young boy living in New Mexico, going to Hamus Mountain and the 
mountains around there, maybe five times a year, just to walk 
in the open spaces, because we were a family, believe it or 
not, of Italian immigrants that found a luxury of a mushroom 
that grew in the mountains of Tijeras, the Tijeras Mountains 
and others up there, grew just exactly like in northern Italy, 
where they came from. They had an Italian name. We never knew 
its English name, they were called ``cocore,'' and they were 
very big, white mushrooms that you could either eat fresh or 
dry, and they were a great luxury. So, I got to see what the 
forests looked like. I'm now 76. I got to see them when I was 
12 and 13 and 14.
    I've got to tell you, I go up there and take a look, and 
I'm not interested in walking in those forests anymore, because 
they're not the same forests they were when I was a kid. They 
are ugly. They are full of underbrush. They are full of trees. 
Instead of stately pine trees scattered that let you walk 
leisurely through the forests, pointing out to the little kids 
where the mushrooms are, you can't even see now.
    What I'm saying is, I have noticed, during my tenure as a 
Senator, that the forests look like nobody has bothered to try 
to manage them so that they would be accessible and usable and 
functional on a day-to-day basis, as they were some time ago.
    Now, as experts, you might have something to add to it, 
that they were better back yonder in some other respect. But, 
I'm just expressing what I said--what I saw. I said this one 
other time during this 36 years after a couple of visits, and I 
don't see any change. In fact, it's worse.
    The other thing I see that discourages me greatly is, when 
you have a fire, especially if it's a fire where there were big 
trees and modest-sized trees, like the one up at Los Alamos, it 
burns down, and then you see all these trees that were burned 
down for blocks upon blocks, using a block as a description of 
time. The first year after the burn, you say, ``Oh, they're up, 
they still look that way.'' The second year after the burns, 
``Oh, gee, they still look the same.'' Third, fourth, fifth, 
and now you're in the sixth year or seventh year, and nobody's 
touched them, and nobody's touched the forest. If you go up 
there and try to clean up or do something, it's just anathema, 
so nothing's done. You find infested forests, you see them, and 
they look just the same for 3, 4, 5 years, because nobody does 
anything about them; and if they do, they just leave it like it 
is.
    Now, to me, we can come here once or twice a year and talk 
about how many billions we are spending on forest-fire 
fighting, and I'm not very impressed, other than to say I 
guess, if we're going to have fires, we've got convince the 
people that we're going to have equipment and manpower to put 
them out. But, I wonder what's wrong with the idea of managing 
the forests better so that you're not spending so much money on 
putting our fires out and spending more on trying to manage the 
forests, or is there something about managing the forests, by 
way of cleanup and cutting down old, burned-out trees, and 
forest underbrush? Perhaps it's not that you don't want to do 
it; perhaps you can't do it with current environmental rules. 
But I will stand on what I have said and ask you two experts, 
``Why is it so?'' unless you want to say, ``You're wrong.'' I 
think I'm right, but if I'm wrong, then we're finished. But, if 
I'm right, why is it so?
    Mr. Rey. I think what you observed is what our experts 
believe to be the case, that these stands, over 100 years of 
time of fire suppression, have grown much denser than they were 
historically, and that that density of foliage is providing the 
fuel that contributes to much more intense fires.
    Senator Domenici. You bet.
    Mr. Rey. The problem is that you don't cure a problem 
that's 100 years in the making in a year or 2 years or 3 years 
time. It's going to take us a significant amount of time to get 
those stands cleared out. There are a lot of them that are 
cleared out now. Last year, we were able to put out a lot more 
fires, because they burned into thinned areas, than we did the 
year before that; and the year before that, we did more than 
2005. But, that's not going to reach all of those acres right 
at the same time.
    We are spending record-levels amount of money to do this 
work. I would say, on the question of thinning for fuels 
treatment work, we have a pretty broad consensus nationally 
that that needs to be done. That's not to say there still 
aren't people suing us, trying to slow it down. They are, and 
they have. There are impediments that way. But, you know, I 
could give you lots of survey data to demonstrate why I think 
that national consensus exists, but let me just give you one 
sort of anecdotal story.
    After you all passed the Healthy Forest Restoration Act, 
spring of 2004, I was sitting in my office at 7 o'clock one 
night, and Dana Perino, who's now the White House press 
secretary, was then CEQ's press secretary, called me, said, 
``You won't believe what I just saw on TV.''
    I said, ``Well, I don't have the TV on, so you'll have to 
tell me.''
    She said, ``I was waiting to see how the networks handled a 
story we were working on today, and channel surfing, and the 
clicker hit the game show `Jeopardy.' I was going to click past 
it, but, before I could click past it, Alex Trebek, the 
`Jeopardy' host, said 'The final Jeopardy answer is a November 
2003 Federal Government report said this natural disaster could 
have been avoided by better trimming of trees.'''
    She said, ``My God, I couldn't believe it. We've become a 
`Jeopardy' question.''
    So, she said, ``Then I couldn't turn it off. I had to wait 
and see if any of the three contestants would get the right 
answer.''
    She--``You won't believe what happened next.''
    I said, ``What happened next?''
    She said, ``They turned over their boards,'' because you 
have to scrawl the question for final jeopardy, and all three 
of the contestants had some variation of the phrase, ``What are 
catastrophic wildfires?''
    Now, unfortunately for those three contestants, the correct 
question was, ``What was the Northeast power blackout of August 
2003,'' because, as you remember, a tree fell across the high 
tension line and started a chain reaction that blacked out the 
Northeast. But, you know, we cost those poor souls thousands of 
dollars in prize winnings, but we had their attention. I think 
there is a consensus that is moving us forward.
    All I can offer you, though, is, it's going to be a problem 
that's going to take a decade to fix, not a year. We're about 5 
years into that decade.
    Senator Domenici. Thank you very much.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you, Chairman Bingaman. Thank you 
very much, Senator Domenici.
    Under Secretary Rey, the question that you and I have had 
an ongoing dialog here for a very long time has to do with bark 
beetles in Colorado, and now a disease, really, that has spread 
to many other places, wherever we have our national forests. I 
was wondering if you could spend a few minutes just describing 
to us what the bark beetle problem is like as you forecast into 
this year, and how the bark beetle issue might contribute to 
the forest fire danger that we're facing.
    Mr. Rey. In Colorado, we're seeing almost pandemic levels 
of infestation in lodgepole pine. That actually is not 
unnatural, as opposed to the situation we were just describing 
in Ponderosa pine, which are lower-elevation systems. Lodgepole 
pines, which are at the highest elevations, typically cycle, 
you know, in a 100-year cycle, and it's usually the bark beetle 
that knocks them back, and then the trees grow back after a 
fire, and that's why you've got, in place at 10,000 feet or 
thereabouts, above, a fairly homogeneous-age class of forest. 
You had it in Colorado, you had it in Yellowstone when 
Yellowstone burned up in 1988.
    The difference between when this cycled the last time, 
about 100 or so years ago, and now is, we've built a lot of 
infrastructure at that elevation in your State. So, our primary 
objective is going to be to treat the areas around communities 
and around homes so that we can protect that infrastructure.
    It is not likely that we're going to stop what is, in this 
case, a more natural event from occurring, as unpleasant as it 
is for people who live in that environment now to countenance 
the fact that those trees are going to cycle through on a--what 
has been, you know, historically, about a natural 100-year 
cycle. We're going to ramp----
    Senator Salazar. Is there----
    Mr. Rey [continuing]. Up our----
    Senator Salazar. Is there more, Under Secretary Rey, that 
you think we might be doing for people in my State and for me 
when I drive up I-70, up into Keystone area, Vail area, and you 
see now, I think, what is over 1 and a half million, close to 2 
million, acres of acreage that has now been infested by the 
bark beetle? It's going to cause huge economic consequences to 
those communities, but also creates an unprecedented fire 
danger to those communities.
    In my view, it seems like everybody is throwing up their 
hands and saying, ``Hey, it's just there, and we have to live 
through it. There's not much we can do.'' Yet, it seems to me 
that if we were able to implement the stewardship contract 
concepts that we've talked about in the past, and able to do 
the hazardous fuels mitigation and treatment programs that 
we've talked about in the past, then we might be able to at 
least do something about it.
    I guess my question to you is, What more do you think that 
we ought to be doing to deal with that reality?
    Mr. Rey. I think the--some of the ideas that we've talked 
about in the past--in terms of stronger partnership authorities 
to work with tribes and State and local governments, ideas that 
the Administration sent forward in the Healthy Forest 
Partnership Act in the last Congress, some of the ideas that 
Senator Bingaman, Domenici, and Craig have been working with in 
the proposal that they've gotten out, some changes to the 
stewardship contracting authority that don't require us to set 
aside so that the government is indemnified from liability, if 
we fall behind in NEPA development so that we don't have to, 
basically, do all the work for a 10-year contract before we let 
the contract--those will all help.
    Nobody at the Forest Service is throwing up their hands. 
What we're doing is trying to look across the landscape in 
Colorado and make some fairly clear priorities on what we need 
to treat first in order to protect homes and communities, and 
then work our way out from there to see what we can treat once 
we get that initial priority done. We could use some----
    Senator Salazar. Let me----
    Mr. Rey [continuing]. Additional tools, and we've talked 
about them, and you're proposed some of them. It would be great 
if we could work with your staffs to produce a proposal yet 
this year.
    Senator Salazar. Let me just say to you, Under Secretary 
Rey and to Chairman Bingaman, that I hope it is something that 
we can do. We have legislation from the Colorado delegation. I 
know Senator Bingaman does, as well. Maybe this is one of those 
issues--it certainly is not a Republican, Democratic, or 
political issue, this is just the reality of a huge infestation 
that we have to deal with on the ground.
    One last question for you, and that is, Region 2 and 
funding for Region 2 and the Forest Service; we never get our 
fair share. I think, again, the Administration's proposal 
showed a $25-million cut in Region 2 allocations over what we 
had the year before in the proposed budget from the President. 
We're going to fight that back and hope that we're able to get 
the right allocation of money given to the Region 2 area, 
because, as we look at the fire dangers that are being faced in 
region in that 4-State area, it's going to be very significant 
in the summer months ahead.
    Mr. Rey. We'll work with you on that. Our request for 
Region 2 is in excess of our last request last year. You all 
did a very fine job at securing additional funding for Region 2 
during the budget cycle, and we'll work with you during this 
cycle, as well.
    Senator Salazar. Thank you.
    The Chairman. Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much.
    Senator Salazar, with the help of the U.S. Forest Service 
and their scientists and a whole other group of folks, we 
prepared a set of amendments for the climate change bill that 
obviously is dead on arrival, so it won't happen. But, what 
you're asking, and what I think we can do, and will do in the 
future, is bulletproof, in part, categorical exclusions so we 
can do some of these things. Because, you know, the great 
untold story of my State and your State, when we took away the 
authority of the Forest Service and gave it to the courts to 
manage our land, was that what is green in a climax environment 
turns brown and dies. If somebody's not there to take it away 
and create a new dynamic in the forest, Mother Nature comes 
along and burns it. That's what's going to happen in your 
country if we don't get categorical exclusions so you can go in 
and clean up those watersheds and protect them and replant them 
and assist Mother Nature in the cycle. We're just sitting by 
watching right now, and fending her off a little bit along the 
way as she comes close to a human structure, and we're spending 
hundreds, millions, if not billions of dollars to do it.
    So, now the Forest Service, and BLM, Interior are rushing 
to help citizens fireproof their, I call, mega-mansions. When 
we fireproof them, they stand. We've got phenomenal record out 
there, and we--I've watched it across Idaho's landscape this 
year, of these large homes that were effectively dealt with. 
I'm one that would say we ought to put a clause in insurance--
fire insurance contracts that says your premium is tripled if 
you don't go out and cut a few trees around your house and 
prescribe your house management to the terms of good 
fireproofing. Maybe we'll get there. Private sector probably 
will.
    Senator Salazar. Will the Senator yield for a question?
    Senator Craig. I'd be happy to.
    Senator Salazar. Senator Craig, I do agree with you that 
there's a lot more that we ought to be doing in our forest 
lands, including some changes in the law that would allow us to 
address these kinds of infestations and these problems. There 
is also a problem beyond legislation, I think, frankly, that 
has to do with resources, because I know----
    Senator Craig. Sure.
    Senator Salazar [continuing]. Forest Service has approved, 
in my State, hundreds of thousands of acres for hazardous fuels 
reduction. The money is not there----
    Senator Craig. Yes.
    Senator Salazar [continuing]. Frankly, for us to go and get 
the job done. I think it is both a resource issue, as well as 
statutory issue that we have to deal with.
    Senator Craig. I don't disagree with that at all.
    Both to Mark Rey and to Jim Cason, thank you for being with 
us today.
    I'd ask unanimous consent, Mr. Chairman, that my full 
statement be a part of the record.
    I would agree with you, the dynamics of reality are 
changing, and we may be 5 years into a 10-year cycle. But, 
there's a reality out there that nobody wants to talk about. 
It's the dirty little secret of large fires today at a time 
when everybody's hyper over climate change. That acreage--that 
9.4 that burned last year, 2 million of it in my State--was the 
equivalent of taking 12 million automobiles off the road as it 
relates to carbon into the atmosphere. Oh, my goodness. But, 
there isn't an environmentalist out there wringing their hands 
about that today in the great debate over climate change. Now, 
if you'd take 12 million cars off the road, that is nearly 
equal to the transportation fleet in the State of California. 
We know what it would do the airsheds of California, let alone 
emissions into the environment, but that's where we are today. 
But, nobody wants to talk about it.
    You've got to talk about it. It's got to be real. It's got 
to be practical. We need our forest to be young, vital, 
healthy, sequestering carbon in a way that they historically 
did, and will again if we allow that to happen.
    Mark, let me thank you for working with us. I guess we've 
worked with both sides as related to the 401-series issue. You 
know, we were getting to a point, Mr. Chairman, where we were 
going to say that this great fire team out there, that both Jim 
and Mark talk about, is the best in the country. We were always 
made to say they all had to have a master's degree to fight 
fire. I mean, oh, stupid us for playing that game. Do they need 
advanced knowledge and talent? You bet they do. Are our fires 
different? Yes, they are. Do we need to not only study the 
past, but look at the future as it relates to putting humans 
inside one of those fire scenarios? You bet we do. But, they 
don't need master's degrees; they need experience, or they need 
to be with experienced people. I hope we've got that settled or 
we've resolved it for a year, and that we don't get back to the 
business of saying, ``Now, you've got to go get a master's 
degree in firefighting before you can fight fires for the BLM 
or Department of the Interior or the U.S. Forest Service.'' So, 
thank you for working with us on that.
    Aviation fleet, Mark, you've talked about that. Air 
tankers. No DC-10s? Can't we borrow Arnold's big airplane?
    Mr. Rey. We have an RFP out for supertankers, and we expect 
that we'll get a bid from the company that's--now has two DC-
10s, and we expect a bid from a competing company, in Senator 
Wyden's State, that's using a 747. What----
    Senator Craig. Are they effective?
    Mr. Rey. They're effective under certain scenarios. They 
are not as maneuverable into tight canyons as our current 
tanker fleet is. But, on open range fires they'll drop about--
in the case of the DC-10, about 10,000 gallons of water or 
retardant, as compared to a P-3 Orion, which will drop about 
3,000. A 747 can actually drop about 20,000 gallons of water or 
retardant. So, on certain fire scenarios, they're--they 
probably are going to be effective. They also have a wider 
range--service range than a P-3 or a P-2V or a C-130, because 
they're faster, they'll get to a site faster.
    What we're going to evaluate in the responses we get to the 
RFPs are what--not only what their effectiveness is, but what 
their cost efficiency is. Is it competitive on a dollar-per-
gallon basis of delivered retardant or water, or are their 
rates so high that that's probably not an attractive asset for 
the government to use?
    Senator Craig. OK.
    Mr. Chairman, I have taken plenty of time; I'll come back 
for a brief second round if it's available. Thank you.
    The Chairman. OK. Senator Wyden.
    Senator Wyden. Mr. Chairman, thank you. Thank you, Mr. 
Chairman, for holding this important hearing.
    I also want to thank you for inviting Deborah Miley, who's 
the executive director of the National Wildfire Suppression 
Association. She's from Lyons, Oregon, and we're very glad that 
you would have Ms. Miley here.
    I'm going to get into questions relating to wildfires in 
just a second, but, Secretary Rey, I think you know it wouldn't 
be a hearing on forestry unless we addressed the issue that is 
on the mind of all the people in rural Oregon and the rural 
West right now, and that's the county payments legislation. It 
is emergency legislation for folks that I represent; and along 
with a number of colleagues up here on the panel, we were 
collectively able to get into emergency supplemental 
appropriation a 1-year extension of this legislation. We were 
pleased about it, and the House of Representatives is now 
working on their legislation. Suffice it to say, many in the 
House want to know whether the President will state that he 
will not veto the entire supplemental appropriations bill if it 
includes the county payments legislation, in that this is very 
much a factor in the House's thinking now about whether it 
would be included.
    So, could you give us some insight into the President's 
thinking on this? Because I know you've been involved in 
various discussions back and forth, and I want to be sensitive 
to internal communications within the Administration. But, at 
the same time, this is hugely important in the rural West, and 
the fact is, some sense that the Administration would not veto 
the emergency supplemental because it includes the county 
payments funding could actually be the key to getting it into 
the House and getting that help out to the rural West.
    Mr. Rey. All right, then. You know, we have not issued a 
statement of policy from the Administration on the supplemental 
yet. So, what I would tell you would be largely speculative. 
But, let me just say two things.
    One, we remain committed to reauthorizing the legislation, 
and have continued to work, most recently on the House side, to 
see if mutually acceptable offsets could be found. I know a lot 
of people in Oregon and elsewhere are beginning to say, ``Well, 
are they really committed to it?'' Well, we've put it in our 
last three budget proposals, we've changed the offsets each 
time to try to respond to objections to the offsets, and we've 
continued to work with you for that purpose in both the House 
and the Senate. So, that's not, by my way of thinking, passive 
activity; it's active support for the proposition that the 
Administration first articulated in 2005, a year before the 
bill--the 2000 bill expired, that we believed an additional 
extension was justified, with mutually agreeable offsets.
    As to what's sitting in the supplemental now, you know, I'm 
not here today to be able to give you a statement of 
Administration policy. On the other hand, I can reflect on the 
history last year, and we signed a bill with a 1-year 
extension.
    Senator Wyden. OK. Tell your colleagues at the White House 
that if you all could amplify on that, and do it very quickly, 
I think it might well be what puts it over the top in the 
House, because I know they're trying to get a sense of what the 
Administration will do. I appreciate what you've said today, 
and I hope you'll be able to go further in the hours ahead.
    One question for you on this round, Mr. Cason, if I might. 
Fuel prices are just going through the stratosphere, and there 
have been a number of articles and others written about how 
this is going to impact firefighting. My sense, it's going to 
hurt the effort this summer unless action is taken and 
contracts for firefighting airplanes and helicopters are 
negotiated annually. I'd like to know what you all are planning 
to do to address the rising price of fuel so it doesn't 
jeopardize firefighting abilities, particularly those airplane 
and helicopter contracts, this summer.
    Mr. Cason. Senator, I think Mark might want to follow my 
comments, since he does more on the aviation stuff. But, it's 
my understanding, on key contracts that involve aviation 
resources, that we have escalators built into most of those 
contracts that will accommodate significant rises in fuel 
prices.
    Early in the fire season, it's not a material issue, from 
the standpoint that we still have significant reserves left to 
fight fires because we're still early in the fire season. At 
the end of the fire season, if it's a really busy fire season 
like the last two or three have been, we may end up in a 
situation that we go through what's become a fairly typical 
process of borrowing additional money to complete the fire 
season and then look for some mechanism to adjust. So, it may 
have an impact at the end of the season for us.
    Senator Wyden. My time is expired, Mr. Chairman. I get the 
sense that it is hurting firefighting efforts right now. I will 
put in the record a recent article from the Wall Street Journal 
that talks about how a number of the country's rural fire 
departments are now cutting back as a result of increased fuel 
costs. So, I would hope that you'd go back and take a look at 
what's happening now, and not just wait until the end of the 
firefighting season.
    With the unanimous consent, Mr. Chairman, I'd ask that this 
Wall Street Journal article that documents how local 
firefighting departments are already scrapping their plans 
locally to have maintenance programs and trying to use 
volunteers, as a result of increasing fuel costs, are being 
hurt.
    The Chairman. All right, we'll include that.
    [The information referred to follows:]
                        THE WALL STREET JOURNAL
                               U.S. NEWS
                     Fighting Fires With Frugality
           Departments Seek Cuts to Balance Rising Fuel Costs

By A.J. Miranda

    Many of the nation's fire departments are cutting back on training 
and maintenance to balance out increasing fuel costs, especially in 
rural areas where fire trucks must travel long distances to homes or 
accidents.
    Such trade-offs are among those made by locargovernments as they 
try to control costs and adhere to taxpayer-funded budgets while 
operating fleets of fuel-guzzling buses, police cars, fire trucks and 
ambulances, many of which run on diesel fuel.
    Growing global demand has driven the price of diesel up 67% since 
the first week of June 2007, 2 outpacing the rise in gasoline prices. A 
year ago, diesel sold for 40 cents a gallon less than gaso line; now, 
diesel costs 70 cents more a gallon, according to the federal 
Department of Energy.
    Diesel, which yields about 30% more miles a gallon than gasoline, 
is still a cheaper option overall. But local governments that weren't 
counting on such a steep jump in their fuel bill have little budget 
flexibility to adapt. Trimming costs is especially difficult when 
cutbacks could compromise public safety.
    ``When people dial 9-1-1, they expect a response in a reasonable 
amount of time, and we have a need to deliver on that response,'' said 
Lee Feldman, city manager of Palm Bay, Fla.
    In Oregon's Marion County, where diesel prices are inching toward 
$5 a gallon, rural fire departments are budgeting an average 25% 
increase in fuel spending for the new fiscal year beginning July 1.
    Fire trucks get, on average, about five miles a gallon. But no 
extra money is coming from the county. The fire and rescue department 
has to make up the money by cutting costs in other areas.
    The fire department in rural Jefferson, Ore., scrapped plans to 
hire a station maintenance worker this year, instead spreading the work 
among its 50 volunteer firefighters. It no longer dispatches a fire 
engine automatically to accidents on the nearby Interstate 5 highway--a 
round trip of about 15 miles, said chief Don Bemrose. Instead, a duty 
officer is first dispatched to survey the accident and see what is 
needed.
    Many fire departments are now sending medics and other staff in 
pickup trucks or SUVs to answer calls for medical assistance.
    In rural Montezuma, Ga., a two-hour drive from Atlanta, the fire 
department is conserving fuel by staging smaller fires for advanced 
firefighter training. The smaller fires can be extinguished with water 
from hydrants instead of the two or three fire engines that used to be 
needed, said chief David Trussell.
    There is only so much a fire department can do without cutting 
essential life and property-saving services. Ultimately, Mr. Trussell 
said, a fire department's duties are based largely around driving.
    ``There's just no way to say `Well, we can't afford to respond 
to,your house today--we can't afford to buy a tank of gas,'' he said.
    In California's oil-and agriculture-driven Central Valley, the cost 
of diesel has pushed the Bakersfield fire department $140,000 over its 
$1 million fuel and maintenance budget, said chief Ron Fraze. The 
department has deferred some maintenance and renovation work at 
stations, and cut overtime hours to compensate. ``You end up doing more 
with less,'' Mr. Fraze said.
    Rather than risk further cutbacks on services or supplies, the tiny 
Arkansas town of Lonsdale, population 118, launched a fund-raising 
campaign to pay its fuel bill. Lonsdale Volunteer Fire Department, 
which protects roughly 3,000 rural residents in a 40-square-mile fire 
district, has seen its fuel bill rise to triple the $300 a month it has 
budgeted.
    Raising the optional $50 annual fee that funds the department 
wasn't an option, since many of the area's residents are retired 
seniors living on a fixed income, said Steven Snellback, a firefighter 
and Lonsdale's volunteer mayor. Instead, the department raised more 
than $10,000 with a June 7 spaghetti dinner.
    Every little bit helps; the Ponderosa Volunteer Fire Department, 20 
miles north of Houston, traditionally never let a fire engine's fuel 
tank dip below three-quarters, to ensure the truck didn't run out of 
fuel on an emergency call. Now the standard is half a tank. That makes 
for fewer trips to the filling station, said Fred Windisch, Ponderosa's 
chief.

    The Chairman. Senator Barrasso, did you have questions of 
this first panel?
    Senator Barrasso. Yes, I did, Mr. Chairman.
    The Chairman. Go right ahead.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Welcome, to members of the panel.
    I know, Mr. Rey, for sure, you know what we're dealing with 
in Wyoming, in terms of pine-beetle outbreaks across the State, 
and the impacts. I heard Senator Salazar's discussion with you 
a little earlier. You know, in Wyoming we believe we need more 
on-the-ground solutions. We need to protect our firefighters 
and our ecosystem by preventing wildfires from burning out of 
control. I'm just very concerned about the amount of flammable 
material that is out there as a result of what's happening with 
the bark beetle.
    You know, I've introduced Good Neighbor legislation so the 
State and the Forest Service can work together on forest health 
projects. I introduced the bill back in December, and I'm 
hoping that we can get some consideration of the bill in this 
Congress.
    If I could visit with you about the beetle-kill timber and 
what effect that has on fire patterns, in terms of the serious 
nature of the fire and the likelihood of fire to spread faster. 
Is it more likely, with that amount beetle-kill in the area, 
that the fires will grow in size quicker, make it more 
expensive and more difficult?
    Mr. Rey. Yes, that's generally true. Before you arrived, 
Senator Salazar and I were talking about the higher-elevation 
lodgepole pine systems that naturally cycle on about a 100-year 
cycle. The beetle is the equivalent of the natural force that 
fire plays at a lower elevation. So, you know, the reason you 
have homogeneous-age-class stand is that about 100 years ago 
the beetle went through there and wiped them out then, and they 
burned up, and then they've regenerated to another homogeneous-
age stand. The difference between now and 100 years ago is, 
we've built a lot of infrastructure in those areas, that we're 
going to have to protect. But, the amount of beetle-kill will 
inevitably lead to a more intense fire.
    Senator Barrasso. So, for people who are in Wyoming and 
want to see if we can--what we can do to help mitigate the 
risk, what things would you suggest? Are there different 
effective management options that we should be looking at?
    Mr. Rey. One thing that we haven't done yet, that we are 
doing in Colorado, is contracting with the State forestry 
agency, where they're doing treatments on non-Federal lands to 
treat Federal--adjacent Federal lands, as well, and we 
reimburse them for the cost of that treatment. But, I think the 
strategy in both Colorado and now, as the epidemic spreads up 
north into Wyoming, will be to look at where we have homes in 
communities, do the treatments necessary to protect those 
first, to create defensible space around them, and then work 
our way further out into the forests, to protect watersheds or 
other sensitive areas that we'd just as soon not see burn up. 
But, you know, I think one of the cautions is, we're not going 
to treat 100 percent of the acres, given the size of the 
epidemic. It's going to be a case where we prioritize the 
treatments to protect the infrastructure that's been installed 
in these areas.
    Senator Barrasso. Do you see a role for salvage sales in 
these areas, as well?
    Mr. Rey. That's unmet potential that has some 
possibilities. Lodgepole typically lasts longer after it's been 
killed by beetles than Ponderosa pine does, and the logs that 
could be produced by salvage sales could go into the home log 
market. But, there what we're going to have to do is attract 
some additional manufacturing infrastructure to use the amount 
of material we have.
    Then, in addition, we're going to have to reach a better 
social consensus on salvage logging. Before you arrived, I 
opined that I thought we had reached considerable consensus 
nationally on the importance of fuels reduction in thinning 
pre-fire. I, unfortunately, am sorry to report that I don't 
think that same level of consensus has been reached on salvage 
harvests after a fire. There is still a very vibrant public 
and, to some extent, scientific debate underway about whether 
it's a good idea to salvage or whether we ought to just let 
nature take its course. We are, today, getting challenged and 
appealed far more frequently on salvage sales than we are on 
thinning projects, on a proportional basis.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Craig, did you have additional 
questions of this panel?
    Senator Craig. One brief one, Mr. Chairman.
    First of all, to comment to the Senator from Wyoming. 
There's large groups out there that have invested large sums of 
money in the word ``salvage.'' It's so effectively demonized 
that we have to prove you can go back in and do it right, and 
then maybe we'll get back to that. There's some value there.
    Under title 2 and 3 of the Secure Rural Schools and Self-
Determination Act--and Ron already has had that dialog with you 
as to the Administration's position--but, under that, the 
Resource Advisory Committees are allowed to recommend projects, 
that we know of, and they've done so very effectively over the 
years in the lifetime of that bill. Hazardous fuel reductions 
are part of one of the types of projects recommended under this 
authority. If it's reauthorized--and we stand to believe that 
maybe we can go beyond just the 1 year, because we're into the 
tax extension package, and there it's reauthorized, and we 
might--might be able to carry that through, this year. If that 
happens and it is reauthorized, can the September 30 deadline 
for allocating the funds or projects be extended? Will the 
Office of Management and Budget have funds left over if there 
is not an extension granted, to give the RACs time to review 
and authorize good projects on our forests?
    Mr. Rey. If the act is extended, either for 1 year or 
multiple years, I believe we'll have the administrative 
flexibility to give the Resource Advisory Committees additional 
time to do their project selection.
    Senator Craig. OK. Thank you all.
    Let me ask unanimous consent that my full statement be a 
part of the record, Mr. Chairman.
    The Chairman. We'll be glad to put that----
    Senator Craig. We have other questions we'll let them 
address for the record.
    Thank you.
    The Chairman. Very good.
    Thank you both very much.
    Why don't we move to our second panel. On the second panel 
is Ron Thatcher, who is the president of the Forest Service 
Council with the National Federation of Federal Employees of 
the International Association of Machinists and Aerospace 
Workers, from Libby, Montana; Casey Judd, who is the business 
manager of the Federal Wildland Fire Service Association, in 
Inkom, Idaho; and Deborah Miley, who is the executive director 
for the National Wildfire Suppression Association, in Lyons, 
Oregon.
    [Pause.]
    The Chairman. OK, thank you all for being here. Why don't 
we take about 5 minutes for each of you to summarize the main 
points you think we need to understand from your testimony. 
We'll include your full testimony in the record as if presented 
orally.
    So, go right ahead. Mr. Thatcher, why don't we start with 
you.

 STATEMENT OF RON THATCHER, PRESIDENT, FOREST SERVICE COUNCIL, 
    NATIONAL FEDERATION OF FEDERAL EMPLOYEES, INTERNATIONAL 
   ASSOCIATION OF MACHINISTS AND AEROSPACE WORKERS, LIBBY, MT

    Mr. Thatcher. Thank you, Chairman Bingaman and 
distinguished member, Senator Craig, for the opportunity to 
submit this testimony.
    My name is Ron Thatcher. I serve as the president of the 
National Federation of Federal Employees, Forest Service 
Council. In this capacity, I'm honored to represent 
approximately 20,000 dedicated Forest Service employees. Among 
those employees, many are Federal firefighters.
    I'll briefly address current staffing levels and a policy 
problem that is contributing to rising attrition rates, which 
could and will have an effect on our preparedness for the FY-08 
fire season.
    Regarding retention and staffing levels, the specifics of 
my testimony on this topic deal with the situation we find 
ourselves in, in California, where much of the national 
firefighting capacity resides. However, we also believe that 
these problems are not confined to just California.
    Focusing on California, on May 6, 2008, Under Secretary Rey 
provided Senator Diane Feinstein with a summary table showing 
that only 363 of the 4,432 positions planned for the 2008 fire 
season were vacant. A breakout by grade level was apparently 
not provided. This breakout shows that the most striking 
shortfall is at the GS-06 level, where 208 of the 532 
positions, or 39 percent of the work force at that grade level, 
were vacant. This data also revealed a vacancy rate of 14 
percent, or 81 positions, at the GS-07 level.
    Staffing levels tell some, but not all, of the story. 
Staffing levels can be maintained, even with excessive 
attrition, by hiring large numbers of entry-level employees. In 
such a case, there is a substantial pressure to rush these 
employees into higher-graded positions to meet the staffing 
needs. This results in a large number of minimally qualified 
employees in module positions which can also decrease our 
preparedness and our safety.
    This pipeline issue of GS-06s and GS-07s is extremely 
important. With higher-level employees retiring or resigning, 
there is an increased need for experienced firefighters to 
continue up this ladder. Experienced crew members become 
experienced squad bosses, who become experienced operational 
section chiefs, who become experienced incident commanders. 
This takes a significant amount of time, and continually 
filling the lower ranks with new recruits isn't going to 
accomplish this task. Without experience throughout the 
organization, effective firefighting and safety is going to be 
compromised.
    There are a number of factors affecting these attrition 
rates. In the brief time I have remaining, I'd like to focus on 
a current problem that increases our attrition and presents a 
clear and present danger to safety on our fire lines.
    Fortunately, this problem can be easily resolved. 
Experienced leadership is crucial to our fire organization. 
Wildland firefighting is physically demanding and dangerous. 
This is unavoidable. A recent OPM policy change is pushing our 
most experienced field generals in the war on fire out of 
positions of leadership. In the aftermath of South Canyon, in 
1994, in which 14 brave firefighters met their deaths, an 
initiative began to ``professionalize'' the fire management 
positions of the U.S.--of the GS--U.S. Forest Service and 
Department of Interior. The agencies made a decision to utilize 
the GS 401 series for the professionalization of our 
firefighters, which requires a degree in biological science.
    The development of a consistent standard, the Interagency 
Fire Program Management standard, or IFPM, was completed in 
2004. This standard was put in place to improve safety and 
effectiveness on the fire line. In-house fire incident-
management courses were then credible. These courses were 
specifically tailored by the world's experts in incident 
command and wildfire suppression, to meet the unique needs of 
our wildland firefighting work force.
    Fire leaders come up through the ranks and are trained in-
house. Many lack college degrees. Under this gutted standard, a 
college degree or equivalent is now required. Hundreds are now 
unqualified for the jobs they've been successfully performing 
for years. Many have specialized qualifications and have had 20 
years of experience to get to that level. These are our field 
generals. They provide the critical leadership. Too many will 
be forced out by this unnecessary standard.
    In closing, let me ask two simple questions that cut to the 
heart of this matter. Who would you want leading your son or 
your daughter into harm's way? Who would you want in charge of 
the operation to save your house from an advancing wildfire? I 
know who I'd want. I'd want the person best qualified, in terms 
of fire experience and competency. Reinstating the standard of 
our in-house training program is the best way to ensure that's 
exactly who we'd get. If OPM will not do so administratively, 
we urge Congress to do so legislatively.
    Thank you, again, for this opportunity.
    [The prepared statement of Mr. Thatcher follows:]
Prepared Statement of Ron Thatcher, President, Forest Service Council, 
National Federation of Federal Employees, International Association of 
              Machinists and Aerospace Workers, Libby, MT
    Thank you, Chairman Bingaman, Ranking Member Domenici, and 
distinguished Committee members, for the opportunity to submit the 
following testimony.
    My name is Ron Thatcher. I serve as the President of the National 
Federation of Federal Employees' Forest Service Council. In this 
capacity, I am honored to represent approximately 20,000 dedicated 
public servants committed to the professional and ethical management of 
the 192-million-acre National Forest System. I will briefly address 
current staffing levels and discuss in some detail an easily-remedied 
policy problem that is contributing to rising attrition rates.
                     retention and staffing levels
    The specifics of my testimony on this topic will deal with the 
situation in California. However, this is not just a regional issue. 
First, much of the national firefighting capacity resides in Region 5. 
A shortfall in California resources is a shortfall in national 
resources as well. Second, we believe that problems in staffing upper 
level Incident Command and General Staff positions are not confined to 
California. Increasingly, we are forced to rely on retirees and state 
personnel to fill these positions on Incident Teams. California may be 
the most striking example, but we will soon have to pay attention to 
the erosion of our capability on a national scale.
    Obviously, we do not have access to nearly as much information or 
staff resources as do Chief Kimbell or Undersecretary Rey. However, the 
information we have been able to obtain raises troubling questions 
about fire suppression preparedness now and in the future. I will not 
be able to make sweeping conclusions with the bits and pieces of data 
we have available. I do hope to raise some issues that will suggest 
specific lines of inquiry for the Committee to consider pursuing.
    On May 6, 2008, Undersecretary Rey provided the Honorable Dianne 
Feinstein with a summary table showing that only 363 of the 4,432 
positions planned for the 2008 fire season were vacant. A more complete 
picture of staffing levels is provided by the breakout by grade level 
(see Appendix 1), a part of the complete table which was apparently not 
provided. The most striking shortfall is at the GS-06 level, where 208 
of 532 positions (39%) were vacant. How does this shortfall affect 
preparedness?
    The great majority of GS-06 firefighters staff Engines as Assistant 
Fire Engine Operators (AFEOs). It appears this shortfall is not likely 
to be corrected in the short term: during the March 2008 hiring round, 
the number of vacancies in this critical position actually increased in 
spite of nearly two dozen hires.
    At full staffing level, a Type 3 Engine is staffed with seven 
employees at defined positions. Rotational staffing provides 7-day 
coverage. Without this full complement, the Engine must be downgraded 
to a 5-day Engine. Is the fact that roughly half of the Forest 
Service's Engines are 5-day Engines a result of the 39% firefighter 
vacancy rate at the GS-06 level? This would seem to be a likely 
explanation.
    Understaffing can lead to over-reaching, with negative effects on 
safety. This is illustrated by a March 27, 2008 letter from Regional 
Forester Randy Moore to Region 5 personnel, in which it is stated that 
``supervisors may be informally assigning employees to positions above 
their current grade level.'' Obviously, it is a safety issue when 
employees are placed in positions for which they do not meet 
qualifications. The Regional Forester took steps to prevent this 
practice and advised field supervisors that ``[i]f there are vacant 
positions and no qualified individuals to fill them, other options need 
to be considered. For example, engine modules may need to provide a 5-
day work week, covering with a GS-07 and GS-08 in lieu of the GS-06.''
    The complete data also reveal a vacancy rate of 14% (81 positions) 
at the GS-07 level. Although less severe than the 39% shortfall in GS-
06 personnel, this is still a significant figure that will be difficult 
to bring to a full staffing level this fire season. During the March 
hiring round, a net of only 14 GS-07 Fire Engine Operators (FEO) 
positions were filled. Further, GS-07 FEO positions are typically 
filled from the pool of GS-06 AFEO employees, so any reduction in the 
vacancy rate of the former would increase the vacancy rate of the 
latter.
    Staffing levels tell some, but not all, of the story. Staffing 
levels can be maintained even with excessive attrition by hiring large 
numbers of entry-level employees. In such a case, there is substantial 
pressure to rush these employees into higher-graded positions to meet 
the staffing needs of the module. This results in a large number of 
minimally qualified employees in module positions, which can also 
decrease preparedness.
    For example, an Engine is not available for dispatch outside its 
area unless one crew member is red card qualified as an Engine Boss, 
ENGB. A GS-08 Supervisory Fire Engine Operator (SFEO) must be a 
certified ENGB to occupy their position. A fully qualified GS-07 FEO is 
also ENGB-certified, in which case s/he may rotate with the SFEO and 
the Engine may be dispatched outside its area. However, a newly placed 
GS-07 FEO may only be certified as an ENGB trainee (ENGB-t). An Engine 
under his/her command may not be dispatched outside its area. The 
outcome is reduced capacity. The Engine may be staffed as a 7-day 
Engine, but one whose range is limited, or it may be downgraded to 
provide only 5-day coverage.
    At least in some areas, this scenario is being played out as an 
increasing number of employees at the middle and upper levels leave 
federal service for Cal Fire and municipal fire departments. For 
example, nine of eleven Los Angeles River District Engines are staffed 
with ENGB-t FEOs.
    This pipeline issue is extremely important. With higher level 
employees retiring or resigning, there is an increased need for 
experienced firefighters to continue on up the ladder. Experienced crew 
members become experienced squad bosses who become experienced 
Operation Section Chiefs who become experienced Incident Commanders.
    This takes a significant amount of time and continually filling the 
lower ranks with new recruits isn't going to accomplish this task. 
Without experience throughout the organization, effective firefighting 
and safety is going to be comprised. Meaningful analysis of this aspect 
will require more than a snapshot in time of staffing levels.
    There are a number of factors affecting attrition rates. In the 
brief time I have here today, I'd like to focus on one that not only 
increases attrition but also presents a clear and present danger to 
safety on the fire lines. This is a problem that cries out for a timely 
solution. Fortunately, a simple remedy is available to solve it.
                 ``professionalizing'' fire management
    Experienced leadership is crucial to the fire organization. Because 
of a recent policy change, our most experienced field generals in the 
war on fire are being pushed out of positions of leadership. By its 
very nature, wildland firefighting is physically demanding and 
dangerous. This is unavoidable. But we can avoid implementing policies 
that make it less safe and less effective.
    To explain, the Forest Service and Department of Interior (DOI) 
agencies are in the midst of an initiative to ``professionalize'' their 
fire management positions. To understand this initiative and how it has 
strayed off course, I need to give some history.
    This initiative was born in the aftermath of the South Canyon 
tragedy of 1994, in which 14 brave firefighters met their deaths. The 
Interagency Management Review Team (IMRT) was chartered to perform a 
comprehensive review of federal wildland fire policy. The June 26, 1995 
IMRT Final Report states, ``A lack of qualified supervisory and 
management personnel could result in poor decisions, directly 
jeopardizing the safety of employees. Filling vacant positions with 
personnel not qualified to make crucial strategic and tactical 
decisions could directly jeopardize employees.'' Regarding 
qualifications of fire managers, it recommended that ``fire management 
positions include competency and performance based criteria related to 
the nature and complexity of their wildland fire responsibilities.'' 
Following up on these recommendations, the Wildland Firefighter Safety 
Awareness Study (also know as the ``Tri-Data Study,'' Phase III 
completed in March, 1998), articulated the goal that ``fire experience 
and competency should be considered as critical selection factors for 
fire leadership and fire management positions.''
    The development of a consistent standard, the Interagency Fire 
Program Management Standard (IFPM), was completed in 2004. I'd ask that 
you remember this 9-year lag when you hear promises about how the 
current crisis in the implementation of this standard will be handled 
over the next two years.
    The IFPM standard established minimum qualifications standards for 
key fire management positions. Wildfire (``red card'') qualifications 
were established for all positions. In addition, some positions were 
slated for conversion to a professional Office of Personnel Management 
(OPM) classification series. It is for these ``professional'' positions 
that problems have arisen.
    Here, I have to digress for a moment to describe where our fire 
leaders come from. Many do not have college degrees. Fire management is 
a highly specialized profession. You don't learn to fight fire in a 
classroom; you learn it on the fire lines working under more 
experienced firefighters. On an incident, rapid and correct decisions 
with incomplete information in a highly chaotic environment can mean 
the difference between life and death. An experienced leader has a 
collection of mental ``slides'' which guide this decision-making 
process. And it is from the fire lines, not from academia, that folks 
come by this hard-won experience.
    In addition, fire personnel take specialized courses to advance to 
positions of leadership. Courses administered by the National Wildfire 
Coordinating Group (NWCG), an interagency wildfire organization, have 
been specifically tailored by the world's experts in incident command 
and wildfire suppression to meet the unique needs of the wildland fire 
workforce. Courses such as Fire Management Leadership, Advanced 
Incident Management, and Fire Behavior Interpretation are directly 
related to improving safety and effectiveness on incidents.
    Now, to return to the OPM ``professionalization'' of fire 
management: initially, the Forest Service and DOI requested that OPM 
establish a new occupational series for fire program management. They 
did not. Instead, a supplemental qualification standard was approved: 
GS-0401 Fire Management Specialist. The basic, garden-variety GS-0401 
included a minimum education requirement of a college degree, in a 
variety of fields related to natural resources or general biological 
sciences, or courses equivalent to a major field of study plus 
appropriate experience or additional education. This series did not 
work. So, the Fire Management Specialist supplemental standard was 
developed, under which a number of NWCG courses counted toward the 
education requirement.
    This compromise--a supplemental standard instead of a specific 
series for fire program management--was not a perfect solution. For 
example, we were asked by two dispatcher managers with degrees in 
psychology and one with a degree in business management, neither of 
which qualified them under the GS-0401, how their degrees were less 
relevant to running a Dispatch Center than qualifying degrees such as 
plant physiology or agronomy. We have no good answer for them, other 
than they are collateral damage of a policy in which a square peg is 
being shoved in a round hole. However, for most employees, the 
supplemental standard provided a workable path for getting qualified--
even though many were annoyed at having to re-qualify for the same jobs 
they had been successfully performing for years. Use of in-house NWCG 
courses was cost-effective and allowed coursework to be scheduled 
during low fire activity periods. NWCG coursework was the most 
practical way many employees, especially those stationed in remote 
locations, could obtain education credits that were both relevant to 
their duties and needed under the new Standard and also fulfill their 
incident response responsibilities during times of local and national 
emergencies.
    The current deadline for conversion of all 800 targeted upper-level 
fire management positions to the GS-0401 series is October 1, 2010. An 
additional 200 Forest Service positions at the District level are 
scheduled for conversion in 2013. Upon conversion, incumbents who do 
not meet the new qualifications will be removed from these positions.
        the inadvertent gutting of the fire management standard

    In 2005 OPM implemented a policy intended to keep credits earned 
from ``diploma mills'' from counting toward meeting education 
qualifications for federal positions. This is an admirable goal. 
Unfortunately, it had the unintended consequence of removing the 
standing of NWCG courses as well. Specifically, the policy states that 
only courses from accredited institutions now have standing. Since NWCG 
is not an accredited institution recognized by the Department of 
Education, NWCG course certificates no longer count.
    This change effectively gutted the GS-0401 Fire Management 
Specialist supplemental qualification standard. Fire managers in upper-
level positions scheduled for conversion have a substantial portfolio 
of previously creditable NWCG courses. So do those in mid-level 
positions, experienced leaders who are the best candidates for the next 
generation of upper-level fire managers. Now, these courses, directly 
applicable to safety and effectiveness on the fire line, no longer 
count toward the education requirement, whereas courses in unrelated 
natural resource and general biological sciences do.
    The issue goes beyond the 300 of 800 incumbents in these GS-0401 
positions (and the addition 200 employees scheduled for conversion in 
2013) who are not qualified under the gutted GS-401 standard. This is 
not a problem looming; it is a clear and present danger. Although 
effects will accelerate as the deadline approaches, capacity is already 
being eroded as vacant positions are filled. With the stripping of 
academic standing of their portfolio of NWCG courses, many of our best 
fire leaders are excluded from competing for these positions. Employee 
safety is already being compromised with each position filled under 
these accidentally imposed criteria (see Appendix 2 for accounts from 
field managers). As noted by a field manager, it takes 15-20 years to 
become a Division Supervisor or Type 3 Incident Commander and 27 years 
to become a Type 2 or Type 1 Incident Commander. It is leaders like 
these who are being pushed out of fire leadership positions.
    It is worth pausing to note that the stated intent of the reforms 
implemented by the IFPM standard was to improve safety and 
effectiveness on the fire lines. It was not to better integrate fire 
management into natural resources. Yet, that seems to be the unstated 
agenda behind use of the GS-0401, a natural resources series. We agree 
with the goal of improving the natural resources expertise of fire 
personnel. However, it is questionable whether this approach will yield 
a workforce with appropriate natural resources expertise. A large 
number of irrelevant and marginally relevant fields of study are 
qualifying under this series, such as agriculture, agronomy, 
biochemistry, etc. Just as a degree in manure management doesn't make a 
better fire manager, it also doesn't make a better land manager. 
Further, experience is important in land management as well as fire. 
Specific knowledge about the specific land being managed is gained 
through experience.
    More importantly, we strongly feel that safety must be the first 
priority. Under the gutted standard, safety has taken a back seat to 
academic natural resources credentials. This is not acceptable.
    Recall the goal that ``fire experience and competency should be 
considered as critical selection factors for fire leadership and fire 
management positions.'' The gutted standard seriously undercuts this 
goal. It is worth quoting once again a key finding of the June 26, 1995 
IMRT Final Report: ``Filling vacant positions with personnel not 
qualified to make crucial strategic and tactical decisions could 
directly jeopardize employees.'' Here is what field managers say is 
happening already (for more accounts, see Appendix 2): * The forest is 
having difficulty getting applicants for 401 positions. We are trying 
to fill a 401 position right now. The applicants who are making it onto 
the referral list lack on the ground fire experience (for the most 
part) while many applicants that do have the on the ground fire 
experience do not meet the 401 requirement.

  <bullet> My Forest is having trouble filling 401 positions, and only 
        with personnel with marginal field qualifications.
  <bullet> We are having trouble finding candidates that meet both 
        requirements. The folks that meet the experience and 
        qualification requirements don't meet the education 
        requirements... Conversely the folks that have applied that 
        meet the education requirements do not have the field skills 
        for the positions. This goes for the Regional level as well.
  <bullet> What I have been seeing recently is the people that have 
        been hired since we went to the 401 series for FMO's and Fuel 
        Specialist are mostly people who have graduated from a college 
        in the past 10 years and do not yet meet the NWCG 
        qualifications for the jobs they are getting. Why? Because they 
        are not experienced firefighters! With 10 years or less in an 
        agency they have not had the opportunity for that broad based 
        fire experience. So how are we as federal agencies handling 
        this? We fast track them through the NWCG qualification (quals) 
        process. For quals that would normally take 10-15 years of 
        experience they are getting with only 5 years of experience.
         appropriate regulatory adjustments have not been made
    Of course, NWCG is not a ``diploma mill.'' NWCG courses were 
developed and are taught by the world's experts in incident command and 
wildfire suppression to meet the unique needs of the wildland fire 
workforce. One would expect this to be readily recognized and 
appropriate administrative action taken. However, OPM has steadfastly 
refused to restore the standing of NWCG-sponsored courses previously 
approved for the supplemental standard. Indeed, they have refused to 
even address the question of whether NWCG is a diploma mill.
    OPM's position seems to be that waivers to policy can never be 
granted because the policy must always be followed. One of two premises 
must underlie this position: (1) application of the policy will never 
lead to significantly harmful outcomes, or (2) it is not OPM's 
responsibility to address harmful outcomes. We believe the former 
premise is false and the latter is irresponsible, especially in the 
present case in which matters of life and death are involved. We 
believe any request should be reviewed on its merits and actions be 
based upon an objective analysis of the particulars. This should not 
create an overwhelming workload, certainly not as compared with that 
thrust upon the field by the rigid application of policy even when it 
has clearly missed its target. Indeed, if waiver requests with merit 
multiply beyond reason, one might be moved to question the soundness of 
the policy. Perhaps this is the fear.
    The only response so far has been to delay the conversions for one 
year. Originally scheduled for 2009, conversion to the GS-0401 has been 
pushed back to 2010. The Forest Service/DOI plan is to ``encourage 
universities to develop Wildland Fire Science degree programs,'' 
``identify additional institutions and formalize procedures for seeking 
retroactive approval and transcription of creditable NWCG courses,'' 
and provide ``tuition support.''
    This plan is not realistic. Establishment of the previously 
approved portfolio of NWCG as accredited courses in academic 
institutions will be a time-consuming endeavor. Development of 
agreements and procedures for obtaining retroactive credits is even 
more problematic. OPM regulations prevent accredited institutions from 
granting ``rubber-stamp'' credits. Credit could only be granted for 
NWCG courses in cases where equivalent courses or curricula were 
already present at the accrediting institution. At best, years of 
effort may yield a patchwork of agreements providing incomplete 
coverage.
    Even if it could be achieved, this ``solution'' would not be 
desirable. It would be more expensive than coursework provided at 
existing in-house training centers, depleting scarce training budgets 
and discouraging career advancement of tomorrow's leaders who must pay 
tuition out of their own pockets. In addition, quality would suffer, as 
instructors will in general lack the current, hands-on knowledge of in-
house fire experts.
    Past performance gives us no reason to expect the Forest Service to 
be able to implement this plan in time to stop the bleeding:

  <bullet> The OPM ``diploma mill'' policy change was enacted on 
        February 15, 2005. Field management was not notified until May 
        31, 2007, over two years later. Thus, field employees continued 
        to earn NWCG credits to meet the new qualifications of their 
        positions (or of positions to which they aspire) only to 
        discover, after the fact, that these courses were not 
        qualifying. One 25-year fire manager qualified as a Type 3 
        Incident Commander noted, ``I moved my entire family to a new 
        state based on an offer that I had from the USFS saying that I 
        was qualified only to learn 2 years later that they may have 
        been just joking.''
  <bullet> Over a year later, employees have still not been notified of 
        their current qualification status. They are unable to obtain 
        career counseling to determine how to meet the new requirements 
        of the gutted standard. Under these circumstances, many are 
        understandably waiting for clarification before proceeding with 
        further coursework. As noted by one employee, ``When the OPM 
        ruling was announced last year I was removed from [401] rosters 
        and have been in a state of career limbo ever since. I still 
        haven't been informed what curriculum I should apply myself to 
        re-qualify in the 401 series. In the Forest Service there is no 
        ability to attain career counseling because Human Resources are 
        centralized in Albuquerque, NM and therefore there are no local 
        personnel officers to assist me. I currently have no plan to 
        follow.''
  <bullet> The problems cited above are largely attributable to the 
        recent downsizing and centralization of Human Capital 
        Management (HCM), motivated by a competitive sourcing quota. 
        The HCM organization is extremely compromised. The agency has 
        difficulty even providing basic services, such as hiring 
        seasonal and temporary firefighters and getting employees paid 
        on time. It is extremely doubtful the capacity exists within 
        HCM to help implement and administer this piecemeal solution.

    As noted, erosion of capacity is already occurring. Employees with 
families to support don't wait until drop-dead deadlines; they look for 
other opportunities. Vacant positions are being filled without access 
to many of our most experienced fire leaders. These trends will only 
accelerate as we approach the deadline. Further, morale and trust after 
this treatment are very low. Field employees feel as though they have 
been ill-advised for over two years and then hung out to dry for 
another year. They are stressed out and distracted by this long-running 
drama. This is bad for safety in and of itself, and yet those making 
life and death decisions have been in this state for over a year.
                               conclusion
    Prior to the government-wide OPM policy change to address ``diploma 
mills,'' OPM had approved a supplemental Qualification Standard, GS-
0401 Fire Management Specialist, for which in-house courses 
administered by NWCG counted toward the education requirement. Clearly, 
this specific approval demonstrates that OPM does not consider NWCG to 
be a ``diploma mill.'' This bureaucratic fiasco is a clear and present 
danger to safety on the fire lines--one that cries out for a timely 
solution. It is also a contributing factor to increased attrition rates 
and one which can be readily addressed. We urge enactment of 
legislation to restore the standing of these courses, and suggest the 
following language:

  <bullet> For the purposes of meeting education requirements of the 
        GS-0401 Fire Management Specialist supplemental qualification 
        standard, courses approved and provided by the National 
        Wildfire Coordinating Group shall be considered to meet all 
        applicable accreditation requirements.

    In closing, let me ask two simple questions that cut to the heart 
of this matter. Who would you want leading your son or daughter into 
harm's way? Who would you want in charge of the operation to save your 
house from an advancing wildfire? I know who I'd want. I'd want the 
person best qualified in terms of fire experience and competency. Re-
instating the standing of our in-house training program is the best way 
to ensure that's who we'd get.
                 Appendix 1.--Region 5 Staffing Levels
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Appendix 2.--Employee Comment Excerpts on Filling Vacant Positions
    Comments were collected during a three-day period in March, 2008. 
It is noteworthy that we received well over a hundred comments, the 
vast majority from top fire managers in the field, during this 3-day 
window. We do not represent these managers and it is unusual that they 
would turn to the union in such numbers. We do, however, represent the 
employees who follow them into harm's way. And we do share their 
interest in a safe and effective firefighting organization. More 
comments in their entirety are posted at http://www.nffe-fsc.org/
Documents/IFPM/Web/Log_Web.htm. We strongly encourage review of these 
comments for a more complete understanding of perspectives from those 
on the front lines who have first-hand knowledge regarding the impacts 
of this problem.
    These are excerpts pertaining to the filling of vacant positions 
that is already going on. In some cases, excerpts reference dual 
announcements using the 401 and 462 series. The 462 is a technical 
series without a minimum education requirement. For the jobs discussed 
here, these positions will be converted to 401 positions on October 1, 
2010. Any employees hired into a targeted 462 position must therefore 
obtain the necessary education credits before this time or be removed 
from the position. Obviously, as we approach the 2010 deadline, the 
option of ``floating'' jobs 401/462 becomes less tenable.

  <bullet> Region 1, Fire Management Officer (FMO): I have hired a 
        Center Manager (401) since 2/15/2005. Candidates that met 
        education requirements (Forestry Degrees) had little or no 
        experience (met very few competencies) for the position. The 
        only individual who met the competencies did not meet the 401 
        education requirements. The competencies were much more 
        important to the candidate's ability to lead and supervise a 
        Dispatch Center than a degree was. When I made the selection I 
        understood that the NWCG courses would apply that would help 
        meet 401 requirements. The individual hired is an excellent 
        center manager. He is over 50 years old. By the time the agency 
        has committed time and dollars to meet his 401 education 
        requirements, he will be near retirement. The dollars spent to 
        pursue his 401 training are not available to younger employees 
        to pursue specific, identified needs to prepare them as our 
        future leaders.
  <bullet> Region 1, FMO: The forest is having difficulty getting 
        applicants for 401 positions. We are trying to fill a 401 
        position right now. The applicants who are making it onto the 
        referral list lack on the ground fire experience (for the most 
        part) while many applicants that do have the on the ground fire 
        experience do not meet the 401 requirement.
  <bullet> Region 1, Assistant FMO (AFMO): My Forest just filled a 401 
        FMO position with only four applicants and only one met the 401 
        requirements so they hired him. There should be a much larger 
        applicant pool for such a key position.
  <bullet> Region1, AFMO: My Forest is having trouble filling 
        vacancies, in fact in some cases they are flying the job in 
        both the 462 and 401 series to gain more applicants (even 
        though these positions are supposed to convert to 401 here 
        shortly). From what I have been involved with there has been 
        approximately 6-10 highly qualified candidates for every 1 401 
        candidate.
  <bullet> Region 1, FMO: Even under the old 401 series rules it made 
        no sense to require that the center manager positions be filled 
        in the 401 series. We have trouble getting a decent pool of 
        applicants as it is for center manager positions, requiring 
        them to meet 401 series standards will cripple our ability to 
        fill these positions with highly qualified individuals. This 
        may well turn out to be the real safety issue with IFPM. By 
        requiring all positions at the GS11 level and above to be 
        classified in the 401 series, we will be filling top leadership 
        positions with less than the most experienced leaders.
  <bullet> Region 1, FMO: The Center Manager position is the only 401 
        position we have had to fill. Candidates that met education 
        requirements (Forestry Degrees) had little or no experience 
        (met very few competencies) for the position.
  <bullet> Region 2, FMO: We were in the middle of filling a District 
        FMO job last year, had verbally offered the position to 
        somebody, and that day the announcement came out that S courses 
        (NWCG) no longer count, and we had to go and find another 
        individual that currently met a 401 qualification, RATHER than 
        being able to hire the preferred applicant... We need qualified 
        leaders in these positions, not just paper certified 
        individuals. We're losing the flexibility of identifying and 
        promoting leaders from fire professionals when we can't count 
        the thousands of dollars per individual the US Govt and 
        taxpayers have invested (in NWCG or other fire courses) in 
        these fire professionals as part of their education. This is 
        completely irresponsible...
  <bullet> Region 2, Assistant Dispatch Center Manager: Casper Dispatch 
        in Wyoming had to advertise their 401 position 4 times! They 
        finally had to create a GS-11 Tech [who will have to fulfill 
        education requirements before conversion date]... We will lose 
        our Center Manger in 10/2009 [now 2010] because that person 
        does not qualify for 401 under the current regs. None of the 
        other personnel (four) can move into his position. We have a 
        brand new seasonal working in dispatch this year that has a 
        college degree. That person would legally qualify for the 
        job....but has no understanding of upper management processes 
        within Dispatch. Is this going to help? We have Dispatchers who 
        have worked in the system, understand it and need to move up. 
        Those are the kind of people you want running a Dispatch 
        Center, not fresh out of college kids without experience, 
        without knowledge or ROSS or the National Mobilization system. 
        Dispatch is becoming more complex by the day....ROSS, IQCS, 
        IQS, Best Value, VIPR, WIMS, Fire Use, WFIP, Urban Interface, 
        etc., etc., etc.
  <bullet> Region 3, FMO: We have had three FMO jobs flown as 401. [Two 
        Districts] flew their positions numerous times before they got 
        enough applicants to have a viable cert. For one job I was on 
        the hiring panel and one candidate (there were only 3 on the 
        cert) was determined he did not actually have enough credits to 
        qualify for the 401 so he was dropped. One District has also 
        had a GS-9-401 Fuels AFMO vacant since I got to the Forest in 
        May 2006. Because this position was flown 401 it disqualified 
        the interested applicants on the Forest and had no outside 
        interest thus they have been unable to fill the position and 
        are now advertising it as a 462 series. We just lost our 
        Dispatch center manager to another Forest because we flew his 
        position (this was an upgrade) as 401 believing that he 
        qualified and after HCM got through with his credits he no 
        longer meets 401 quals. Thus he applied for another Forest that 
        flew their manager position as 401/462. Now we are flying our 
        position as a GS-401/462-10/11. We also have many employees on 
        this forest who we have been sending to training to get 
        qualified for 401 who are good employees that are ready to move 
        into AFMO and FMO jobs but don't qualify for 401 jobs. One 
        individual who is currently an AFMO was determined to not have 
        enough credits now with the new rules and he had to get through 
        another class in order to apply for FMO jobs. This is having a 
        negative impact on morale and budgets because money we spent on 
        getting people to an NWCG course that counted for credits are 
        no longer viable and we are now having to send these employees 
        to college courses basically tripling our training costs for 
        our employees who want to be in positions that are 401 and 
        extending the amount of time they have to wait to compete for 
        promotions.
  <bullet> Region 4, FMO: Most all of the vacancies in Region 4 that 
        have come out as only 401, have not been filled due to no or 
        few applicants that meet the education AND the Quals. Most have 
        had to be flown as 462/401 in order to get a decent applicant 
        pool.
  <bullet> Region 4, AFMO: My Forest is having trouble filling 401 
        positions, and only with personnel with marginal field 
        qualifications. I know some who have quit-artificial ceiling, 
        being supervised by college grads with very little fire 
        experience
  <bullet> Region 5, AFMO: From what I understand, when they flew the 
        FFMO job last spring as a straight GS-401 no one applied so 
        they had to go with a GS-401/462 with the highest grade being 
        met when the occupant meet the GS-401 requirements. [Note: the 
        window on this option closes as the conversion date 
        approaches.]
  <bullet> Region 5: A recent outreach effort to fill the upcoming 
        Forest FMO position (401) yielded no interest! The Forest Fuels 
        Officer will take an early retirement rather than spend the 
        last years of his career pursuing ``educational 
        requirements''... I am personally aware of several individuals 
        who have made the decision to drop out of the program because 
        of the unrealistic demands and timeframes placed on them. This 
        is a huge hit to the agency. Near and long-term effects to the 
        agency will be untenable.
  <bullet> Region 5, FMO: Three of our top employees have been 
        adversely affected by the OPM ruling that their NWCG courses 
        may not be counted towards their conversion to the 401 job 
        series... A GS-12 462 Deputy Forest Fire Management Officer 
        does not qualify for the GS-13 Forest Fire Management Officer 
        position I will be vacating in five weeks. Not a single 401 
        candidate applied for this position recently, which leaves the 
        forest without leadership that [this Deputy FMO] could provide 
        if he was converted. The OPM decision also adversely affects 
        two GS-11 fire staff, from occupying key leadership positions 
        as of October 1, 2009.
  <bullet> Region 6: We have an DFMO position open at this time and of 
        the local candidates only one has enough credits to meet the 
        401 standards.
  <bullet> Region 6: My Forest is having trouble filling 401 positions. 
        I currently have one vacancy in my organization that I am 
        advertising as a 401 position. Considering the recent 
        qualification changes for a GS-09 position, most of our 
        experience in the organization is in the 0462 series and they 
        can not compete under these new qualifications.
  <bullet> Region 8, FMO: We are having trouble finding candidates that 
        meet both requirements. The folks that meet the experience and 
        qualification requirements don't meet the education 
        requirements... Conversely the folks that have applied that 
        meet the education requirements do not have the field skills 
        for the positions. This goes for the Regional level as well.
  <bullet> Region 9, FMO: What I have been seeing recently is the 
        people that have been hired since we went to the 401 series for 
        FMO's and Fuel Specialist are mostly people who have graduated 
        from a college in the past 10 years and do not yet meet the 
        NWCG qualifications for the jobs they are getting. Why? Because 
        they are not experienced firefighters! With 10 years or less in 
        an agency they have not had the opportunity for that broad 
        based fire experience. So how are we as federal agencies 
        handling this? We fast track them through the NWCG 
        qualification (quals) process. For quals that would normally 
        take 10-15 years of experience they are getting with only 5 
        years of experience. Not nearly enough to make decisions under 
        the duress of fire operations. What will this mean to the FS 
        and other agencies? Our new fire managers meet the 401 college 
        course requirements but they don't have the experience to be in 
        the FMO positions.
  <bullet> Region 9, FMO: We have been trying to fill a Zone Fire 
        Management Officer position at the GS-11 level. The position 
        was filled prior to with a well qualified technician that had 
        an excellent fire background and I believe a business degree. 
        The problems I'm seeing is excellent candidates with good fire 
        backgrounds are not meeting the certs due to education or worse 
        yet a person with a 4 year degree qualifies for the education 
        job and has 5 years to meet the qualifications. These higher up 
        positions provide oversight safety for our ground personnel and 
        without a background in fire qualifications (in other words 
        having the qualifications to draw from -learning by 
        experiences), we are risking the safety of our personnel by 
        getting less qualified applicants from a standpoint of fire 
        management. In the new fire leadership courses (L-380 and L-
        381), we are instructed that fire fighters base their decisions 
        on past experiences not from what they learned in a 4 year 
        degree.

    The Chairman. Thank you very much.
    Mr. Judd.

  STATEMENT OF CASEY JUDD, BUSINESS MANAGER, FEDERAL WILDLAND 
              FIRE SERVICE ASSOCIATION, INKOM, ID

    Mr. Judd. Thank you, Mr. Chairman and Senator Craig, my 
Senator. Appreciate the opportunity and the honor to convey and 
articulate the voice of our Nation's Federal wildland 
firefighters regarding the preparedness of our Federal land 
management agencies to meet the current wildfire season.
    The voices of these brave men and women include those who 
occupy all fire positions from all five land management 
agencies. They are those who cut the lines, staff the engines, 
jump out of perfectly good airplanes, and manage the fire 
incidents.
    For many years, the FWFSA has done everything in its power 
to reach out to the previous and current agency leadership in 
an attempt to convey the concerns of firefighters and offer to 
work with the agencies to make their fire programs the place to 
make a wildland firefighting career. Each step of the way, we 
have been ignored.
    Today, you will hear two very different assessments of 
agency preparedness. Agency representatives continue to suggest 
they are adequately prepared, and reference the many non-
Federal firefighting resources available to them, without 
referencing the higher costs often associated with such 
resources. We do not believe this accurately portrays the 
preparedness of the Federal land management agency fire 
programs. They continuously suggest that resources can assigned 
based on anticipated starts and other criteria, yet unable-to-
fill lists for resources continue to get longer and longer.
    Although the preparedness of all agencies is at issue in 
this hearing, we will primarily refer to the Forest Service, as 
it is the largest employer of wildland firefighters and the 
agency we believe to be the most dysfunctional with respect to 
the management of its fire program.
    Firefighters believe that agency policy, more than any 
other factor, is at the core of declining preparedness levels 
and what we perceive as the systematic dismantling of the 
agency fire programs. As a result of agency policy, America's 
taxpayers are needlessly paying more for fire suppression, and 
continue to feed an agency incapable of fiscal efficiency with 
respect to its fire program. The agency's refusal to address 
longstanding pay and benefit issues encumbering our 
firefighters, and the archaic organizational structure that 
manages the fire program as it was 30 to 40 years ago, have 
failed to prepare the agency for the complexities of wildfires 
in the 21st century. Despite decades of discussion and volumes 
of documentation supporting such reforms, firefighters from the 
Federal land management agencies continue to be stifled by 
inequitable pay and benefits, as compared to other non-Federal 
firefighters they stand side by side with on any given Federal 
wildfire incident.
    Although nearly everyone in this room today, inclusive of 
agency representatives, refer to these brave men and women as 
wildland firefighters, the agency continues to refuse to 
support any effort to remove these employees from outdated 
classification standards and develop a new wildland firefighter 
classification series that more accurately reflects the variety 
of duties they now perform, even though the House passed such 
legislation during the last session of Congress. The 
consequence of the failure of the agencies to address such 
issues facing their firefighters has been the recent and 
continuing migration of many Federal wildland firefighters to 
other non-Federal fire agencies for better pay and benefits.
    This has resulted in a stunning number of vacancies, in all 
grades, that the agencies have simply ignored until recently, 
when Congress started to ask serious questions about 
firefighter retention.
    Given the number of vacancies in many different fire 
positions, the ability to be properly prepared for the fire 
season, as envisioned by the National Fire Plan and as expected 
by Congress and the American public, is further compromised by 
the organizational structure of the fire program.
    The agency fire program is managed as it was decades ago. 
Those developing and implementing fire policy are line 
officers, such as the leadership in the Washington office, 
regional foresters, forest supervisors, and district rangers, 
who have virtually no wildfire experience or expertise.
    Further, these are the same Forest Service employees who 
continue to systematically divert hundreds of millions of 
dollars in appropriated fire preparedness and hazard fuels-
reduction dollars away from the field to pay for non-fire 
projects. As a result, a number of Federal fire preparedness 
resources in the field, inclusive of temporary firefighters, is 
compromised and inadequate.
    The combination of Federal firefighter vacancies and fiscal 
mismanagement of the fire program by non-fire line officers 
requires the agency to often fill in the gaps of missing 
Federal resources with a significantly more expensive non-
Federal resources, placing an even greater financial burden on 
the American taxpayer.
    Simply stated, the agencies cannot be adequately prepared 
if, (1) they must appear before Congress each year seeking a 
supplemental appropriation of a half a billion dollars, (2) 
they must augment the staggering losses from within their own 
Federal ranks with significantly more expensive non-Federal 
resources, which leads to increased suppression costs, and (3) 
they continue to systematically divert fire preparedness and 
hazardous fuels reduction dollars away from the field to pay 
for non-fire projects.
    How do we fix this? The utilization of the 10-year average 
to establish budget levels for fires must be reviewed. Because 
of the fact that agency policy has led to unnecessary and 
artificial increases in suppression expenditures in recent 
years, it would make sense to allow those with the fire 
experience and expertise to develop budget requirements, 
without political influence, to establish a new baseline of 
funding for fire suppression and preparedness.
    Sadly, it is clear the agencies have no desire to reform 
fiscally inefficient fire programs in order to be better 
prepared for wildfires in the future. Congress must decide if 
it wants these agencies to continue fielding fire programs. If 
it does, Congress must mandate that the agency fire programs 
and associated funding be managed by those with fire experience 
and expertise with the authority and autonomy to manage the 
fire program as a fire department.
    Further, Congress must make changes to archaic pay and 
personnel policies to retain the highly qualified firefighters 
the agencies are now losing. Properly classifying employees as 
wildland firefighters, providing fundamental compensation 
processes, such as portal-to-portal pay, found in nearly all 
paid professional fire organizations, and basic benefits for 
temporary firefighters, such as eligibility to FEGLI and health 
coverage, would make great strides in eliminating the mass 
exodus of Federal wildland firefighters we are seeing, and 
restore the value of the investment our taxpayers have made in 
our Federal wildland firefighting forces. We urge you to listen 
to and consider the voices of these heroes.
    Thank you, again, and I'll be delighted to answer any 
questions you may have.
    [The prepared statement of Mr. Judd follows:]
 Prepared Statement of Casey Judd, Business Manager, Federal Wildland 
                  Fire Service Association, Inkom, ID
                              introduction
    Mr. Chairman and Members of the Committee, it is an honor and 
privilege to appear before you today on behalf of the brave men and 
women across this country who serve as wildland firefighters and 
wildland fire program managers. These brave men and women make up our 
Nation's federal wildland firefighting forces, and I intend to offer 
you their voice and their perspectives on the current preparedness of 
the federal land management agency fire programs, as we face yet 
another potentially catastrophic wildfire season. I also intend to 
offer their recommendations on a corrective course of action needed to 
improve the overall efficiency, cost effectiveness, accountability, and 
safety needed to provide wildland fire management in the 21st Century.
    The Federal Wildland Fire Service Association (FWFSA) is an 
employee association whose membership is primarily made up of federal 
wildland firefighters from all five federal land management agencies. 
As an association, our diverse membership includes those occupying all 
fire positions from entry-level firefighter to fire chief, along with 
dispatch, prevention, and support personnel. It is that diversity that 
continues to provide the FWFSA with a wealth of reliable data and 
information from the field. The FWFSA in turn provides ``real world'' 
information to Congress to illustrate and define the serious issues 
facing the fire programs of the land management agencies, and how these 
issues directly affect community and firefighter safety, as well as 
wrongly increase the financial burden being placed upon the American 
taxpayer to fund an often misguided program.
                           fire preparedness
    During this hearing, the committee will no doubt hear two 
significantly different perspectives on the readiness and preparedness 
of the land management agency fire programs to meet the current 
wildfire season. The committee will hear from Agency representatives 
who, for at least the past two years have suggested to this and other 
committees that they (the agencies) are adequately prepared for the 
season. They (the agencies) undoubtedly will use terms such as 
``increased management efficiencies'' and ``the ability to move 
resources to areas of need'' to describe their version of preparedness, 
and how they feel it is possible to do more with less. These terms, as 
well as their implementation, need great attention and oversight by 
this committee.
    The committee will also hear testimony representing the voice of 
the Nation's federal wildland firefighters. The FWFSA will suggest that 
the federal land management agencies and their fire programs are not as 
prepared for the wildfire season as the agencies would like us to 
blindly believe. As an employee association, the FWFSA will present 
several significant issues that must be addressed if proper fire 
preparedness is to be realized.
    Preparedness levels can be somewhat subjective depending on what 
criterion is being used. The FWFSA believes it is prudent to utilize 
the guidance and expectations of Congress, and who through thorough 
consultation with the land management agencies and their constituents, 
approved the National Fire Plan (NFP) as the baseline for measuring 
current levels of preparedness. As I understand it, it was the intent 
of Congress to fund the ``Most Efficient Level'' (MEL) of resources at 
90-100% to provide improvements to community and resource protection, 
as well as reduce large fire costs. Today, regardless of data being 
provided by the agencies, the current MEL level has dropped below 2000 
levels in most areas.
    As the NFP suggests and common sense would dictate, having 
sufficient preparedness resources in place prior to the wildfire season 
would lead to reduced fire suppression costs. Fire preparedness dollars 
are designed to pay for a variety of resources including temporary 
firefighters, which in any given season can make up nearly 46% of the 
fire season staffing.
    To compliment having adequate preparedness resources in place, it 
is imperative that, as a result of the wildfire season being year round 
in many parts of the country, hazardous fuels reduction must be 
accomplished. These two elements: proper preparedness resources and 
hazardous fuels reduction, are key to reducing wildfire suppression 
costs.
         so why are suppression costs continuing to skyrocket?
    This and other committees have been consistently told by the 
Agencies and ``experts'' that suppression costs are continuing to rise 
because of 1) climate/drought and 2) the increasing costs of protecting 
the Wildland Urban Interface. We, the FWFSA, take serious note with 
these assumptions. While these two elements are indeed factors, proper 
preparedness mitigates to a great degree the influence these two 
elements have on the overall costs of suppression. The question has 
been posed by both Congress and OMB: If it stands to reason that proper 
preparedness lead to reduced suppression costs, why after increased 
preparedness funding under the National Fire Plan, have suppression 
costs continued to rise? A simple answer--Smoke and Mirrors.
    As previously mentioned, the answer from the Agency(s) is that 
while they cling to their (unrepeatable data) suggestion that initial 
attack (IA) success is still 96-98%, climate & Wildland Urban Interface 
have caused the other 2-4% of fires to cost record sums. With all due 
respect, the Nation's federal wildland firefighters adamantly disagree 
with this assessment.
                          firefighter position
    In 2003 the FWFSA warned the Forest Service leadership that changes 
to the retirement package enjoyed by employees of the California 
Department of Forestry & Fire Protection (now called CAL FIRE) would 
result in a mass-exodus of CAL FIRE firefighters taking advantage of 
the more gratuitous 3% @ 50 benefits by the year 2007 & 2008. The FWFSA 
further warned the Forest Service that as a result of the vacancies at 
CAL FIRE, it (CAL FIRE) would naturally look to federal land management 
agency wildland firefighters to fill their ranks. It was at that time 
that the FWFSA made every conceivable effort to reach out to the 
agencies, primarily the Forest Service, to work with it to find ways to 
address long standing pay & benefit issues so that when 2007 & 2008 
came, the losses would be minimal. The FWFSA was summarily ignored by 
the leadership of the agencies.
    Throughout this decade, hundreds of millions of dollars in fire 
preparedness and fuels reduction dollars have been systematically 
diverted by non-fire ``line officers'' of the agencies (again primarily 
the Forest Service) to pay for a variety of non-fire programs, 
positions & projects. These line officers include leadership of the 
Washington Office (WO), Regional Foresters, Forest Supervisors, and to 
a lesser extent, District Rangers.
    The impact of this diversion was not felt until 2006 as up to that 
time forests were able to ``deficit spend'' in order to secure the 
needed preparedness resources despite these huge sums of money being 
diverted away from fire. However in 2006 the word came down that there 
would be no further deficit spending. Incredibly fire management 
officers were expected to maintain the same IA rate without the ability 
to pay for adequate preparedness resources. Several years ago, Congress 
directed the executive branch agencies to cut the costs associated with 
``cost pools'', and show actual costs and where the Congressionally 
intended and appropriated dollars were actually being spent. As a 
result, the Forest Service for example, changed terminology and began 
using ``Indirect Shared Costs'' to rename where dollars were being 
redirected and spent. The decision above to no longer allow ``deficit 
spending'' (Antideficiency Act, 31 U.S.C. sect. 1517) must be addressed 
as both fire preparedness and fire suppression funding is being 
misused, and directly contribute to ``the increasing costs of fire 
suppression'' as agency officials say ``we are prepared'' (Reference: 
GAO, Comptroller General Decision, B-310108).
    In February 2006, Agency (USDA) representatives appeared before 
this committee and once again assured the Committee that adequate 
preparedness resources would be in place. Firefighters knew this wasn't 
going to be the case. The continuation of diverting preparedness 
dollars resulted in less preparedness resources in the field. The 
diversion of fuels reduction dollars reduced the number of treated 
acres. The result was what firefighters expected: reduced preparedness 
resources allowed many small fires to grow in size, intensity and 
ultimately cost as either Incident Commanders waited for federal 
resources that had to now come from much greater distances or, in the 
typical alternative, the Agency reverted to its over-reliance on 
significantly higher-priced non-federal resources to fill in the gaps 
of the missing federal resources. Either way suppression costs 
increased needlessly. The result was a record year for suppression 
costs.
    Rather than admitting the diversion of funds played a role in less 
resources being in place and thus ultimately increasing the costs of 
fires needlessly, the Agency simply reverted to its theory of climate 
and wildland urban interface as the causes of increased suppression 
costs.
    In 2007 we suggested to Congress that a repeat of 2006 was 
inevitable. We further predicted as we correctly did in 2006 that the 
Agency would return to Congress in the fall, complain that it had been 
a terrible season and seek a supplemental appropriation of another half 
billion dollars. That is exactly what happened. The problem was 
exacerbated by the expected exodus of CAL FIRE firefighters retiring 
and by the vacancies they left to be filled by federal firefighters. In 
2007, the migration of federal wildland firefighters began to CAL FIRE 
and other fire agencies offering better pay, benefits, and working 
conditions The Agency, as it did in 2003 when first warned of the 
issue, did nothing to retain their employees despite having a number of 
authorities to do so under the Workforce Flexibility Act of 2004. To 
compound the problem for the federal sector, the Governor of California 
opened up hiring to the outside for mid-level positions at CAL FIRE. 
This generated an entirely new round of hiring and federal losses. 
These losses, and the Agency's inability to retain highly tenured and 
quality firefighters, are currently being investigated by Senator 
Feinstein of California.
    As we enter the 2008 season, the Forest Service fire program, 
primarily focused in the western United States, and especially in 
California is imploding. Despite assurances from the Agency that all 
funded positions would be staffed by the start of the season, as of 
June 6, 2008, 32% of California's Forest Service Engines are 
unavailable. That doesn't include hotshot crews that are being 
disbanded because of staffing and other resources not being staffed. 
Despite the USDA suggesting on May 6th in a letter to Senator Feinstein 
that California had 363 vacancies, the fact was that there were, and 
still are, more than 500 vacancies.
    Further, while the Agency referenced a round of hiring in July, 
firefighters know very well that with the continuing HR problems and 
training requirements, anyone who does get a job offer likely won't 
actually come on board until later in the season, or after they meet 
minimal qualifications. Thus the July hiring idea will have little 
impact on this season's staffing. Furthermore, the problem hasn't been 
recruiting firefighters, it has been keeping them once they are trained 
at taxpayer expense.
    The staffing problems are not exclusive to California. Across the 
country Forest Service engines and other crews are not staffed and left 
uncovered. More importantly, while Congress and the American taxpayers 
expect these engines to be available 24/7, because of the losses of 
firefighters and the failure of the Agency to get fire preparedness 
dollars to the field where they belong, many engines are running only 5 
days a week or even 3 days a week allowing firefighters to wonder if 
the Agency leadership has found a way to ``schedule'' wildfires.
                      prognosis for 2008 & beyond
    Unless Congress takes immediate action to break the vicious cycle 
described herein, the infrastructure of our Nation's federal wildland 
firefighting forces will continue to be less than adequate to meet the 
complexities of wildfires in the 21st century. Allowing the land 
management agencies to continue to manage their fire programs as they 
do today will continue to needlessly result in skyrocketing suppression 
costs borne by the American taxpayer. Throwing more money at the 
problem, i.e. emergency supplemental appropriations without demanding 
proper fiscal management of the funds already appropriated to the 
Agencies for suppression, preparedness and hazardous fuels reduction 
will not result in a stronger, more effective and fiscally efficient 
fire program.
            simple basic solutions to long standing problems
    If Congress intends for the federal land management agencies to 
field and manage fire programs, it (Congress) must insist that the 
organizational structure of said programs be changed so that they are 
managed in a manner that will meet head on the challenges and 
complexities of wildfires in the 21st century. The fire programs can no 
longer be managed as they were 30-40 years ago. While recognizing that 
any such fire program is a part of a land management agency, the fire 
programs must be managed like a fire department. This means, above all, 
that the program must be managed by those with fire experience and 
expertise. This includes those who are responsible for developing and 
implementing fire policy along with the responsibility for handling and 
managing fire funds.
    A common analogy of the current organizational structure of the 
land management agency fire programs is that it is tantamount to a 
major metropolitan city fire department being managed by that city's 
Parks & Recreation Department. As ridiculous as that sounds, that is 
the reality of land management agency fire programs today.
    Turning fire program management over to those with fire experience 
and expertise will eliminate the diversion of preparedness & fuels 
reduction funds ensuring adequate resources are in place. This will 
lead to reduced suppression costs as envisioned by the National Fire 
Plan. Further, policies more in line with current fire department 
protocol would be realized which is essential given the frequency that 
federal wildland firefighters interact with those from other non-
federal fire agencies.
    Secondly, solutions must be implemented immediately to stem the 
tide of losses of federal wildland firefighters to other agencies. The 
issues facing our firefighters with respect to pay & benefits are not 
new. They have been well documented for decades and all reports point 
to the removal of firefighters from beneath archaic pay & personnel 
policies as the solution to this problem. Unfortunately the Agencies 
have done nothing to correct these problems.
    As a result, our Nation's federal wildland firefighters have turned 
to Congress for help in strengthening the land management agency fire 
programs; making those programs the place to make a wildland 
firefighting career while saving the American taxpayer staggering sums 
of money.
    The FWFSA has repeatedly suggested to the Agency leadership that 
two actions would have immediate positive benefits in stemming the tide 
of losses. The first is to properly recognize these brave men and women 
as wildland firefighters through proper job classification.
    Nearly every member of Congress, the President of the United States 
and even the Forest Service Chief and USDA Undersecretary refer to 
these employees as ``wildland firefighters.'' Yet the agencies have 
turned a deaf ear towards the firefighters in removing them from 
outdated classifications such as ``Forestry Technicians'' and Range 
Technicians.''
    The Congressional Budget Office has determined that there would be 
no financial impact to the federal budget if the Office of Personnel 
Management (OPM) were to create a new wildland firefighter series 
(reference HR 5697, 109th Congress). In fact creating such a series 
would eliminate the current debacle associated with the 401 
classification as it affects our firefighters.
    There simply is no compelling reason not to classify these men and 
women as wildland firefighters. The Forest Service Fire & Aviation 
Management Director recently acknowledged what our firefighters have 
known for years--wildland firefighting is a year round job in the 21st 
century. The job descriptions and classifications of these employees 
should more accurately reflect the variety of fire related duties these 
employees now perform. Properly recognizing these brave men & women for 
who they are and what they do would be a tremendously cost effective 
morale boost and give them the sense that someone actually does care 
about them.
    Finally, the compensation concept of ``portal to portal'' pay has 
been a subject of contention between federal wildland firefighters and 
their employers for decades. Despite the fact that the vast majority of 
paid professional firefighters in the United States, inclusive of 
Department of Defense federal firefighters are compensated in this way, 
the land management agencies have steadfastly refused to do so. It is 
likely a result of the fact that the fire program is managed by those 
with no fire background and thus ill-equipped to understand what is 
needed to field a top notch firefighting force.
    Ironically the payment of ``portal to portal'' to non-federal 
firefighters (primarily those in the West from municipal fire agencies) 
is also a major factor in skyrocketing fire suppression costs. One only 
needs to look at major costly fires in the West and see that the 
majority of suppression costs are for non-federal resources.
    However the refusal of land management agencies to compensate their 
own wildland firefighters with portal to portal pay is perhaps the most 
egregious issue when one conducts exit polls of those federal 
firefighters leaving the federal system.
    It is unconscionable for the Federal Government to criticize the 
rising costs of wildfire suppression while continuing to pay non-
federal firefighters portal to portal pay while taking their own, 
inherently less expensive firefighters ``off the clock'' on the same 
incident.
    Currently, federal wildland firefighters who are on assignments 
that exceed 24 hrs are taken off the clock for anywhere from 8-14 hours 
of that 24 hour period while their municipal counterparts are paid 
their already higher salary for a full 24 hours. These assignments can 
be up to two weeks or longer and result in federal wildland 
firefighters being away from home and family yet they are not 
compensated even though they cannot utilize their time as they would 
normally do.
    The concept of portal to portal as it relates to federal wildland 
firefighters would be to simply compensate said firefighters for all 
hours on an assignment exceeding 24 hours in duration.
    While the Agencies have suggested that such compensation is ``cost 
prohibitive'' such an argument defies logic given that those same 
agencies compensate cooperators with portal to portal pay at much 
higher rates. In fact, it is our assumption that compensating federal 
wildland firefighters with portal to portal pay would not only cost a 
fraction of what is currently funded for wildfire suppression but it 
would lead to better retention and thus reduce the need to over rely on 
the higher-priced non-federal resources thereby saving taxpayers 
significant sums. It should be interesting to note that despite their 
opposition to portal to portal pay, the Forest Service approved the use 
of ``24 hour pay plans'' on several Southern California forests this 
past fall. These plans paid firefighters 8 hours of base pay and 16 
hours of overtime less 3-half hour meal periods.
    Furthermore these plans were utilized for crews who were simply 
pre-positioned and not on an active assignment. Thus we believe the 
precedent has been set for portal to portal pay. Furthermore, the 
greatest irony involving portal to portal pay is that if preparedness 
funds were not diverted as previously referenced and sufficient federal 
fire preparedness resources were actually in the field, the number of 
incidents (24 hrs+) in which portal to portal would be compensable 
would be significantly reduced. There mere knowledge that they would be 
eligible to be paid in a similar manner as their non-federal 
counterparts on any given emergency incident would lead to better 
retention.
    These changes, along with providing temporary wildland firefighters 
basic health benefits and eligibility to the Federal Employee Group 
Life Insurance (FEGLI) would eliminate any retention problem; ensure 
adequate preparedness resources are in place each season; reduce the 
costs of suppression; eliminate the annual request for emergency 
supplemental appropriations; strengthen the infrastructure of our 
Nation's federal wildland firefighting forces and ultimately save the 
American taxpayer hundreds of millions of dollars.
    The federal land management agencies have steadfastly refused to 
support or implement any plans/policies that would serve to solve the 
myriad problems facing their fire programs. If the agencies are 
unwilling to make the necessary changes, we urge Congress to make them 
for them or, in the alternative, take fire away from the land 
management agencies and create a stand-alone federal wildland fire 
service managed by firefighters for firefighters.
    Until these changes are made, our Nation's federal land management 
agencies will be ill-prepared to face this and subsequent fire seasons 
and will remain unable to provide the American public with the 
strongest, yet most cost-efficient and effective wildland firefighting 
force in the world.

    The Chairman. Thank you very much.
    Ms. Miley, go right ahead.

   STATEMENT OF DEBORAH MILEY, EXECUTIVE DIRECTOR, NATIONAL 
          WILDLIFE SUPPRESSION ASSOCIATION, LYONS, OR

    Ms. Miley. Mr. Chairman and members of the committee, I 
want to thank you for the opportunity to present testimony 
today regarding wildland fire preparedness.
    My name is Deborah Miley, and I'm the executive director of 
the National Wildfire Suppression Association. Prior to my 
current position, I was a fire contractor for 12 years.
    NWSA currently represents 200 professional private wildfire 
contractors in 17 States, and we also have 68 certified 
training instructors. NWSA's members provide professionally 
trained emergency resources to the Federal, State, and local 
agencies responding to the wildfires, assisting with fuels 
reduction, and other national disasters, such as Hurricane 
Katrina.
    Up to 40 percent of the fire resources across the U.S. are 
provided by private wildland fire services. Our goal is to 
complement, rather than to compete with, the existing agency 
resources when fire activities exceed agency capacity. 
Approximately 75 percent of our contract companies are located 
in rural areas and recruit local rural citizens to fill their 
employee needs. We're currently an integral part of the fire 
service that provides resources, such as 20-person crews, 
engines, tenders, dozers, and timber-fallers, along with 
totally operational fire camps, which include showers, laundry, 
lavatory, housing units, and catering operations that feed and 
house all emergency personnel. The savings to the agencies is 
that we are paid only for our time on the line; typically, a 
12- to 16-hour shift. The contractor bears all of the costs of 
training, equipment, liability, and insurance. What the 
agencies get is a highly effective, experienced resource that 
is available only when they need them.
    NWSA advocates the use of the multiyear best-value contract 
when contracting for private resources. These best-value 
contracts help to reduce the cost to the agency by issuing 
multiyear contracts that do not require staff resources needed 
for managing annual contracts; ensure resource quality by 
considering not only cost, but past performance, company 
history, equipment condition, dispatch location, and their 
training.
    For the upcoming fire season, we estimate that we have 
roughly 10,000 trained firefighters and another additional 
5,000 in support staff available and ready to provide a variety 
of resources. These figures do not include the aerial 
firefighting industry, nor do they include rural fire 
districts. This is comparable to the number of firefighter 
resources that we made available last year, and these figures 
can vary and are based on the projected needs of the agencies.
    The NWSA, like the agencies and members of the committee, 
continue to focus on issues such as cost containment, the 
quality of training, and safety of our firefighters.
    With regards to cost containment, NWSA provides a 
professional cost-effective resource that complements the 
agency's fire program. Two reports commissioned by the Forest 
Service, one in 2003, done by Fire Program Solutions, and one 
in 2007, by Geoffrey Donovan, shows that private resources can 
be cost-effective, and that the best solution is an optimal mix 
of agency and private resources to achieve the most effective 
efforts in fire suppression while addressing cost containment.
    On safety, we're partnering with several agencies and 
others in 2008 to start a new contractor certification program. 
We're going to continue to offer ongoing education and safety 
training and compliance to our members.
    With regards to training, we currently certify only 
qualified instructors, most of whom are retired agency 
personnel with years of fire experience. We have a monitoring 
program for our instructors and an annual update workshop for 
them.
    The NWSA also has a data base storage system that tracks 
the training for all of our NWSA instructors to help eliminate 
falsified records and incident qualification cards by allowing 
only certified instructors to enter training into the system.
    In conclusion, NWSA believes the private fire services are 
ready for the 2008 fire season. NWSA will continue to partner 
with the agencies to promote best-value contracting for the 
private fire services. NWSA will continue to work to promote 
professionalism in all areas of safety and training within the 
private fire service. NWSA will continue to provide a cost-
effective integrated resource to complement the agencies' 
efforts in fire suppression and emergency services.
    Thank you.
    [The prepared statement of Ms. Miley follows:]
   Prepared Statement of Deborah Miley, Executive Director, National 
              Wildlife Suppression Association, Lyons, OR
    Good afternoon, Chairman Bingaman, Ranking Member Domenici and 
members of the Committee and thank you for the opportunity to present 
testimony today regarding wildland fire preparedness. My name is 
Deborah Miley and I am the Executive Director for the National Wildfire 
Suppression Association. Prior to my current position I was a fire 
contractor for twelve years.
    The National Wildfire Suppression Association (NWSA) represents 
over 200 professional private wildfire contract companies in 17 states. 
NWSA's members provide professionally trained emergency resources to 
federal, state and local agencies responding to wildfires and other 
national disasters such as Hurricane Katrina, that threaten our 
national natural resources, private property, and personal safety.
    Up to 40% of the fire resources across the United States are 
provided by private wildland fire services and are utilized when all 
the agency resources are depleted or when a catastrophic disaster 
strikes such as the wildfires in Southern California last year. Our 
goal is to complement rather than compete with the existing agency 
resources when fire activity exceeds agency organizational capacity.
    Approximately 75% of our contract companies are located in rural 
areas and recruit and rigorously train local residents including 
displaced workers and college students to fill their ranks.
    When lives are on the line, the agencies must have confidence in 
any resource that is a part of the fire community. Since 1991, the 
mission of NWSA is to insure that its members earn that confidence.
    In order to accomplish this the NWSA provides training 
certification, advocacy and support to help its member companies field 
experienced, highly trained, safety focused resources that meet or 
exceed all federal standards.
    We are currently integrated in the fire services in that private 
sector provides resources on the ground including 20 person crews, 
engines, tenders, dozers and timber fallers. In addition the private 
sector provides totally operational camps including showers, laundry, 
lavatory, housing units Private Sector fire catering operations that 
feed and house all firefighters and emergency response personnel.
       history of the development of private sector fire services
    The relationship between the federal, state and private wildland 
fire contract industry began in the late 70's and early 80's--this was 
an era of shrinking agency budgets and an ever growing incident of 
large fires. To respond effectively, agencies needed professional, 
trained resources that were available on a call-as-needed basis to 
complement their dwindling ranks of full time firefighters. Thus was 
born the industry of private contractors, who could rapidly dispatch 
those resources. An added saving to the agency is that private 
resources are paid only for the time on the fire. The contractor bears 
all costs of training, equipment, liability and insurance. What the 
agencies get is highly effective, experienced resources when they need 
them and only when they need them.
    In the late 1980's the first contract crew agreement was written in 
the Pacific Northwest by the Oregon Department of Forestry. As the 
federal agencies had a larger need for those resources, the first 
Interagency Crew Agreement was developed in the Pacific Northwest which 
was followed by the Interagency Engine/Tender Agreement. Prior to the 
implementation of those agreements everyone was hired on an Emergency 
Equipment Rental Agreement (EERA).
          nwsa supports the best value concept of contracting
    NWSA continues to advocate the use of the Multi-Year Best Value 
Contracting program when contracting for private resources. We believe 
that this contracting vehicle will help ensure a high level of 
professionalism in the industry while helping the agencies assure that 
they get the most professionally trained, cost effective resources.
    These Best Value contracts provide best value for the government 
and the tax payer:

    --Reducing the cost to the agency by issuing multi-year contracts 
            that do not require the staff resources needed for managing 
            annual contracts or Emergency Equipment Rental Agreements.
    --Ensure resource quality by considering not only cost but past 
            performance, company history, equipment condition, dispatch 
            location and training.
    --Help promote professionally trained, safety focused resources.

    Best Value Contracting also helps stabilize the industry and help 
encourage the private sector to continue to invest in their businesses. 
This is a positive factor for the economy, especially in the rural 
communities.
                resources available from private sector
    For the upcoming fire season we estimate that we have roughly 
10,000 trained firefighters, and another additional 5000 in support 
staff for caterers, showers and other support resources available and 
ready to provide resources of all types including showers, catering 
units, laundry, engines, tenders, 20-man crews, and other specialized 
equipment. These figures do not include the aerial firefighting 
industry. This is comparable to the number of firefighter resources 
that were made available last year. These figures can vary and are 
based on the projected needs of the agencies.
    Last year, we were dispatched to 19 different states including 
Tennessee, Florida, Georgia, Minnesota, Colorado, California, Oregon, 
Washington, Idaho, Utah, Wyoming, Arizona, Nevada, Montana, Kentucky, 
and New Mexico, Virginia and North Carolina.
    We will be ready to answer the call when the agency resources are 
depleted and they request additional resources to complement their 
efforts.
   industry concerns: cost containment, training, safety, erosion of 
                            fire experience
    The National Wildfire Suppression Association, like the agencies 
and members of the committee continues to focus on ensuring cost 
effectiveness of our resources, the quality of our training, which we 
believe to be the best anywhere. Our focus on firefighter safety is 
intense and has resulted in a very low incidence of injury and 
fatality. We are concerned, however, about the loss of agency personnel 
with fire experience--a situation which creates safety issues on the 
line for everyone, including our members' personnel.
    Some of the Solutions we have implemented to address these issues 
are:

Cost Containment
    NWSA provides a professional cost effective resource that 
complements the agencies fire program. A report commissioned by the 
Forest Service in 2003 done by Fire Program Solutions LLC shows the 
costs for the using private sector for fire suppression was a cost 
effective addition to be used by agencies requiring additional help. In 
addition a report done by Geoffrey Donovan, USFS, in the Winter of 
2007, shows that many variables determine the cost effectiveness of 
private resources, and that they can be just as cost competitive and 
that there needs to be an optimal mix of agency and private resources 
to achieve the most effective efforts in fire suppression while 
addressing cost containment. In short, Private fire resources are and 
have been an integral part of the fire community in Wildland fire 
suppression, and do provide a cost effective resource that can be 
utilized on an as needed basis to complement the agency fire program.
    NWSA believes that continuing to support the implementation of true 
Multi-Year Best Value Contracts is the best solution to ensuring cost 
effectiveness in contracting.
Instituting a Contractor Certification Program
    NWSA is partnering with a variety of agencies over the next year to 
offer a new Contractor Certification Program for our members. This 
program will better equip members with resources on Workers 
Compensation requirements, Safety & Health Standards, U.S. Department 
of Labor and U.S. Department of Transportation regulations in addition 
to a class on Business Ethics, and information on Drug & Alcohol 
Supervisory Training.
Instructor Monitoring Program insures top quality instruction for 
        firefighters
    Currently NWSA has 68 Certified Instructors. They are certified by 
our NWSA Training Coordinator according to National Wildfire 
Coordinating Group (NWCG) standards. Most of our NWSA instructors are 
retired ex-agency personnel with years of fire experience. NWSA 
instituted an Instructor Monitoring program and we have hired an 
independent 3rd party to perform this function.
    We adhere to the currency requirements for instructors per the 
National Wildfire Coordinating Group standards. NWSA conducts an annual 
training session for our instructors where they are updated on course 
content changes, suggested training processes, and association 
requirements. All NWSA instructors are required to record their 
training in the NWSA Database Storage System.
    In addition all instructors must adhere to a Code of Ethics. NWSA 
has terminated certification for 4 instructors who have not adhered to 
our requirements. When an instructor's certification is terminated, 
they are no longer able to use the NWSA Database system and we notify 
the appropriate agencies.
NWSA Database Storage System helps eliminate falsification of records 
        and IQ cards
    NWSA has developed a Web based database storage system that tracks 
all training done by NWSA Certified Instructors. This program helps 
eliminate falsified records and Incident Qualification (IQ) cards by 
allowing only certified instructors to enter training into the system, 
which includes the firefighter's picture and the instructor's 
electronic signature. It produces training certificates and Incident 
Qualification Cards that meet all agency requirements. The documents 
can be verified by agency personnel on a fire accessing the system and 
looking at training and comparing the IQ Card in the system if 
necessary. The company owner can also track event information for its 
employees in the system, which determines qualification of position. 
There are many levels of security and authorization built into the 
system.
Records Verification Process standardizes contractor record keeping 
        processes
    This year in 2008 in the Pacific Northwest Region we started a 
process of records verification where we have hired an independent 3rd 
party that visits the contractors' establishments and looks at the 
records on all overhead and 10% sampling of the crews. We make 
recommendations on file process and submit a letter to the company 
owner on issues that need to be addressed and provide follow up to 
ensure it has been remedy.
Code of Ethics creates standard of business operations for member 
        companies to protect and preserve industry reputation
    All NWSA members must sign and follow a Code of Ethics and there is 
a process in which we can terminate membership of a member if that is 
violated and not remedied. NWSA has terminated 2 members as a result of 
violations. When a member is terminated we notify all appropriate 
parties, and that member no longer has access to the NWSA Database.
                             in conclusion
    The National Wildfire Suppression Association (NWSA) believes that 
the private fire services will be ready for the 2008 fire season.
    NWSA will continue to partner with the agencies to promote Best 
Value Contracting for private fire services.
    NWSA will continue to work to promote professionalism in all areas 
of safety and training within the private fire services.
    NWSA will continue to provide cost effective integrated resources 
to complement the agency efforts in fire suppression and emergency 
services.

    The Chairman. Thank you very much. Thank you all for your 
testimony.
    Let me ask a few questions. I'm sure Senator Craig has 
some, as well.
    Mr. Thatcher, you described a circumstance where agency 
managers are in a position of having to hire less-experienced 
firefighters because some of the more experienced applicants 
have not met these new educational requirements, as I 
understand it.
    Mr. Thatcher. Let me clarify that. What's happening is, 
we're seeing an excessive amount of attrition with our existing 
GS-06s and -07s. What's happening is, they are being pilfered, 
if you will, to private firefighting agencies in California, 
which is leaving us with a shortage of the experienced people 
that have been working their way through the system to get 
these grade levels, and now, when they leave, it leaves a void, 
to where we need to rapidly fill behind them so we can staff 
these engine modules. We're beginning to see some pretty 
serious implications from having to do that.
    The Chairman. This high attrition rate is a result of what 
Mr. Judd was complaining about, too, the inadequate pay, the 
inadequate benefits. Is that the main factor?
    Mr. Thatcher. I won't speak for Mr. Judd. I'll let him do 
that on his own. But, some of the folks that we have done exit 
interviews--which would be an excellent thing for the committee 
to request, is to see why are our folks migrating away from our 
agency and going to other agencies--but, we do feel that that 
is one of the reasons why.
    The Chairman. Mr. Judd, in your view, is that the main 
reason?
    Mr. Judd. It used to be. Obviously, when CAL FIRE--and I'll 
use this as an example, because there seems to be a lot of 
focus on California--CAL FIRE's firefighters developed a very 
lucrative retirement package, and we knew, several years ago, 
that, come 2007-2008, this would have an impact, where they 
would look for wildland firefighters to fill in the ranks of 
those that were retiring. Obviously they can provide better pay 
and benefits. But, what has happened over the last year and a 
half is the sense that, ``Yes, I'm going for pay and benefits, 
but I've lost any sense of worth with the agency, as though the 
agency doesn't give a damn about me. So, why not go and take 
better pay and benefits for someone that may actually care 
about me?''
    I think, the initial intrigue of leaving is for pay and 
benefits, but, as we've seen from our members, which go from 
entry level all the way up to forest fire chiefs, it's the lack 
of recognition, it's the lack of any caring, if you will, on 
the part of the employer.
    The Chairman. So, you're just describing a general lack of 
morale, or poor morale, throughout the--this work force.
    Mr. Judd. Oh, absolutely. It's not limited to California, 
because obviously these crews are transient across the country, 
depending on where fires are on any given----
    The Chairman. Is this poor morale that you're describing to 
us a new thing, or is this something that's been there since 
time immemorial--what's the circumstance here?
    Mr. Judd. Interestingly enough, the issues that we're 
tackling are decades old, and they've been made aware to the 
agencies for decades, and there has been staggering numbers of 
discussions and meeting groups saying, ``This is what needs to 
be done to make your fire organization more effective and 
efficient and stronger.'' Rather than take steps to support 
those initiatives, we believe the agency has simply ignored 
those voices from the fire service. As a result, you have 
archaic classification standards, you have less pay and 
benefits. As a result of the agency simply doing nothing for 
its firefighters, there's no other choice but to say, ``OK, 
well, I'm leaving, I'm going.''
    I think, on April 1--Chief Kimbell referred to this as an 
entry-level problem. This is not an entry-level problem. We're 
losing folks that have had 10, 15, 20, 20-plus years in the 
fire service--of the Forest Service, especially--that are 
saying, ``I've had enough of this,'' because there is no agency 
support for those firefighters. Again, it's a combination of 
pay and benefits, but it's also part of how that fire program 
is managed by folks that, with all due respect, don't have a 
lick of firefighting experience.
    Mr. Thatcher. Mr. Chairman.
    The Chairman. Yes.
    Mr. Judd. If I could----
    The Chairman. Yes, go ahead. Why don't you add to that, and 
then I'll call on Senator Craig for his questions.
    Mr. Thatcher. One of the morale issues that these dedicated 
firefighters, as Casey has said, that some have 10, 15, 20 
years, and now they're being told, ``Well, we're going to be 
looking at changing from the series that you're in currently to 
a 401, and we're going to professionalize you. Now, it's either 
you're going to get what you need to get through academia to 
qualify for the 401 series, or we'll probably having to sunset 
you out.'' So, here are these career employees, who are some of 
the finest firefighters we have on the books, are now being 
told, ``The 20 years of experience that you have in fighting 
fires and protecting and caring for the precious resources 
we're obligated to protect, is no longer going to qualify you 
to do that job.'' That is a serious hit in morale with our--and 
there's thousands of them that have come through the system, 
gone through the classwork, gone to the specialized training 
the agency provides, and now they're being told, ``Sorry, you 
don't qualify.''
    The Chairman. Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    Ron, help me understand this. If we go to all, say, 301 
forest--firefighters in the Forest Service, and DOI stays at 
401 firefighters, how will the Forest Service employees compete 
with the DOI employees when they apply for Forest Service fire 
positions?
    Mr. Thatcher. My understanding----
    Senator Craig. Haven't we created an internal conflict 
there?
    Mr. Thatcher. I believe that employees will always need to 
know that if they leave an agency and go to another agency, 
they will have to compete to get promotions in that other 
agency. So, I mean, they're going to that, fully well knowing 
what is going to be required if they change agencies.
    We believe, the 301 series--we currently have grades up to 
the 14 level. I mean, that is a pretty high echelon for 
firefighters that is provided in the 301 series. So, we see 
career potential to very high grades by utilizing the 301 
series.
    Senator Craig. OK. I'll try to figure that out, then. I 
think I understand what you're saying.
    Deborah, are you aware of any concerns related to 
dispatching of private fire engines into local fires? If so, 
could you please express your concern or explain that?
    Ms. Miley. I think, just over the years, we've had dispatch 
issues, and that's part of being in private sector; people 
knowing----
    Senator Craig. Yes.
    Ms. Miley [continuing]. What to do with us and how to use 
is has always been an issue. I know that last year there was a 
concern on behalf of a lot of our members on why some of the 
engines out of Region 6 weren't being dispatched to Region 1, 
which----
    Senator Craig. Right.
    Ms. Miley [continuing]. Would be Montana. That issue did 
come up. Now, I had done some calls and tried to see what I 
could find out about why that was, and my understanding was 
that, in Montana, that they were using a new fire management 
program in Montana that didn't promote the use of outside 
resources as much as some of the other States use them. We also 
have the same problem in California. California doesn't 
particularly care for private-sector resources, and, a lot of 
times, you'll hear on the news where they've got houses burning 
down, they can't get enough crews, and we've got crews sitting 
that could go. But, that's kind of a dispatch problem that 
we've had over a long period of time, and it's just a matter 
of, I think, education, and people don't know that our 
resources are out there and that they can be made available.
    Senator Craig. Thank you, Mr. Chairman. I don't think I 
have any other questions.
    The Chairman. OK.
    I think this has been useful testimony. We appreciate you 
being here, appreciate the recommendations. We will try to act 
on some of them.
    Thank you very much.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]

                                                     June 13, 2008.

To: Senate Energy & Natural Resources Committee.

    Dear Members: I am the wife of a Forest Service Fire Captain who 
was dispatched to the Indians Fire. At this time I would like to 
address the main issue I face by the lack of attention and action by 
Forest Service leadership, the safety of my husband and our ``fire'' 
family.
    Statistics show that there is an 8.5% deficit in personnel. While 
that number may be true for the entire nation, in our region, Region 5, 
I would guess the number to be closer to 30% or higher. How else can 
you explain that only 186 out of 276 engines were available to respond 
to the recent fires in state? This number is staggering to me and makes 
me very afraid for the safety of all.
    The retention issue is no longer just an issue of pay, but of 
safety and belief in the core values of leadership. Safety is 
jeopardized when crews are stretched to the limit and inexperienced 
firefighters are forced into details they do not have the experience to 
execute. First and second year firefighters are fast tracked to make up 
for the loss of experienced firefighters to other agencies, positions 
remain un-staffed and engines sit idle. It is just a recipe for 
disaster.
    When disaster does happen, the agency does not stand by its 
employees as do other agencies. Families are further burdened 
financially with the need to carry Professional Liability Insurance 
because the agency has historically chosen to do nothing. Many families 
can not afford this burden.
    I believe in my husband and stand by his choice to stay with the 
Forest Service. We are lucky, unlike many other families we can afford 
financially to believe that leadership will pull their heads out of the 
sand. We can afford to wait for them to face up to their twisted facts 
of retention and pay and stop hiding behind reports that anyone with 
knowledge of simple math can reasonably tear to shreds. What we can't 
afford to wait for are additional personnel.
    There is always a risk associated with fighting fire, but the risk 
can be minimized and you have the ability to help make that happen. 
Please do what is expected of you, the right thing.
    As you move forward with your process, I would like all of you to 
ask yourselves, ``How fast would I fill a vacancy of 30% in my staff?'' 
I'm guessing pretty fast. No matter how good the staff, a deficit of 
just one person puts a burden on all. Just think of how the deficit of 
just one man would affect a fire crew? The affect could be deadly.
    In closing, I would like to thank Senator Feinstein for all her 
efforts on behalf of the firefighters and their families. Your efforts 
are greatly appreciated!
            Best regards,
                                      Christina M. Stanley.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Responses of Casey Judd to Questions From Senator Wyden
    Question 1. Mr. Judd, in your testimony you stated that ``the 
diversion of fuel reduction dollars reduces the number of treated 
acres'' and the result is that reduced preparedness resources allows 
many small fires to grow in size, intensity and ultimately cost. You 
suggest that federal land management agencies and their fire programs 
are not as prepared for the wildfire season as they need to be.
    a. Would you agree that the diversion of funds played a role in 
less treatment resources being in place which ultimately increased the 
costs of fires needlessly? Can you provide examples where you have seen 
this happen on the ground?
    Answer. Thank you for the honor & opportunity to provide additional 
information on our perspective of Agency preparedness for the fire 
season. To amplify the seriousness of this issue, it is important for 
all the members of the Committee to know that just in the past few 
days, Northern California has experienced over 600 fire starts 
stretching already thin resource availability. Additionally, there is 
significant concern among fire managers that with respect to the Indian 
Fire on the Los Padres National Forest, huge areas of the forest will 
have to be ``fired'' in order to keep the fire from getting to the 
Pacific Ocean.
    Our Nation's federal wildland firefighters absolutely agree that 
the continued, systematic diversion of funds appropriated for hazardous 
fuels reduction and for the funding of fire preparedness resources for 
non-fire purposes is reducing the number of acres treated as well as 
reducing the available preparedness resources IAW the National Fire 
Plan in order to keep fires small and thus less costly.
    A vast amount of these funds have gone to finance what we consider 
to be the ``White Elephant'' Albuquerque Service Center in New Mexico. 
Despite staggering sums of FIRE dollars invested in that site, even the 
Forest Service acknowledges that it is not functioning as desired.
    One needs only look at costly fires such as the $118 million Zaca 
Fire in California last year. The vast majority of the suppression 
costs were for non-federal resources (cooperators) that were brought in 
as a result of federal resources being unavailable. Federal resources I 
might add that would have been available had they been funded rather 
than non-fire line officers from the Forest Service diverting such 
funding.
    A classic example of the impact of reduced federal preparedness 
resources in the field was a 2006 fire in Elko Nevada. An order was 
placed for dozers. Had preparedness funds not been diverted but 
actually used to properly fund and allocate preparedness resources in 
the field, these resources would have been on site immediately. However 
the dozers finally had to come from Florida which took additional time 
and thus allowed the fire to grow in size, intensity & cost. This 
scenario plays itself out frequently during the season in many 
locations.
    As I write this, Northern California Fire Management officers 
(FMOs) are being told by Boise that there are no Type 3 resources 
available. More and more reliance is being placed on non-federal 
resources costing taxpayers 3-5 times what federal resources would 
cost.
    The Forest Service, under the guidance of Mark Rey does an 
excellent job of masking its fiscal mismanagement with respect to the 
fire program. Suffice it to say it might require a GAO report to 
examine just how much hazardous fuels reduction funding & fire 
preparedness funding is being utilized for non-fire purposes. We can 
however provide communication with current and former Fire & Aviation 
Management Directors, FMOs and others who can validate this assessment.
    Please understand that the diversion of said funds goes hand in 
hand with a weakening of the infrastructure of our Nation's federal 
wildland firefighting forces as a result of being burdened by archaic 
pay & personnel policies. We continue to lose unacceptable numbers of 
firefighters to other non-federal agencies. Add these losses to the 
diversion of funds and you have a recipe for increased suppression 
costs.
    While the Agency suggests climate and WUI are the primary reasons 
for increased suppression costs, firefighters believe Agency policy is 
the key. The impact that climate and WUI has on any given fire can be 
mitigated to a large degree by having adequate preparedness resources 
in place, a strong federal infrastructure which is inherently less 
costly than non-federal resources and the successful treatment of 
hazardous fuels.
    If we can provide contact information for those who can validate 
this information, please let us know. Please recognize however that the 
Forest Service has sent ominous messages to its firefighters about the 
consequences of speaking to Congress or the press about these issues, 
hence my testimony. There are those that would relish the opportunity 
to speak out though.
    Our sincerest thanks for your interest and attention to this 
serious matter.
                                 ______
                                 
       Responses of Deborah Miley to Questions From Senator Wyden
    Question 1. Ms. Miley, during the hearing I asked Mr. Rey and Cason 
about rising fuel prices and how their agencies plan on address this 
issue as it relates to contractors.
    a. How are rising fuel prices impacting your members? Do you 
anticipate any reduced capacity in firefighting response abilities due 
to rising fuel costs?
    Answer. While fuel prices continue to affect all of us, the 
unfortunate reality for our members is that most the contracts we are 
currently working under DO NOT have escalators built into them for fuel 
prices, therefore the majority of the contractors will have to absorb 
the rising cost of fuel. This is the case until such time as the 
contractors come up for bid again at which time I am sure that the 
agencies will see a change in the bids to reflect fuel costs at that 
time.
    If they are given enough work days during the fire season this will 
make it easier to absorb those costs, but if we are not given enough 
days the impact will be greater.
    At this time I do not see a reduced capacity in firefighting 
response due to fuel prices, but the impact will probably not reflect 
on the industry until contracts are renewed, and again if they are 
given enough days to absorb those costs the impact may not be great.
                                 ______
                                 
        Responses of Mark Rey to Questions From Senator Bingaman
    Question 1. According to the NICC report entitled ``Wildland Fire 
Summary and Statistics: 2007'', 1,199 of the 3,178 requests for Type 1, 
2, and 2-IA were unable to be filled. How many of the 3,178 requests 
were made during National Preparedness Levels 4 and 5? How many of the 
1,199 unfulfilled requests were during National Preparedness Levels 4 
and 5?
    Answer. It is important to note that Unable to Fill (UTF) orders 
are a static statistic that indicate an order was placed and was not 
able to be filled at that specific time. The list is a display of those 
resource orders on the date specified that a coordination center is 
been unable to fill by personnel within its geographic area. The 
filling of firefighting resources is dynamic and an order placed may, 
in fact, have been filled a short time after the order was placed, or 
if conditions change, dropped. In addition, during Planning Levels 4 
and 5, resources are assigned based on the priority of the fire 
incident. As orders come in they are sent to meet priority needs on 
priority fires. Though this process, the wildland fire management 
agencies can efficiently and effectively address wildland fire 
suppression needs in a manner that balances local, regional, and 
national wildfire suppression capacity.
    The responses to questions 1 through 5 are based on a June 25, 2008 
query of the January 1 through December 31, 2007 resource data from the 
ROSS database. Please note that some of the numbers below vary slightly 
from those in the NICC report. This is likely due to data updates 
between the different individual queries, but would not be expected to 
influence the overall conclusion.





Total Requests.......................................              3,305
Total UTF............................................              1,292
Total Request while at PL 4 & 5......................       2,861 or 87%
Total UTF at PL 4 & 5................................       1,245 or 96%


      
    Question 2. The same report indicates that the agencies were unable 
to fulfill 270 of the 2,944 requests for engines. How many of the 2,944 
requests were made during National Preparedness Levels 4 and 5? How 
many of the 270 unfulfilled requests were during National Preparedness 
Levels 4 and 5?

    Answer. (See below)





Total Requests.......................................              2,994
Total UTF............................................                330
Total Request while at PL 4 & 5......................       1,963 or 66%
Total UTF at PL 4 & 5................................         193 or 58%


      
    Question 3. The report also indicates that the agencies were unable 
to fulfill 9,184 of the 27,592 overhead requests. How many of the 
27,592 requests were made during National Preparedness Levels 4 and 5? 
How many of the 9,184 unfulfilled requests were during National 
Preparedness Levels 4 and 5?

    Answer. (See below)





Total Requests.......................................             29,334
Total UTF............................................             10,034
Total Request while at PL 4 & 5......................             22,398
Total UTF at PL 4 & 5................................       9,043 or 90%


      
    Question 4. Similarly, the report indicates that the agencies were 
unable to fulfill 474 of the 1,298 requests for helicopters. How many 
of the 1,298 requests were made during National Preparedness Levels 4 
and 5? How many of the 474 unfulfilled requests were during National 
Preparedness Levels 4 and 5?

    Answer. (See below)





Total Requests.......................................              1,323
Total UTF............................................                511
Total Request while at PL 4 & 5......................       1,000 or 76%
Total UTF at PL 4 & 5................................         496 or 97%


      
    Question 5. Finally, the report indicates that the agencies were 
unable to fulfill 624 of the 2,780 requests for aircraft. How many of 
the 2,780 requests were made during National Preparedness Levels 4 and 
5? How many of the 624 unfulfilled requests were during National 
Preparedness Levels 4 and 5?
    Answer. The following do not include helicopter orders; they are 
reported in question 4.





Total Requests.......................................              3,787
Total UTF............................................                693
Total Request while at PL 4 & 5......................       2,860 or 76%
Total UTF at PL 4 & 5................................         605 or 87%


      
    Question 6. Last year, Senator Cantwell, Senator Domenici, and I 
introduced a bill to help cover a portion of personal liability 
insurance costs for Federal firefighters, and Senators Feinstein and 
Craig helped to get that enacted through the Interior Appropriations 
bill. Can you tell me whether the Forest Service currently is using 
that authority to help cover those costs for all of its firefighters 
that elect to get that insurance?
    Answer. Yes, the authority is being used to assist temporary 
wildland fire supervisors and managers meet the cost of professional 
liability insurance. A letter was issued by Chief Kimbell on March 14, 
2008 outlining the availability of the personal liability insurance 
benefit. Attached to the letter were procedures for claiming the 
benefit and a list of approved positions that were either specifically 
mentioned in or meet the intent of the authorizing and accompanying 
report language. We appreciate the work of the Committee for this 
authority.
    Question 7. The same report reveals that the agencies operated at 
National Preparedness Level 5 (when geographic areas are experiencing 
major incidents which have the potential to exhaust all agency fire 
resources) for an average of about 7.4 days during the 1990s and for an 
average of about 32 days since 2000. Does this indicate that the 
agencies are less prepared to manage the fires we have experienced in 
recent years than they were for the fire activity we experienced during 
the 1990s?
    Answer. As a result of the National Fire Plan, the agencies' fire 
fighting capability expanded. However, the increased capability is 
being challenged by environmental and social changes such as climatic 
conditions, increased fuels load and expanded development in the 
wildland-urban interface. National Preparedness Levels are influenced 
significantly by factors associated with large fire activity. We have 
experienced an increase in acres burned and several years of large, 
multi-incident complexes. The agency can and has called upon temporary 
crews from other Federal and State agencies, Tribal and local 
governments, contract crews, Department of Defense, and if conditions 
are extreme, assistance from Canada, Mexico, Australia, and New 
Zealand, using established agreements and protocols to meet fire 
fighting needs. The agency is also reflecting risk management, 
performance measures, and monitoring--both effectiveness and 
performance--in its allocation, command and control decisions. In the 
face of these challenges, the agency has dedicated additional resources 
to prepare for wildland fire seasons and has performed consistently 
well, maintaining a high level of initial attack capability and 
success.
    Question 8. The independent panel report the Forest Service 
released today calls for increased transparency and collaboration in 
the development Fire Management Plans. A similar report made the same 
recommendation last year. Despite the fact that you had said you would 
act on those recommendations immediately, when I asked you about this 
for the record last year, the agency's response was basically that 
public participation is unnecessary for fire plans because the public 
can participate in the development of the broader land management plan. 
But under the agency's new planning rule, those land management plans 
would include only very broad guidance, not specific direction--
something that the report also identified as problematic. Can you 
explain why you oppose including the public in the development of the 
Forest Service's fire management plans?
    Answer. The Forest Service strongly supports public participation 
in land management decisions, including the role of fire on the 
landscape. Fire Management Plans (FMP) are an operational extension of 
individual National Forest Land and Resource Management Plans. The FMP 
reflects decisions that are made in the Forest Plan and other 
documents. We believe that having public participation in land 
management plan revision is the best and proper venue for discussing 
fire management strategies. The Forest Plan clearly outlines desired 
conditions, guidelines and objectives for the forest and includes fire 
considerations. The FMP provides information on conditions to help fire 
managers at the time of ignition. The Forest Service frequently 
involves partners and the public in developing FMPs.
    Question 9. Will the Forest Service implement all of the 
recommendations made in the report released today? If not, which 
recommendations will not be implemented and why?
    Answer. The agency will develop an action plan to implement all of 
the Panel's recommendations.
    Question 10. A few years ago, the GAO reported serious problems 
with some firefighting contract crews showing up unfit for duty. Have 
those problems been fixed?
    Answer. The Forest Service has evaluated these reports and has 
taken action to address recommendations made by GAO. In April 2004, the 
GAO issued report GAO-04-426--BISCUIT FIRE: Analysis of Fire Response, 
Resource Availability, and Personnel Certification Standards, in which 
it was reported that some insufficiently trained or inexperienced 
contract crews negatively impacted firefighting efforts on the Biscuit 
Fire. GAO also reported that poorly trained and inexperienced contract 
crews presented significant operational concerns. And, in March 2006, 
the USDA Inspector General issued report No. 08601-42-SF--Forest 
Service Firefighting Contract Crews. In that report, the IG found that 
the agency needed to improve contract oversight, strengthen training 
and experience requirements, address control weaknesses at wildfire 
suppression associations, improve language proficiency assessments, and 
coordinate with other Federal agencies to identify undocumented 
workers. The IG issued nine specific recommendations to address these 
problems.
    The Forest Service agreed with all nine of the recommendations and 
outlined planned actions to address each in the report. Since that time 
we have acted to implement four of those recommendations (modifying the 
national contract to incorporate experience requirements, specifying 
minimum training and experience prerequisites, adopting a standardized 
field language assessment for contract crews, and coordinating with 
other Government agencies to develop expedited procedures for 
identifying counterfeit documents). Actions required to implement four 
others (establishing and implementing procedures to ensure adequate 
review of firefighter qualification records, verifying that 
associations' training sessions receive sufficient monitoring to ensure 
they are in accordance with standards, ensuring that associations 
restrict privileges to create and modify electronic training records to 
personnel who do not have financial interest in any contractors' 
business, and ensuring that the PNWCG completes the pre-season language 
assessment and certification) are nearly complete. We continue to work 
on improved training requirements to meet the remaining recommendation.
    Question 11. Is the Forest Service on track to meet all of the 
timelines stated in the June 12, 2008, GS-401 Update briefing paper? If 
not, which timelines will not be met and what is the new timeline?
    Answer. The Forest Service is committed to accomplishing the 
actions outlined in the USDA/USDOI GS-401 Plan, dated June12, 2008. We 
have amended the Plan to include specific deadlines for each activity. 
The Forest Service has notified every employee affected by the 
qualification change and is working with them to plan to achieve the 
positive educational requirements. The agency is working with 
universities and colleges to enter into agreements to accept National 
Wildfire Coordinating Group courses within their existing curriculum or 
to expand their curriculum to accept those courses toward natural 
resource degrees.
    Question 12. Will the Forest Service pay for leave and tuition and 
for all of its employees that are in GS-401 positions or slated to 
transition to such position in the next two years as necessary to meet 
the new qualifications?
    Answer. Yes, the Forest Service will support employees to achieve 
the positive education requirements needed to convert to GS-401 Fire 
Management Specialist positions. Our commitment to support employees 
has been expressed several times. In March 2004, a joint Department of 
Agriculture and Department of the Interior White Paper stated, ``IV. 
Agency support to assist workforce development: The agencies have 
collectively agreed to provide the funding and opportunities (e.g., 
training, compensated time) for employees in Key Fire Program Positions 
to meet the minimum qualification requirements of the IFPM Standard.'' 
In addition, a March 8, 2007 letter from Tom Harbour (Director, Fire 
and Aviation Management) to the field stated, ``Financial support of 
those pursuing 401 position education standards should be focused on a 
land management curriculum.'' Supervisors will be working with each 
employee to establish an individual development plan to meet these 
qualifications, if the employee desires, and support will be made 
available.
          Response of Mark Rey to Question From Senator Wyden
    Mr. Rey and Mr. Cason, in 8 of the last 12 years, the Forest 
Service has exceeded the ten-year average of fire suppression 
expenditures. This year, the growing cost of fire suppression could be 
driven even higher by the skyrocketing cost of oil. In recent years, 
the Forest Service has frequently ``borrowed'' money from fire 
suppression and other programs and currently carries a debt of $509 
million. A witness on the second panel for the hearing, Mr. Judd, 
testified that the ``diversion of fuel reduction dollars reduces the 
number of treated acres'' and this, in turn, allows many small fires to 
grow in size, intensity and cost.
    Question 13. Don't your agencies' money ``borrowing'' practices 
divert funds from needed preventative fire treatment and increase the 
costs of firefighting expenses?
    Answer. The practice at the Forest Service is to transfer 
unobligated balances when necessary from non-suppression fire funds 
that cannot be spent prior to the end of the fiscal year to fund 
emergency fire suppression. Reprogramming a portion of these funds 
demonstrates fiscal discipline and ensures the Forest Service does not 
borrow funds outside the fire account unnecessarily. Further, the 
Forest Service is aware of the need to retain adequate funding to 
ensure hazardous fuels reduction treatments continue at the beginning 
of the next fiscal year. The Forest Service has not used hazardous 
fuels funds as transfers to the suppression account to cover 
firefighting expenditures for almost 5 years. The agency has made a 
conscious decision to not use these funds for transfers because of the 
relationship you've noted between fuels project work and fire 
suppression. However, maintain sufficient funds this fiscal year, some 
hazardous fuels funding was used to cover fire suppression 
expenditures, including some project funds targeted for the wildland 
urban interface.
        Responses of Mark Rey to Questions From Senator Domenici
    In your testimony you state that the Forest Service and Department 
of Interior treated over 26 million acres of their lands from 2001 
through May 2008.
    Question 14. What was the total cost to the Forest Service for 
those treatments through that time period?
    Answer. Between 2001 and 2008, the Forest Service funded projects 
with over $2 billion specifically targeted to hazardous fuel reduction. 
In addition, the Forest Service has leveraged efforts from other 
compatible programs managing vegetation to further reduce hazardous 
fuels while meeting other management objectives.
    Question 15. Can you forecast how many acres will be slated for 
treatment in FY 2009?
    Answer. In FY 2009 the Forest Service plans to treat a total of 2.4 
million acres for hazardous fuel reduction and landscape restoration 
accomplished through other land management activities. We expect 
approximately 1.6 million acres of treatment to be funded out of 
hazardous fuel reduction accounts, and another 843,000 acres of fuel 
treatment from complimentary vegetation management work done by other 
program areas.
    Question 16. Would you provide the Committee a chart that shows a 
breakdown of the 26 million acres you say were treated since 2001?
    Answer. (See below)
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Question 17. Please include the method of treatment, the percentage 
of treatments that occurred within commercial forest land (stands 
capable of growing 20 cubic feet per year); non-commercial forest 
lands; and non-forested lands in each region for each year.
    Answer. Our data can show where our fuel treatments have been 
accomplished using prescribed fire (65% of our acres) versus mechanical 
fuel manipulation (35% of acres treated). A more detailed determination 
of what proportion of our mechanical fuels program has been 
accomplished on commercial forest lands and in various vegetation types 
would require data and analysis that are not available currently. We 
are designing our data systems to include spatial information beginning 
in FY 2009, but for the 2001 to 2008 period, we do not have that 
capability.
    Question 18. Using data provided by the Forest Service, I had my 
staff analyze the acres treated from 2005 through 2007, the amount of 
wilderness, and the rate of escaped fires from 2002 to 2007 for each 
national forest and region of the National Forest System. This analysis 
revealed that there are striking differences in trends between fuels 
treatment and escaped fires throughout the National Forest System. In 
Regions 1 and 2 there is, for the most part, a distinguishable trend 
among the amount of wilderness in a forest, the amount of acres 
treated, and the rate of escaped fires. However, in other regions this 
trend is less apparent.
    In New Mexico, there are several forests that received a moderate 
amount of treatment and have relatively low amounts of wilderness area 
that still saw their escaped fires increase (i.e. Carson, Cibola, 
Lincoln, Santa Fe). The Cibola National Forest in particular is only 
22% roadless and/or wilderness, had 2.4% of its acres treated, and had 
a 3.1% increase in escaped fire.
    18.Could you elaborate on what factors led to an increased rate of 
escaped fire despite these forests having an average of nearly 2% of 
their acres treated?
    Answer. Successful initial attack of unplanned ignitions depends on 
a variety of factors, largely including the condition of the fuels, 
topography, draught and weather conditions. The availability of 
suppression resources and access to the burning area are also factors. 
Fuel treatments can change fire behavior and lower resistance to 
control, but the Forest Service treats a very small percentage of the 
total hazardous fuels in any given year. Time after time we have 
observed that fuels reductions projects have had a positive affect on 
fire severity. However, depending on the site-specific location and the 
specific timing of a given fire, weather and topography can overwhelm 
the influence of fuel conditions on fire behavior. Our ability to 
predict when and where a fire will start is obviously limited, so fuel 
treatments are located in areas where we have the greatest chance for 
success and adjacent to valuable resources and assets that require 
additional protection.
    Question 19. Please provide the annual fuels treatment funding for 
these forests from 2005 to 2007 and an explanation of how this compares 
to the rest of the NFS.
    Answer. (See below)
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Question 20. Could you elaborate on why, as a whole, Region 3 saw 
an increase in escaped fire even though it has considerably less 
wilderness than other western regions and treated a comparable amount 
of its acreage?
    Answer. There is not a clear linear relationship between the amount 
of wilderness and initial attack success. The ``increase'' could be 
attributed to variable climates and random events like lightning/
thunderstorms with wildly variable spatial and temporal 
characteristics.
    Question 21. It appears that Region 2 saw the largest decrease in 
escaped fire by a considerable margin (5.38%, Region 5 was the next 
closest with a 0.75% decrease).
    Please elaborate on the factors that occurred in Region 2 during 
this time period that allowed such a decrease in the rate of escaped 
fire.
    Answer. Overall the period from 2001 to 2007 included average to 
below average fire seasons, with 2002 being an above average year 
anomaly. Short periods of drought existed in isolated areas across the 
geographic area along with periods of higher snow pack. Difficult fires 
appear to have occurred when dry conditions coincided with heavy, dry 
fuel conditions. This can be seen in the instance of the Hayman fire 
during the hot, dry 2002 fire season. Prior to the 2001 fire season, 
the five year average for fire conditions seems to have been drier, 
with a higher resistance to control and thus more escapes.
    Beginning in the mid 1990's the Region, in cooperation with its 
partners, developed a strong fire prevention message that emphasized 
Firewise protective measures near State and private land. This program 
raised the visibility of the fire problem in the wildland-urban 
interface, particularly on the Front Range, and promoted increased 
cooperation with its partners. This greater cooperative effort surely 
helped to increase the efficiency of the initial attack response.
    Finally, the 2001 fire season was the first to benefit from the 
National Fire Plan which was established in August of 2000. The 
emphasis during the first three years of the plan was to improve the 
initial attack capability through the increased staffing of the fire 
preparedness organization. The fire and fuels conditions, coupled with 
the management actions of the Region and its partners, additional 
resources also contributed to the improved initial attack success of 
the Region.
    Question 22. You stated in your testimony that there is expected to 
be ``above normal significant fire potential'' in the Rocky Mountains 
for the 2008 wildfire season.
    What was the forecasted fire potential for this region during the 
time period (2002-07) that escaped fires decreased?
    Answer. As stated above, 2001 to 2007 was considered average to 
below average fire seasons, with 2002 being an above average year 
anomaly. Please reference question 23 for a summary of the annual 
significant fire potential outlooks.
    Question 23. Please also provide a comparison of your potential 
fire forecast for the Rocky Mountain region vs. what actually occurred 
each year from 2002--2007.
    Answer. Verification of the monthly and seasonal outlooks has 
proved to be difficult since fires occur only if there is an ignition 
source. In the west, ignitions primarily come from lightning, however 
human caused fires also account for some of the more significant fires. 
Consequently, if pre-disposing conditions exist (e.g. dry fuels, hot 
temperatures, low relative humidity, and winds), but there are no 
ignitions, there will be no fire even though the potential was there. 
Below is a comparison of the early season ``significant fire 
potential'' outlook and the reported fire activity. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Question 24. Could you estimate how much funding for fuels 
treatment in Region 2 will be allocated in FY 2009 by forest or 
grassland?
    Answer. (See below) 

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Question 25. How does this compare to the funding it received from 
2002 to 2007 for fuels treatment?
    Answer. (See below)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Regions 8 and 9 have comparable amounts of wilderness/roadless area 
(14.5% and 17.8% respectively), yet Region 8 treated approximately 10 
times as many acres as Region 9.
    Question 26. How do you explain such a drastic difference in 
treated acres between the two eastern regions?
    Answer. The natural resource character, land use history and 
management requirements of the two regions are very different. Region 8 
with its milder winters, longer growing seasons, and generally more 
gentle topography create an excellent environment for successful 
prescribed burning. Forest ecosystems in Region 8 are adapted to 
frequent fire disturbance, creating a need for frequent burning or 
other vegetative manipulation to meet hazardous fuel reduction and 
ecological restoration and maintenance objectives. Public acceptance of 
prescribed fire in the southeastern U.S. is very strong, in contrast to 
the reluctance toward burning that is common in much of the rest of the 
country. In the northeastern Region 9, the cooler climate supports 
different vegetation types that are less fire adapted, less fire prone, 
and have different management needs.
    Question 27. How does fuels treatment funding for these two regions 
compare to the rest of the National Forest System?
    Answer. (See below)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Question 28. Could you breakdown your costs for outside fire 
fighters, overhead personnel, caterers or other service providers by: 
California fire crews, other State-supplied fire crews, and outside 
contract crews, caterers, or other service providers?
    Answer. The Forest Service does not track these specific costs at a 
national scale. Information on aspects of these costs could be 
obtained, but would require a national data call to the field and 
additional analysis. Please reference question 31 for additional 
information.
    Question 29. Please describe how the Forest Service currently 
allocates funding for fuels treatment to the NFS. Does it take into 
account past fire frequency and intensity?
    Answer. The allocation of hazardous fuel dollars is based on a 
combination of need, ability and opportunity. The Forest Service uses 
the Hazardous Fuels Prioritization Allocation System to determine 
regional priority for hazardous fuel reduction funding. The criteria to 
determine priority include:

  <bullet> Wildfire Potential--Fuels potential, weather potential, 
        historical fire occurrence
  <bullet> Negative Consequence (values at risk)--Wildland Urban 
        Interface (WUI), timber, emissions, ecosystem vulnerability, 
        municipal water supply
  <bullet> Performance--Proportion of prior-year WUI program associated 
        with Community Wildfire Protection Plans, proportion of recent 
        year's program using Healthy Forests Restoration Act and 
        Healthy Forests Initiative authorities, maintenance acres
  <bullet> Opportunities--Restoration needs (FRCC), biomass, insect and 
        disease risk

    These factors are taken together using a tool developed by the 
Pacific Northwest Research Station with methodology that uses existing, 
nationally-consistent geospatial information to prioritize Regions for 
Hazardous Fuels Reduction program funding.
    Question 30. During the last two fire seasons (2006 and 2007), how 
many non-federal firefighters--state and/or private--did your agencies 
utilize to assist firefighting efforts?
    Answer. In calendar year 2006 and 2007 the five federal wildland 
fire agencies (the US Forest Service of the Department of Agriculture 
and the National Park Service, the Bureau of Land Management, the Fish 
and Wildlife Service, and the Bureau of Indian Affairs of the 
Department of the Interior) were assisted by 21,266 non-federal 
firefighters. Please reference the table below for more detailed 
information, including data limitations. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Question 31. How much did these outside firefighters cost your 
agencies in 2007?
    Answer. The Forest Service does not track specific salary costs for 
non-federal firefighters at the national level. In FY 2007, total 
cooperator costs were $159 million--these costs included personnel, 
travel, equipment, aircraft and other costs related to fire fighting 
services. Total contractor costs were $362 million--these costs were 
comprised of personnel and equipment for items such as crews, engines, 
heavy equipment, caterers, showers, etc.
    Question 32. What proportion of the total suppression cost does 
this represent for each of your agency?
    Answer. In FY 2007, cooperators accounted for approximately 12% of 
suppression costs and contracts, exclusive of aviation contracts, 
accounted for approximately 26% of suppression costs. Combined, they 
accounted for 38% of Forest Service costs.
    Question 33. One of the witnesses expressed his opinion that the 
Forest Service and Department of Interior should pay their firefighters 
on a ``portal-to-portal'' system, similar to the State of California's 
Department of Forestry and Fire Protection (CAL-FIRE).
    How much might it cost to pay Forest Service and Interior 
firefighters for twenty-four hours a day while they are on a fire 
assignment?
    Answer. It is important to note that the cost to pay Forest Service 
firefighters for twenty-four hours a day can vary quite a bit depending 
upon the criteria for how portal-to-portal pay is calculated.
    In 2005, an analysis was completed on the estimated cost of 
implementing HR 408, ``Federal Wildland Firefighter Emergency Response 
Act of 2005'', a bill that proposed a ``portal-to-portal'' pay system 
for certain wildland firefighting positions. This analysis concluded 
that 30-40 percent of the total Forest Service wildland fire 
suppression expenditures were personnel costs. It estimated, on 
average, an individual firefighters' pay would be increased by 42 
percent when in time with hazard pay and 28 percent when in time 
without hazard pay. In total the increase to personnel costs in 
suppression expenses would be about 8.2 percent.
    Currently, personnel costs still average between 30-40 percent. 
Using this same analysis and the total suppression costs in 2007 of 
$1.4 billion, a portal-to-portal pay system, similar to the one 
proposed in HR 408, would increase the Forest Service suppression costs 
by approximately $115 million.
    Question 34. How would a shift to portal-to-portal pay for federal 
agencies affect the ability of the states (outside California) to 
maintain state firefighting crews?
    Answer. We would not anticipate that implementing portal-to-portal 
pay for federal firefighters would affect the states' ability to 
maintain firefighting crews. The potential increased firefighter pay 
may enhance the desirability of a federal position, but without an 
increase in the number of firefighter positions, the effect should not 
be significant.
    Question 35. In your estimation, would a federal portal-to-portal 
pay system make it too expensive for some states to field wildland 
firefighting crews?
    Answer. There would be an increase in costs to states from a 
federal portal-to-portal pay system. The increase would be applicable 
for federal salaries in support of state incidents. Approximately 15% 
of federal costs on state incidents are associated with federal 
employee's base and overtime salary. The impact to states by this 
increase is unknown. It may be negligible for some States while others 
may find it cost-prohibitive to use federal firefighters on State 
fires.
    Question 36. If a portal-to-portal pay system were implemented for 
federal crews, would they still be required to pay overtime to those 
crews after they have worked their normal 8 hour shift?
    Answer. Under a portal-to-portal pay compensation system, wildland 
firefighters would not receive overtime after an 8 hour shift. This is 
evident both in the special overtime standard established as part of 
Section 7(k) of the Fair Labor Standards Act (FLSA) for non-exempt 
structural firefighters as well as by a number of Congressional bills 
that have recently been proposed for wildland firefighters.
    Currently only structural firefighters classified in the GS-081 
series that provide round-the-clock fire protection at certain DOD 
military installations receive portal-to-portal pay under Section 7(k) 
of the FLSA. They typically work 24-hour shifts within limited 
geographic areas of responsibility that include sleep, meals, and other 
personal standby time. Most have a 72-hour workweek consisting of three 
24-hour shifts because sleep and personal time is included in their 
duty shift. Under FLSA Section 7(k), GS-081 firefighters have no 
overtime pay until they have worked 53 hours in a week or 106 hours in 
a biweekly pay period. As a result, non-exempt GS-081 firefighters at 
the grades GS-5 through GS-9 receive a lower hourly rate of basic pay 
than other employees such as our wildland firefighters.
    Question 37. Would you continue to pay hazard pay or Sunday 
differential payments?
    Answer. Generally, under a portal-to-portal pay system, we believe 
that wildland firefighters would not receive hazard pay or Sunday 
differential payments. Hazard pay is currently not payable to GS-081 
structural firefighters receiving portal-to-portal pay under Section 
7(k) of the FLSA, since the typical hazards of firefighting are already 
taken into account in the classification of their job by the Office of 
Personnel Management.
    Question 38. Can you estimate how many state or private contract 
firefighters you might lose if a portal-to-portal pay system were 
implemented?
    Answer. There is no way to estimate reliably such potential losses.
    Question 39. If the federal agencies where forced to pay on a 
portal-to-portal basis and fire suppression and fire preparedness 
budgets remain static: relative to 2007 or 2008 how many additional, 
non-federal fire crews would you have to hire to maintain your 97% 
initial attack success rate?
    Answer. Implementation of a portal-to-portal pay system would not 
impact our initial attack success rate, nor would it require the 
recruitment of additional non-federal fire crews. Our ability to 
contain fires during the initial attack phase is more directly 
influenced by our preparedness capability.
    Question 40. Mr. Casey Judd of the Federal Wildland Fire Service 
Association made some pointed accusations about mismanagement of the 
federal fire fighting agencies and their management of fire funding.
    Please review his written testimony and respond to his charges 
about your agencies' management of funding and the fire program.
    Answer. The Forest Service takes these statements regarding 
management of funding and the fire program very seriously. We believe 
they are not based on data or credible analysis. The Department has 
requested that the USDA Office of the Inspector General look into the 
allegations by Mr. Judd to determine their validity. The agency will 
await the outcome of the inquiry and take corrective action if 
necessary, based on findings of the IG.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for James Cason From Senator Bingaman

    Question 1. Last year, Senator Cantwell, Senator Domenici, and I 
introduced a bill to help cover a portion of personal liability 
insurance costs for Federal firefighters, and Senators Feinstein and 
Craig helped to get that enacted through the Interior Appropriations 
bill. Can you tell me whether the Department currently is using that 
authority to help cover those costs for all of its firefighters that 
elect to get that insurance?
    Question 2. Please describe what each agency in the Department of 
the Interior is doing to assist employee's achieve the necessary 
accredited courses to continue their current 401 job series positions?
    Question 3. How will DOI agencies ensure that the valuable fire 
management experience is not lost for those employee's who cannot 
achieve the newly required positive education credits within the 
allowed timeframe?
    Question 4. How do you plan to support the career progress and 
aspirations for those employees who are caught in the firefighter 
qualifications issue and at no fault of their own, especially those 
with considerable fire management experience?
    Question 5. Is the Department on track to meet all of the timelines 
stated in the June 12, 2008, GS-401 Update briefing paper? If not, 
which timelines will not be met and what is the new timeline?
    Question 6. Will the Department pay for leave and tuition and for 
all of its employees that are in GS-401 positions or slated to 
transition to such position in the next two years as necessary to meet 
the new qualifications? If not, why not and how will it decide which 
employees should receive such support?
              Questions for James Cason From Senator Wyden
    Question 7. Mr. Cason, in 8 of the last 12 years, the Forest 
Service has exceeded the ten-year average of fire suppression 
expenditures. This year, the growing cost of fire suppression could be 
driven even higher by the skyrocketing cost of oil. In recent years, 
the Forest Service has frequently ``borrowed'' money from fire 
suppression and other programs and currently carries a debt of $509 
million. A witness on the second panel for the hearing, Mr. Judd, 
testified that the ``diversion of fuel reduction dollars reduces the 
number of treated acres'' and this, in turn, allows many small fires to 
grow in size, intensity and cost.
    a.Don't your agencies' money ``borrowing'' practices divert funds 
from needed preventative fire treatment and increase the costs of 
firefighting expenses?
    Question 8. As discussed in the hearing, your agencies' contracts 
for firefighting airplanes and helicopters are negotiated annually; I 
brought up a question about the rising cost of fuel and impacts on 
firefighting abilities of airplane and helicopter contractors who are 
unable to offset these cost. Mr. Cason, you stated that your contracts 
have built in ``escalators'' that provide for increased fuel prices. 
According to the Department of Energy's statistics, one year ago the 
average price of diesel fuel was $2.90 per gallon. The June 2008 
average price of diesel fuel is $4.70 per gallon and currently the 
price trend continues to increase. We have seen a 62% increase when 
comparing June 2007 diesel fuel prices to June 2008 prices.
    a.Does your contract ``escalator'' mechanism for fuel prices take 
into consideration a 62% increase in fuel prices? If your ``escalator'' 
truly compensates for these type of rising fuel prices, then why did 
you state during your testimony that at the ``end'' of the fire season 
your agency may need to borrow money from other programs to pay for 
increased fuel cost?
    b. Will the higher cost of aviation fuel mean reduced firefighting 
resources?
    c. Finally, as mentioned above, will your ``borrowing'' practices 
increase the ability of many small fires to grow in size, intensity and 
cost due to the diversion of funds from preventative fire treatment 
programs?

            Questions for James Cason From Senator Domenici
    Question 9. During last year's fire season, how many non-federal 
firefighters--state and/or private--did your agencies utilize to assist 
firefighting efforts?
    Question 10. How much did these outside firefighters cost your 
agencies in 2007?
    Question 11. Could you break those costs out by California crews or 
overhead, other States supplied crews or overhead, and outside contract 
crews, caterers, or other service providers?
    Question 12. What proportion of the total suppression cost does 
this represent for your agencies?
    Question 13. One of the witnesses expressed his opinion that the 
Forest Service and Department of Interior should pay their firefighters 
on a ``portal-to-portal'' system, similar to the State of California's 
Department of Forestry and Fire Protection (CAL-FIRE).
    How much might it cost to pay Interior firefighters for twenty-four 
hours a day while they are on a fire assignment per season?
    Question 14. How might a shift to portal-to-portal pay affect the 
ability of the state firefighting crews--outside of California--to 
participate in federal fires? Could it result in some states choosing 
to forgo fielding wildland fire crews?
    Question 15. In your estimation, would a portal-to-portal pay 
system make wildland firefighting too expensive for some states?
    Question 16. If a portal-to-portal pay system were implemented, 
would there be any logic for paying overtime?
    Question 17. Can you estimate how many state or private contract 
firefighters you might lose if a portal-to-portal pay system were 
implemented?
    Question 18. If the federal agencies are forced to pay on a portal-
to-portal basis and fire suppression and preparedness budgets remain 
static: relative to 2007 or 2008 how many additional, non-federal fire 
crews would you have to hire to maintain your 97% initial attack 
success rate?
    Question 19. Mr. Casey Judd of the Federal Wildland Fire Service 
Association made some pointed accusations about mismanagement of the 
federal fire fighting agencies and their management of fire funding.
    Please review his written testimony and respond to his charges 
about your agencies' management of funding and the fire program.

                                    

      

</pre></body></html>
